<html>
<title> - NASA MANAGEMENT PROBLEMS</title>
<body><pre>[Senate Hearing 106-1095]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1095

                        NASA MANAGEMENT PROBLEMS

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 22, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



78-634              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                       Mark Buse, Staff Director
                  Martha P. Allbright, General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                                 ------                                

             Subcommittee on Science, Technology, and Space

                    BILL FRIST, Tennessee, Chairman
CONRAD BURNS, Montana                JOHN B. BREAUX, Louisiana
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
TED STEVENS, Alaska                      Virginia
SPENCER ABRAHAM, Michigan            JOHN F. KERRY, Massachusetts
                                     BYRON L. DORGAN, North Dakota


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held March 22, 2000......................................     1
Statement of Senator Burns.......................................     7
Statement of Senator Frist.......................................     1
    Prepared statement...........................................     2
Statement of Senator Hutchison...................................     3
Statement of Senator McCain......................................     5
    Prepared statement...........................................     6

                               Witnesses

Goldin, Daniel S., Administrator, National Aeronautics and Space 
  Administration.................................................     8
    Prepared statement, with enclosure and attachment............    11
Li, Allen, Associate Director, National Security and 
  International Affairs, U.S. General Accounting Office..........    42
    Prepared statement...........................................    44
McDonald, Harry Dr., Director, Ames Research Center, National 
  Aeronautics and Space Administration...........................    48
    Prepared statement...........................................    50
Spear, Tony, Task Leader, National Aeronautics and Space 
  Administration's Faster, Better, Cheaper Review Team...........    54
    Prepared statement...........................................    56
Stephenson, Arthur G., Director, George C. Marshall Space Flight 
  Center, National Aeronautics and Space Administration..........    58
    Prepared statement...........................................    60

                                Appendix

Response to written questions submitted by Hon. John McCain to:
    Daniel S. Goldin.............................................    77
    Allen Li.....................................................    75
    Dr. Harry McDonald...........................................    84
    Tony Spear...................................................    76
    Arthur G. Stephenson.........................................    76

 
                        NASA MANAGEMENT PROBLEMS

                              ----------                              


                       WEDNESDAY, MARCH 22, 2000

                                       U.S. Senate,
            Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:32 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Bill Frist, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. BILL FRIST, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Frist. Good afternoon. I would like to welcome all 
of our guests here today as the Subcommittee on Science, 
Technology, and Space convenes this hearing on the current 
management challenges at NASA.
    This afternoon, although we hope to discuss where we have 
been in the past, we also want to take a look at where we are 
going in the future.
    First, let us take a look at what has brought us to today's 
hearing. The year 1999 proved to be a very difficult and 
challenging one for the agency.
    We have read the reports on workers searching for misplaced 
Space Station tanks in a landfill; loose pins in the Shuttle's 
main engine; failure to make English-metric conversions causing 
the failure of a $125 million mission to Mars; two-time use of 
rejected seals on a Shuttle's turbo-pumps; $1 billion of cost 
overruns on the prime contract for the Space Station, with 
calls from the Inspector General at NASA for improvement in 
NASA's oversight; workers damaging the main antenna on the 
Shuttle for communication between mission control and the 
orbiting Shuttle; urgent repair mission to the Hubble 
Telescope; approximately $1 billion invested in an experimental 
vehicle and currently no firm plans for its first flight, if it 
flies at all; and the lack of long-term planning for the Space 
Station, an issue on which the Subcommittee has repeatedly 
questioned NASA.
    This Subcommittee recognizes and appreciates the technical 
challenges and hurdles NASA must address to make its missions 
successful. However, based upon our initial review of the 
various investigation reports on these problems, the real 
culprit may be management. We cannot and should not dismiss 
good basic management as an essential component of success. It 
still gets back to the fundamentals of planning, of leading, of 
organizing and of controlling.
    Furthermore, we must ensure that every individual not only 
understands their job, but also performs it well.
    Regardless of whether NASA's mantra is ``Faster, Better, 
Cheaper,'' ``Mission Success First,'' or some other phrase, 
``back to basics'' should be--must be an integral part of the 
agency's infrastructure.
    The bottom line is that we need to confirm that proper 
management is in place and functioning as it should be.
    We cannot proceed until we have done everything we can to 
ensure that safety is at the forefront of every NASA endeavor. 
We must realize that human lives are at stake each time the 
Shuttle is launched, and therefore, we must take every 
precaution to guarantee the astronauts return home safely.
    It is necessary that we have this hearing today. For $14 
billion a year, the American taxpayers deserve better. So with 
the oversight responsibilities of this Committee, we hope to 
further discuss with our witnesses today how to get NASA back 
on track.
    We are alarmed by the sheer volume of the reports that we 
will discuss today. Their recommendations are numerous and far 
reaching. It will take time for us to fully review these 
recommendations. In the meantime, I look forward to receiving 
NASA's implementation plan from these collective reports later 
this year.
    Later in the hearing, we will be referring to, I am sure, a 
UPI article from yesterday that I read last night, that alleges 
that NASA currently holds the finding of the Young report, 
originally scheduled to be released earlier this month, but now 
delayed until final approval by the White House.
    The content of the story, I am sure we will discuss, and I 
note that a press release has been released by NASA this 
afternoon in response.
    I do want, in advance, to thank all of our witnesses for 
coming before the Committee today. I would especially like to 
commend the individuals who participated on the various review 
teams. Your work is clearly crucial to our oversight process.
    [The prepared statement of Senator Frist follows:]

                Prepared Statement of Hon. Bill Frist, 
                      U.S. Senator from Tennessee

    I would like to welcome all of our guests here today as the 
Subcommittee on Science, Technology, and Space convenes this hearing on 
the current management challenges at National Aeronautics and Space 
Administration (NASA).
    This afternoon, although we hope to discuss where we've been in the 
past, we also hope to discuss where we're going.
    First, let's take a look at what has brought us to today's hearing. 
The year 1999 proved to be very difficult for the agency. We have read 
the reports on:

  <bullet> Workers searching for misplaced Space Station tanks in a 
        landfill;

  <bullet> Loose pins in the Shuttle's main engine;

  <bullet> Failure to make English-metric conversions causing the 
        failure of a $125 million mission to Mars;

  <bullet> Two-time use of ``rejected'' seals on Shuttle's turbopumps;

  <bullet> $1 billion of cost overruns on the prime contract for the 
        Space Station with calls from the Inspector General at NASA for 
        improvement in NASA's oversight;

  <bullet> Workers damaging the main antennae on the Shuttle for 
        communication between mission control and the orbiting Shuttle;

  <bullet> Urgent repair mission to the Hubble Telescope;

  <bullet> Approximately $1 billion invested in an experimental vehicle 
        and currently no firm plans for its first flight, if it flies 
        at all; and

  <bullet> The lack of long-term planning for the Space Station, an 
        issue on which the Subcommittee has repeatedly questioned NASA.

    This Subcommittee recognizes and appreciates the technical 
challenges and hurdles NASA must address to make their missions 
successful. However, based upon our initial review of the various 
investigation reports on these problems, the real culprit is 
management. We cannot and should not dismiss good basic management as 
an essential component of success. It still gets back to the 
fundamentals of planning, leading, organizing and controlling. 
Furthermore, we must ensure that every individual not only understands 
their job, but also performs it well.
    Regardless of whether NASA's mantra is ``Faster, Better, Cheaper,'' 
``Mission Success First,'' or some other leading phrase, ``back to the 
basics'' should be an integral part of the agency's infrastructure. The 
bottom line is that we need to confirm that proper management is in 
place and functioning as it should be.
    We cannot proceed until we have done everything we can to ensure 
that safety is at the forefront of every NASA endeavor. We must realize 
that human lives are at stake each time the Shuttle is launched and, 
therefore, we must take every precaution to guarantee the astronauts 
return home safely.
    It is unfortunate that we have to have this hearing today, but its 
necessity is vital. Furthermore, for $14 billion a year, the American 
taxpayers deserve better. So with the oversight responsibilities of 
this Committee, we hope to further discuss with our witnesses here 
today how to get NASA back on track.
    We are alarmed by the sheer volume of the reports that we will 
discuss today. Their recommendations are numerous and far reaching. It 
will take time for us to fully review of these recommendations. In the 
meantime, I look forward to receiving NASA's implementation plan from 
these collective reports later this year.
    Last night I read an alarming article that alleges that NASA 
currently holds the finding of the Young report, originally scheduled 
to be released earlier this month, but now delayed until final approval 
by the White House. If the content of the new stories is indeed true, 
this is very disturbing, and there is sure to be significant fallout 
from the facts the report will uncover. I intend to focus some of my 
questions towards this subject later in the hearing.
    But first I want to thank each of our witnesses for appearing 
before the Committee today. I would especially like to commend the 
individuals who participated on the various review teams. Your work is 
crucial to our oversight process.

    For opening statements, I will turn to Senator Hutchison.
    Senator McCain, would you like to proceed?
    Senator McCain. I--I would like to go after Senator 
Hutchison. Thank you.
    Senator Frist. Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    And I want to say thank you to the Chairman of the 
Committee. I am happy to step aside if you have other things.
    Senator McCain. No. Please go on.
    Senator Hutchison. OK. Let me thank Senator Frist, as the 
Chairman of this Subcommittee, for convening the hearing. I 
think Senator Frist is certainly one of the most credible 
members of the Senate on this subject, and he is the perfect 
Chairman of this Subcommittee.
    And I know that his goal is the same as mine, and that is 
that we have a healthy NASA, because we know there are 
mistakes. We also know that in any endeavor whose mission is to 
push the envelope into new horizons is going to have mistakes 
along the way.
    But also, I think Senator Frist is right to ask the 
question so that we can strengthen NASA to make sure that it 
does meet its mission and continues to push the envelope of 
space.
    It is interesting that 4 years ago today the Space Shuttle 
Atlantis was engaged in our nation's third linkup with Russia's 
Mir Space Station. A 6-hour space walk in the Shuttle's cargo 
bay was conducted by two American astronauts while docked with 
Mir, and additionally the Space Shuttle dropped off Shannon 
Lucid, the first American woman to live on Mir.
    This historic journey signaled the cooperation that was 
forged between the United States and an international partner 
such as Russia.
    I would like at some point in this hearing, for Mr. Goldin 
to comment on that international partnership with Russia. And I 
think we certainly should question if it is in our best 
interest to continue that partnership, and I hope you will 
speak to that.
    We certainly should not lose sight of all that NASA has 
meant for our country. We should learn from our mistakes, but 
we should not be deterred in our cause. NASA's cause is nothing 
less than pushing the boundaries of our knowledge.
    Today's hearing will examine many of the management issues 
of NASA, its successes and its failures.
    NASA will present us with three reports that have been 
conducted to review the problems, including the loss of the 
Mars Polar Lander, Mars Climate Orbiter, the Wide Field 
Infrared Explorer and the Deep Space 2.
    During the nineties, ``Faster, Better, Cheaper,'' was 
embraced as the mantra of NASA. Perhaps the mantra for the next 
century should be ``Faster, Cheaper, and Better Defined,'' or 
should it be, ``Faster, Better-defined, and Not So Cheap''?
    I think we have got to admit that we have pushed the 
limits. NASA has tried very hard to meet the Congressional 
mandate that it be more efficient. You have dramatically 
reduced the cost of space flight while launching four times as 
many missions during the nineties.
    NASA is right to be ambitious. America expects that. But 
the American people also expect Congress to provide NASA with 
the resources the space agency needs to carry out its mission 
without having to cut corners, especially on manned space 
flight. As the Chairman said--and I would agree--space safety 
must not be compromised.
    I have a particular interest in the Space Shuttle. The 
McDonald report focuses on our Shuttle program and has laid 
forth recommendations. These have been addressed by the 
contractor, United Space Alliance.
    Certainly some of the questions raised in the report need 
to be continually reviewed. However, it is in the interest of 
all involved, including the contractor, that safety remain the 
top priority.
    So, Mr. Chairman, I also saw the report through B.B.C. and 
UPI that you saw, which I hope that Mr. Goldin will address 
regarding the Polar Lander.
    And with that, I will say thank you for calling the 
hearing, and I look forward to hearing from the witnesses.
    Senator Frist. Thank you, Senator Hutchison.
    Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. I thank you, Senator Frist. Thank you for 
your stewardship of this Subcommittee, and for the outstanding 
work that you are doing.
    Over the past year, I have continually been amazed by 
reports coming out of NASA about the mission failures and 
program delays. I am glad the Committee is examining these 
issues today.
    I understand that four of the reports on these incidents 
will be discussed, while other reports will be released later 
this month, which may require another Subcommittee hearing, as 
you mentioned, Senator Frist.
    The extent of mismanagement noted in these reports is 
somewhat startling. For years, I have expressed concern about 
the management, and I repeat my concern at this time.
    I am pleased to see that GAO is testifying along with the 
other witnesses. It is my understanding that the GAO will offer 
preliminary findings regarding the Shuttle work force and 
safety issues. And I obviously appreciate their efforts.
    In review of the various reports presented today, some of 
the overarching themes are apparent: staff complacency; 
inadequately trained personnel; lack of effective internal 
communication; and staff not following established procedures.
    The funding impact of failures and delays is quite 
startling, estimated to be in the billions of dollars. Some 
costs we cannot even calculate. But we do know that: the 
International Space Station cost increases the amount to $9 
billion; the two failed Mars missions cost $360 million; and X-
33, the experimental reusable launch vehicle, the future of 
which is uncertain, has a cost to date of approximately $1 
billion.
    We know it will take some time for NASA to digest all of 
the recommendations that will be made here. As such, the 
Committee looks forward to a formal response from NASA very 
soon.
    On a specific matter, which you have already referred to, 
Mr. Chairman, a press article reported that NASA knew of a 
fatal design flaw in the Mars Polar Lander even before its 
arrival on Mars, but that NASA withheld this information from 
the public.
    The article goes on to say that the future Young report on 
the Mars Polar Lander will be ``devastating.'' I have requested 
a copy of this report from NASA, but NASA has indicated the 
report cannot be released until cleared by the White House.
    It has been brought to my attention that NASA earlier today 
``categorically'' denied this report.
    I had originally hoped that the Young report would be a 
part of today's discussions, but the report was delayed from 
its original release date earlier this month.
    If the media reports are true, then the trust that is vital 
between the government and citizens has been violated and this 
warrants a very serious examination of how the agency operates. 
I hope that Mr. Goldin will specifically address this issue.
    I want to thank you very much, Mr. Chairman.
    I went to see a movie with my children last weekend, and 
the movie was called, ``Mission to Mars.''
    I do not know if you have had the opportunity to see it. I 
think it is a very interesting and exciting movie. And 
obviously the work and effort that NASA has been involved in 
has captured the imagination of all Americans, young and old.
    But we also have a responsibility obviously to the 
taxpayers. On numerous occasions, this Committee has some--in 
some ways been bypassed, in direct approaches to the 
appropriations Committees--not the first organization that has 
done that.
    I think it is overdue perhaps that this Committee exercise 
more rigorously our oversight of NASA in light of recent 
events. And I hope that in working with you and other members 
of the Committee on both sides of the aisle, we can achieve 
that oversight in a more effective and more responsive way to 
the American taxpayer.
    For example, there should be some cost caps on some of 
these programs. They have continuously been increased over many 
years. We have been assured almost on an annual basis there 
would be certain cost limitations, and then those costs 
continue to increase.
    We have not demanded restraint in spending, but we have 
demanded accountability in cost estimates that continue to be 
exceeded year after year.
    So I thank you, Mr. Chairman. I thank the witnesses for 
being here today. And, it is great to be back.
    Thank you, Mr. Chairman.
    Senator Frist. Thank you, Senator McCain.
    [The prepared statement of Senator McCain follows:]

                Prepared Statement of Hon. John McCain 
                       U.S. Senator from Arizona

    First, let me thank Senator Frist for holding this hearing today 
and for his continual leadership of this Subcommittee.
    Over the past year, I have continually been amazed by the reports 
coming out of NASA about the mission failures and program delays. I am 
glad the Committee is examining these issues today. I understand that 
four of the reports on these incidents will be discussed while other 
reports will be released later this month.
    The extent of mismanagment noted in these reports is very 
startling. For years now, I have expressed concern regarding NASA's 
management and I repeat that concern at this time.
    I am pleased to see GAO is testifying along with the other 
witnesses. It is my understanding that GAO will offer preliminary 
findings regarding Shuttle workforce and safety issues and I applaud 
them for doing so.
    In review of the various reports presented today, some of the 
overarching themes are apparent: staff complacency, inadequately 
trained personnel, lack of effective internal communication, and staff 
not following established procedures.
    The funding impact of failures and delays is staggering, estimated 
to be in the billions of dollars. Some costs we can't even calculate. 
But, we do know that:

        --the International Space Station cost increases amount to $9 
        billion;
        --the two failed Mars missions cost $360 million; and
        --X-33, the experimental reusable launch vehicle, the future 
        of which is uncertain, has a cost to date of approximately $1 
        billion.

    We know it will take some time for NASA to digest all of the 
recommendations that will be made here. As such, the Committee looks 
forward to a formal response from NASA very soon.
    On a specific matter, yesterday, a press article reported that NASA 
knew of a fatal design flaw in the Mars Polar Lander even before its 
arrival at Mars, but that NASA withheld this information from the 
public. The article goes on to say that the future Young report on the 
Mars Polar Lander will be ``devastating'' to NASA. I have requested a 
copy of this report from NASA, but NASA has indicated the report cannot 
be released until cleared by the White House.
    It has been brought to my attention that NASA, earlier today, 
``categorically'' denied this report.
    I had originally hoped that the Young report would be a part of 
today's discussions, but the report was delayed from its original 
release date earlier this month.
    If the media reports are true that NASA withheld critical 
information from the public and elected officials, then the trust that 
is vital between this government and its citizens has been violated and 
warrants a very serious examination of how the agency operates. During 
today's hearing I hope Mr. Goldin will specifically address this 
matter.
    Senator Frist, again I thank you for your leadership on these 
issues and look forward to working with you and Senator Breaux in 
completing the NASA Authorization conference with the House.

    Senator Frist: This positioning of me here, and you there--
just a few more days, and you will be back up here. That is all 
right. You cannot stay away too long. That is right.
    [Laughter.]
    Senator McCain. Thank you.
    Senator Frist. Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you very much, Mr. Chairman. And that 
is the only chair you get to lean back though on. I noticed how 
he uses that very well.
    [Laughter.]
    Senator Burns. Mr. Chairman, thank you, and thank you for 
holding this hearing today. I think it is very apropos, because 
of what has become a swirl of information that is flying around 
the country, and most of it has been on the negative side.
    But I would tell you that any time that we deal with the 
unknown and the sciences and especially in our R&D, and our 
work in that area, there is always a failure or two along the 
way. And they get a lot more notice than all of the successes.
    I was struck by an article that I read. The difference 
between this country and, let us say, our counterparts, our 
Russian friends, all the years that we were in the space 
business, we were taking the technology that has been developed 
and the imagination of NASA and what they have learned and 
everything that they did, we had a way of taking that 
technology and transferring that into the private sector for 
the use of all American people.
    Our friends in Russia did not do that. They took all their 
technology and put it in a safe, and they held it there because 
they were afraid for anybody else to find out or do anything 
with it. And, therefore, you got a big powerful country over 
there that had as--at one time probably as--technologically was 
an equal with us. But they kept it in a safe, and they did not 
grow with it, and we did.
    All the time, we were transferring that technology into the 
private sector, and we were using it and become a part of our 
economy in this country, both in the medical field, the science 
field, the pharmaceuticals, all these where we have had great 
technological advances due to our space program.
    The other day, I mentioned that we had good news that we 
had found the Mars mission. It was in North Dakota. But I say 
that in kind of a joke, but basically we have got some 
undiscovered places there too.
    But nonetheless, we are not going to find all of the things 
that we try, and all the missions we go on are not going to be 
a success.
    And--and even though what--it is the negative parts that--
that happen in NASA that get the ink, it is the successes that 
we should put in a list and find out who is ahead in the ball 
game.
    So Mr. Chairman, I think oversight is very, very good, 
because it allows the agency to come before this Committee and 
to lay it out exactly what they know and their plans for the 
future, because we are still a society that reaches out. We are 
still a society that goes into the unknown.
    Our curiosity is as strong as it ever has been, and 
sometimes we are allowed up because of technology and what we 
know and what we do not know, and what we find out.
    So I want to congratulate you. You know, there are 
different programs that are sponsored by NASA across this 
country with our learning institutions and our young people, is 
absolutely dynamic, because they capture the imagination of 
young people aspiring into the sciences, into the mathematics, 
into the physics part of our every day life.
    And let us face it, that is the last frontier out there, 
and we lead. And not every mission is going to be successful, 
but I would say there is a learning process on every mission 
that is probably more than you can ever expect to buy by money. 
So I am interested to see this.
    I have got a bill I have got to get over on Energy, Mr. 
Chairman, but thank you for having this hearing and thank you 
for asking the hard questions.
    And I thank the leadership at NASA for coming today, 
because this is the way we solve our problems. This is the way 
we attack our challenges. And we do have challenges ahead of 
us.
    And I thank the Chairman very much.
    Senator Frist. Thank you, Senator Burns.
    As is customary, each witness will be given 5 minutes to 
present his or her prepared oral testimony. And Mr. Goldin will 
have as much time as he would like. The witnesses' entire 
written testimony will be made a part of the official record. 
And we will begin the first panel.
    Welcome, Mr. Goldin, Administrator, National Aeronautics 
and Space Administration. I think the opening comments reflect 
where our initial approach is, and so feel free to deviate from 
your--your presented testimony based either in response now or 
at the time of questioning.

    STATEMENT OF DANIEL S. GOLDIN, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Goldin. Thank you, Mr. Chairman. I would like to read 
my prepared oral statement and then address the issue that you 
and Senator McCain brought up.
    Senator Frist. That would be fine, thank you.
    Mr. Goldin. Mr. Chairman, good afternoon, and it is a good 
afternoon. Thank you for the opportunity to appear before you 
today regarding the recent failure of two Mars missions and 
delays in other NASA programs.
    At NASA, we push the boundaries. We spearhead revolutionary 
change. And on occasion, we experience failure. We do not 
flinch from challenge. We learn from our failures. And, we 
support the Committee's objective of examining us. This hearing 
is part of a great democratic process of open dialog and I, 
personally, welcome it.
    To begin, we must not forget that these failures have 
occurred in the context of a magnificent record of NASA 
accomplishments. I am proud of our record of having saved 
nearly $40 billion from planned budgets for the American 
taxpayer and doing more for less.
    Since 1992, NASA has launched 146 payloads valued at a 
total of $18 billion. Of this number, 136 payloads were 
successful. Our total losses amounted to ten payloads measured 
at about a half billion, or less than 3 percent of the total 
payloads launched.
    Planetary spacecraft, once launched twice a decade at a 
cost measured in billions are now routinely launched each year 
at a small fraction of that cost. This is world-class 
performance by any reasonable standard.
    Indeed, NASA has experienced some severe disappointments 
and problems this last year, as you pointed out, the back-to-
back losses of the Mars Climate Orbiter and the Mars Polar 
Lander and the Deep Space 2 probes, wiring problems in a 
hydrogen tank leak in the Shuttle, and a failure of the X-33 
composite tank to pass a qualification test. We are paying 
close attention to these failures, examining them, searching 
for root causes, and recommending changes.
    Mr. Chairman, let me also say that I believe strongly that 
delaying launches is not a failure. While we are vigilant about 
unnecessary cost growth, NASA is all too aware that rushing to 
launch when mission success issues have not been resolved 
increases the potential for failure and loss.
    In fact, NASA is deliberately--and I underline 
deliberately--encouraging a culture change in which any person 
can speak up to stop a program or launch if it is not ready or 
if it unsafe for the hardware or crew.
    During the last week, NASA released reports of the Shuttle 
Independent Assessment Team, the Mars Climate Orbiter mishap 
investigation board, and the Faster, Better, Cheaper review.
    The report of Tom Young's team will be released next week, 
followed by the X-33 review in the next few months. I will 
refrain from discussing them today, but would be pleased to 
return to address them after they have finalized.
    I might point out that all these reviews were invoked by 
NASA, not by outside sources. Some of the common findings from 
these reports are, one, in some cases, program managers did not 
employ the risk management tools that would have alerted them 
to the inadequacy of their budget, schedule and performance 
margins, with the consequence that risk levels were higher than 
anticipated, particularly in planetary missions, with fixed 
launch dates, launch vehicles, and science payloads.
    Two, at a time of major cultural change and a rapid 
increase in the number of programs underway, some programs were 
staffed with next-generation program managers, who had not been 
adequately trained and mentored, both in terms of resources for 
lessons from the past experiences and the use of revolutionary 
new tools and techniques, which I will talk about later.
    There have been instances in which problems have been 
observed, but not effectively communicated. And in some cases, 
employees have not adhered to sound engineering and management 
principles, particularly with respect to timely, independent 
peer review of scientific and technical approaches being used 
to achieve program goals.
    The cold facts of these reports do not convey the hopes and 
aspirations of the NASA/JPL teams that they would achieve what 
most people believe is impossible. And these failures are not a 
basis for reversing our course in pursuit of revolutionary 
change. NASA will not reverse our course.
    As has been the case at various times throughout the 
agency's 40-year history, we are committed to learn everything 
we can from these losses, alter our approach and with the 
dialog with Congress, where it is prudent to do so, move on 
forward.
    As I stated before this Committee in 1997, ``At NASA, we do 
not shy away from difficult missions. We have tremendous 
successes, but we also have failures, and we learn from them. 
Often the learning we do from our failures leads to greater 
successes than we originally imagined. That is why it is 
important for the young people to see NASA take risks. We want 
them to see that we are not afraid of failure and that they 
should not be either.''
    I want to publicly salute the entire NASA team, civil 
servants and contractors, and especially the courageous Mars 
1998 team for their perseverance and courage they have 
displayed in the face of change and transition.
    Success cannot be prescribed only by returning to past 
techniques for conducting missions. Success in the past was 
often achieved at great expense, using large government 
contractor teams and massive documentation to verify the design 
and implementation of complex systems. This nation cannot 
afford to do business in that manner, nor do we need to.
    Revolutionary new technologies and approaches to 
engineering are emerging. Success in the future will be 
achieved by using technology to enable small teams 
geographically dispersed, operating in virtual environments, 
using new tools such as soft computing, neural nets and 
learning systems to enable more fault-tolerant systems. NASA is 
a leader in developing collaborative engineering environments 
and design tools.
    These new directions will in the future enhance the quality 
and productivity of Faster, Better, Cheaper approaches. This 
strategy is a key element of our fiscal 2001 budget, and I seek 
the support of this Committee in implementing this strategy.
    Mr. Chairman, NASA has a strong commitment to excellence. 
Our response to failure is to take out a magnifying glass, 
examine what went wrong and why, and take corrective action.
    We disseminate the lessons learned to our work force and 
contractors. A better NASA team emerges through the process, 
galvanized to meet the challenges with renewed energy and 
resolve. This is a self-critical process, but essential to 
future success.
    In the near future, we will have compiled an integrated 
analysis of the corrective actions we will implement in 
response to the findings and recommendations of all the 
reports. We look forward to the future opportunity to discuss 
them with you.
    And in closing, I make this promise on behalf of the entire 
NASA team: NASA is resolved to make a great record even 
greater.
    Thank you and I am prepared to respond to your questions.
    [The prepared statement of Mr. Goldin follows:]

        Prepared Statement of Daniel S. Goldin, Administrator, 
             National Aeronautics and Space Administration
    Mr. Chairman and Members of the Subcommittee:

    I am pleased to be here today in response to your request that I 
provide testimony on several Agency programs, and I congratulate you 
for holding this hearing that focuses on NASA's failures. As you know, 
my own management style is to focus on what we need to do better, even 
while recognizing that almost all of what NASA does is done 
successfully. We learn from correcting our mistakes, by identifying the 
lessons learned from our endeavors and then ensuring that other 
programs apply those lessons. NASA is a research agency operating at 
the cutting-edge of science and technology. Even though we strive for 
excellence, we also must be aware that space launch vehicles and 
spacecraft must operate in an environment that is extremely 
unforgiving.
    We have recognized these challenges ourselves, and, on our own 
initiative, have proactively initiated a series of reviews. At the same 
time, I salute the NASA team; they are wonderful men and women 
experimenting with change. I welcome this opportunity to give you our 
preliminary assessment today of the several reviews that have been 
conducted and the reports that have been issued. We intend to reflect 
further, and would be pleased to return later this summer to outline 
our conclusions.
    Mr. Chairman, I understand that the Subcommittee's focus today is 
upon management issues, but I would like to remind the Subcommittee 
that NASA's record of accomplishment has been outstanding. I am proud 
of our record of having saved approximately $40 billion from planned 
budgets for the American taxpayer, and doing more for less. As 
testimony to the performance of the NASA team, since 1992, NASA has 
launched 146 payloads valued at a total of $18 billion. Of this number, 
136 payloads were successful. We believe our success is a testimony to 
NASA's strong systems engineering capability. Our total losses amounted 
to 10 payloads, measured at about $1/2 billion, or less than 3 percent. 
The Mars 1998 failures alone accounted for 60 percent of this loss. 
Planetary spacecraft, which used to be launched twice a decade at a 
cost measured in the billions, are now routinely launched each year at 
a small fraction of that cost. This is world class performance by any 
reasonable standard. I would like to recount a few of the successes of 
the past year:

  <bullet> We began the year with the successful launch of Deep Space 
        One, a mission to test 12 revolutionary technologies necessary 
        for the future of space science.

  <bullet> STS-93, commanded by the first female Shuttle commander, 
        deployed the Chandra X-ray Observatory;

  <bullet> Deployment of the EOS series of satellites was begun, with 
        the launch of Landsat 7, followed by QuikSCAT, Terra, the 
        flagship EOS satellite, and AcrimSAT.

  <bullet> The X-33 program made considerable progress by beginning 
        testing of the world's first aero-spike engine, scheduled to be 
        completed this summer;

  <bullet> ISS hardware to support the first 12 ISS assembly missions 
        was completed and stands poised for launch at the Kennedy Space 
        Center.

  <bullet> On STS-103, we repaired the Hubble Space Telescope (HST), 
        and HST has now found a value for how fast the universe is 
        expanding, after 8 years of painstaking measurement; and,

  <bullet> STS-99, the Shuttle Radar Topography Mission (SRTM) achieved 
        a breakthrough in remote sensing that will produce topographic 
        maps of Earth 30 times as precise as the best global maps in 
        use today.

    As you know, 1999 was marked by continuing launch vehicle failures 
that directly and indirectly impacted NASA programs. The Russian Proton 
failures have had a significant impact on the launch of the Russian 
Service Module Zvezda. The Japanese, Europeans, and the United States 
struggled to achieve safe and reliable access to space. Just two weeks 
ago, the Sea Launch vehicle experienced a failure. And, in 1999, NASA 
also experienced some severe disappointments and problems: the back-to-
back losses of the Mars Climate Orbiter and the Mars Polar Lander and 
the Deep Space-2 probes, wiring problems and a hydrogen leak in the 
Shuttle, and a failure of the X-33 composite tank to pass a 
qualification test.
    You have specifically requested that I address the Mars Program 
failures as well as delays in Space Shuttle launches, the International 
Space Station, X-33, and Gravity Probe B. You also asked me to 
specifically address the manner in which NASA is using systems 
engineering to facilitate the successful conduct of these missions.
    A number of independent reviews have been commissioned to examine 
these problems, search for root causes, and recommend changes. NASA 
worked closely with the Department of Defense and others on the Broad 
Area Review of DOD space launch failures. In July 1999, NASA requested 
that the former Mars Pathfinder Project manager conduct a study of 
NASA's approach to Faster, Better, Cheaper (FBC) program management, 
and make recommendation on a set of principles, tools, and processes 
for ensuring NASA's success in adapting the FBC approach to project 
planning, management and execution. In response to ascent anomalies 
observed on STS-93, NASA, in September 1999, chartered a Space Shuttle 
Independent Assessment Team (SIAT). The objective of the SIAT was to 
undertake a technical review of Shuttle maintenance and operations, and 
to bring to the Space Shuttle, where applicable, best practices of the 
external commercial and military aviation community. In October 1999, 
NASA chartered a Mars Climate Orbiter (MCO) Mishap Investigation Board 
to assess the actual or probable cause of the MCO mission failure. 
Following the loss of the Mars Polar Lander, the charter of the Board 
was expanded to investigate a wide range of space science programs, and 
to make recommendations regarding NASA project management based upon 
lessons learned from the expanded review. In November 1999, NASA and 
Lockheed Martin formed a review team to assess the causes and 
implications of the X-33 Liquid Hydrogen Composite Tank failure.
    Additionally, following the failures of the Mars Climate Orbiter, 
the Mars Polar Lander, and two Deep Space 2 microprobes, I determined 
that an in-depth review of the entire Mars Program should be undertaken 
by independent observers. The Mars Program Independent Assessment Team 
(MPIAT) was chaired by A. Thomas Young. The MPIAT report is expected to 
be released by the end of March, and the independent review of the X-33 
tank failure is scheduled to be completed in the coming weeks. I will 
refrain from commenting upon either of those reports today.
    As you can see, NASA has taken the initiative to commission these 
reviews and examine ourselves. Within the last two weeks, the reports 
of the Shuttle Independent Assessment Team, the Mars Climate Orbiter 
Mishap Investigation Board, and the Faster, Better, Cheaper Review have 
been issued. The reports will be made part of today's hearing record, 
and you will hear from the leaders of each team today. Some of the 
common findings from these reports are:

  <bullet> in many cases, program managers did not employ the risk 
        management tools that would have alerted them to the inadequacy 
        of their budget, schedule and performance margins, with the 
        consequence that risk levels were higher than anticipated, 
        particularly in missions with fixed launch dates, fixed launch 
        vehicles, and fixed science payloads;

  <bullet> at a time of major cultural change and a rapid increase in 
        the number of programs underway, programs were staffed with 
        next-generation program managers without, in some instances, 
        ensuring that they had been adequately trained and mentored, 
        both in terms of resources for lessons learned from past 
        experiences and the use of revolutionary new tools and 
        techniques.

  <bullet> there have been instances in which problems have been 
        observed, but not effectively communicated; and,

  <bullet> in some cases, employees have not adhered to sound 
        engineering and management principles and Agency standards and 
        procedures with respect to timely, independent peer review of 
        scientific and technical approaches being used to achieve 
        program goals.

    In summary, these findings convey a less than desired effectiveness 
of our project management and systems engineering practices with 
respect to the failed missions.
    These reports, and the pending Mars Program Independent Assessment 
Report, will provide a set of findings and recommendations that can 
serve as a strong foundation for executing the changes in NASA program 
architecture, management, systems engineering, design, and execution 
needed in the future. As has been the case at various times throughout 
this Agency's 40-year history, NASA is committed to learn everything we 
can from these losses, alter our approach where it is prudent to do so, 
and move on. NASA has undertaken a journey toward revolutionary change 
with the strong support of the Administration and Congress.
    These failures are not a basis for reversing our present course in 
pursuit of revolutionary change. And NASA will not reverse course. We 
are committed to fixing our shortcomings and moving forward. However, I 
believe it would be unwise to issue a prescription for mission success 
to the NASA workforce. They must have the freedom to innovate and 
learn. At the same time, there are fundamental considerations that must 
be taken into account. We must ensure that clear and independent peer 
review of scientific and technical approaches is done. It is essential 
that men and women being placed in new positions of responsibility and 
new technical assignments be trained and mentored, not only in terms of 
retrospective experiences and leadership, but prospectively as well, in 
terms of what we are already learning from revolutionary new tools and 
techniques. Criteria for mission success must be clearly articulated. 
Resource estimates must be commensurate with mission goals. Margins 
must be adequate. And there must be clear lines of communication up and 
down the management chain, allowing for open discussion. These 
fundamental considerations were not applied as they should have been in 
the Mars 1998 missions. As I stated before this Committee in 1997, ``At 
NASA we do not shy away from difficult missions. NASA has tremendous 
successes, but we also have failures and we learn from them. Often the 
learning we do from our failures leads to greater successes than we 
originally imagined. That is why it is important for young people to 
see NASA take risks. We want them to see that we are not afraid of 
failure, and that they should not be either.''
    There is no prescription that can eliminate the chance of failure. 
And success cannot be prescribed just by returning to past techniques 
for conducting missions. Imposition of prescriptions for mission 
success runs the risk of suffocating openness to change, risk taking, 
and willingness to fail. Prescription does not work because it does not 
allow for innovation and incorporation of new concepts and technology. 
We must recognize that we are at the leading edge of a transition 
toward a new generation of scientists and engineers. We need to examine 
failures experienced by NASA, other Government agencies, U.S. industry, 
and throughout Europe, Japan, and Russia. Within the broader context of 
the advanced development and science base of the United States, we are 
witnessing a demographic change. The engineering experience base of 
Apollo and the Cold War is retiring from the work environment, at the 
same time that NASA is facing very tough competition from dot.com 
organizations and the high tech industry for the best engineers and 
scientists emerging from our universities. Simultaneously, we are 
witnessing the emergence of new technologies and new approaches to 
engineering. Soft computing, neural networks, and learning systems, are 
being incorporated into design and operations to enable more fault-
tolerant systems rather than reverting to techniques of the past. The 
United States must be at the forefront of these new approaches to 
engineering, and must have a new engineering education curriculum to 
prepare its new engineers. NASA is fully engaged in these new 
directions in engineering and design tools, in information technology, 
nanotechnology, biotechnology and Intelligent Synthesis Environments. A 
key element of the Intelligent Synthesis Environment is Advanced and 
Collaborative Engineering Environments. These engineering environments 
were highlighted in the Phase I June, 1999 report of the National 
Research Council on Advanced Engineering Environments as a historic 
opportunity to create facilities and tools in collaboration with 
industry and academia to design, analyze, and conduct performance trade 
studies of complex systems with unprecedented levels of effectiveness 
in terms of time, cost and labor.
    NASA has taken proactive steps with the development of such tools, 
methods and facilities at NASA Centers since the early 1990's. The 
Project Design Center at JPL, and the Integrated Mission Design Center 
at GSFC are two examples of the application of such environments early 
in the formulation process to define requirements, develop design 
concepts, conduct performance trade studies, assess technology 
benefits, and provide parametric cost data on complex NASA missions. 
These environments also provide an opportunity to capture lessons 
learned in systems engineering designs and analysis. All of these are 
responsive to some of the concerns raised in the MCO and FBC reports 
and clearly represent a visionary step to take full advantage of the 
information, design and analysis tools revolution. The Agency 
recognizes that further integration into the physical and cultural 
infrastructure of the Agency is needed. The Aero-Space Technology 
Enterprise has already taken steps with its Lead Centers to develop 
business plans to address such concerns.
    I want to salute the Mars 1998 team. They pushed the envelope. The 
mistakes made can and will be corrected. Learning from those errors 
will enable NASA to strive for even greater accomplishments in the 
future. The entire NASA team, civil servants and contractors, has done 
an incredible job in the face of change and transition to Faster, 
Better, Cheaper.
    Mr. Chairman, let me also say that I believe strongly that delays 
in launch are not a measure of failure. Your concern about delays, and 
the consequent costs, is well taken. However, NASA is all too aware 
that rushing to launch when mission success issues have not been 
resolved increases the potential for failure. In fact, NASA is 
deliberately encouraging a culture change in which any person can speak 
up to stop a program or launch if it is not ready, or if it is unsafe 
in terms of hardware or crew. We are modifying NASA's performance goals 
and renegotiating contracts to remove the emphasis upon schedule, and 
refocus emphasis upon better design and quality.
    I salute our employees for their determination to delay launches of 
the Shuttle this past year until they were convinced we could safely 
launch. There are other instances, some involving delays of spacecraft 
valued at more than $1 billion, in which we have employed new tools and 
techniques with which our employees have demonstrated that they are 
empowered to identify problems prior to launch in order to fully 
resolve those issues.

  <bullet> In the case of AXAF, NASA delayed shipping the spacecraft to 
        verify software and faulty printed wiring boards were safe to 
        fly.

  <bullet> In the case of the Hubble Space Telescope servicing mission, 
        we delayed the launch to complete inspection, maintenance and 
        repair of Shuttle wiring.

  <bullet> In the case of Terra, we delayed the launch to ensure that 
        the launch vehicle propulsion system was safe following a 
        previous Atlas IIAS failure.

  <bullet> In the case of Deep Space-1, the team at the Jet Propulsion 
        Laboratory had problems; they delayed the launch, added 
        resources, and fixed it.

  <bullet> In the case of the SRTM mission, a delay to upgrade the 
        Shuttle allowed for additional analysis and simulations to 
        enhance safety and mitigate risk, helping us to better deal 
        with an in-flight anomaly. The ultimately stunning results will 
        benefit a variety of civil and national security interests.

    Mr. Chairman, NASA is in the process of addressing the various 
recommendations included in these reports.
    I have directed the NASA Chief Engineer to work with the four NASA 
Enterprises and NASA's Centers to develop an integrated implementation 
plan in response to recommendations emanating from all these reports 
for improvement in Program/Project Management and systems engineering 
and for the improvement of NASA's institutional infrastructure with 
respect to people, process tools, and technology. Actions will be 
defined in consultation with Enterprise managers, the NASA Academy of 
Program/Project Leadership, a training arm of the Agency's Office of 
Human Resources, the Program Management Council Working Group, an 
Agency-wide team of experienced project managers and system engineers 
and the various review groups. To accomplish this, the Chief Engineer 
will form an internal team of experts to assess all recommendations and 
develop Agency-wide approaches for improving the success of the Faster, 
Better, Cheaper class of missions. By August 2000, specific actions 
will be defined to ensure consistency of best practices during the 
formulation and implementation of programs and projects. Promulgation 
and deployment of the resultant actions will begin immediately 
thereafter. As I indicated earlier in this statement, the team will 
complete their proposed improvements by midsummer. I anticipate that 
those actions will result in revisions to:

  <bullet> Agency policy and requirements for program/project 
        management regarding staffing, systems engineering, risk 
        management, peer reviews and other best practices as well as 
        leadership plans;

  <bullet> Agency approaches to attracting, developing, and retaining 
        key engineering and project management skills;

  <bullet> increased utilization of information technology-based tools 
        to aid project execution during all phases; and,

  <bullet> heightened attention to development of future mission 
        technology needs.

    Mr. Chairman, I would like to outline a series of proactive steps 
that NASA has undertaken during the past 2 years that are intended to 
strengthen our systems engineering capability and which, when fully 
operational, will help address many of the recommendations included in 
the various reports. These steps reflect NASA's commitment to world-
class systems engineering throughout Agency programs.

        1. NASA deployed an Agency-wide NASA Policy Directive 7120.4, 
        in November 1996, for Program/Program Management, and NASA 
        Procedures and Guidelines NPG 7120.5, in April 1998, for NASA 
        Program and Project Management Processes and Requirements. The 
        processes and requirements defined by these documents are an 
        integral part of the Agency-wide management system established 
        to meet goals of NASA's Strategic Plan. This management system 
        provides the framework to govern the formulation, approval, 
        implementation and evaluation of Agency Programs and Projects.
        2. A NASA-wide Core Competency assessment was undertaken in FY 
        1999 to define the requisite NASA workforce skills in all 
        critical areas to accomplish Agency missions. One outcome of 
        this activity was reflected in the Administration's FY 2001 
        budget request to add additional civil service staffing, 
        following a 20-25 percent staffing reduction over the last 
        several years.
        3. An Agency-wide working group has formulated a revised 
        policy on program/project management focused on enhancing Risk 
        Management and the establishment, in October 1999, of a Systems 
        Management Office at each Center, led largely by senior project 
        managers and systems engineers, to ensure requirement 
        traceability and adherence to sound systems engineering 
        practices. Additionally, a focused effort has been undertaken 
        to safely reduce civil servants assigned to operational tasks 
        and to redeploy those resources to Research and Development 
        activities compatible with the Agency's strategic thrust.
        4. An Agency-wide focus on safety was implemented last summer. 
        The motto ``Mission Success Starts with Safety'' is intended to 
        ensure that the NASA and contractor workforce remain vigilant 
        in keeping safety (including the safety of ground and space 
        assets) the #1 core value. As part of this continuing focus, 
        NASA, in concert with the Aerospace Safety Advisory Panel, is 
        highlighting opportunities to design for safety. A renewed 
        emphasis will be placed on Failure Modes and Effects Analysis 
        (FMEA), fault tree analysis, and probabilistic risk analysis in 
        all of our projects and programs.
        5. The position of Deputy Chief Engineer for Systems 
        Engineering was established in February 2000, and filled with a 
        highly experienced person, in order to ensure increased 
        attention to sound systems engineering practices throughout the 
        Agency. Responsibilities of this position include the 
        development of the vision, strategies and objectives for the 
        development and maintenance of a world class engineering 
        capability. This includes assessing the discipline and systems 
        engineering workforce (quality, quantity, capability, 
        recruitment, training, life long learning, work experience, and 
        organization), enabling tools, facilities and methods, and the 
        development of action plans for continuous improvement.
        6. An Engineering Excellence Working Group has been 
        established to develop the vision, strategies and objectives 
        for the development and maintenance of a world class 
        engineering capability throughout the Agency. As part of the 
        Engineering Excellence initiative, the Chief Engineer is 
        formalizing an Agency-wide Systems Engineering Working Group 
        (SEWG). The SEWG will work closely with the Engineering 
        Management Council in guiding the assessment of the discipline 
        and systems engineering workforce, enabling tools, facilities 
        and methods, and the development of action plans for continuous 
        improvement.
        7. NASA is placing increased emphasis on performing rigorous 
        independent verification and validation of mission success-
        related software by enhancing the capability and responsibility 
        of the NASA IV&V Facility.
        8. For each of the 26 missions scheduled for launch in 2000, a 
        rigorous independent ``Red Team'' review has been conducted to 
        ensure that cost and schedule considerations have not 
        inappropriately influenced prudent risk decisions. Some of 
        these reviews have already led to launch delays because of 
        concerns raised. Additional risk mitigation measures stimulated 
        by these reviews have already demonstrated enhanced success on 
        the Shuttle Radar Topography Mission (SRTM).
        9. In order to improve the approach to independent assessment 
        of projects, the Chief Engineer has been tasked to better 
        integrate the full set of Agency, Enterprise, program and 
        project reviews to assure effective balance of performance, 
        cost, schedule, and risk considerations by the project and 
        appropriate awareness of those considerations by management.

    Mr. Chairman, I understand that you are considering introducing 
legislation that would require NASA to develop a systems engineering 
plan and implement it for every mission. We believe that appropriate 
responses to recent mission failures, particularly the planetary 
failures, must be the product of a comprehensive evaluation, to ensure 
that both the root causes and contributing causes are addressed. All 
the steps I have outlined above are designed to produce an integrated 
Agency response to report findings and to simultaneously strengthen our 
program management. We do not believe that success can be prescribed 
with legislation. We know that you care about the success of NASA's 
program, and that you want to help. Rather than pursuing a legislated 
prescription for systems engineering, we propose instead that you 
permit NASA to complete our assessment and provide you the result of 
our integrated response by late summer.
    I know that you and the other Members of this Subcommittee share 
NASA's objective to secure the maximum return on the investment of the 
American taxpayer in cutting-edge research and technology. I again 
commend you for focusing your attention on our recent mission losses, 
so that we can have a full and open dialogue on how we intend to 
address them. NASA remains fundamentally committed to revolutionary 
change so as to provide our Nation the highest quality space and 
aeronautics program. I have appended to my statement detailed 
information concerning the reports of the SIAT, the MCO Mishap 
Investigation Board, and the Faster, Better, Cheaper Review, as well as 
detailed information concerning program status of the Space Shuttle, 
International Space Station, X-33 and Gravity Probe B programs, as 
requested in your letter of invitation.
    Thank you. I would be pleased to respond to your questions.
                                 ______
                                 
                                          Enclosure
    Mars Climate Orbiter Failure

    The Mars Climate Orbiter (MCO) Failure Mishap Investigation Board 
was formally established by NASA's Associate Administrator for Space 
Science (OSS) on October 15, 1999.
    The MCO Mission objective was to orbit Mars as the first 
interplanetary weather satellite and provide a communications relay for 
the Mars Polar Lander (MPL) which was due to reach Mars in December 
1999. The MCO was launched on December 11, 1998, and was lost sometime 
following the spacecraft's entry into Mars occultation during the Mars 
Orbit Insertion (MOI) maneuver. The spacecraft's carrier signal was 
last seen at approximately 09:04:52 UTC on Thursday, September 23, 
1999.
    The Board was established to gather information, analyze, and 
determine the facts, as well as the actual or probable cause(s) of the 
MCO Mission Failure Mishap in terms of (1) dominant root cause(s), (2) 
contributing cause(s), and (3) significant observations and to 
recommend preventive measures and other appropriate actions to preclude 
recurrence of a similar mishap.
    An immediate priority for NASA was the safe landing on Mars on 
December 3, 1999, of the Mars Polar Lander (MPL) spacecraft, then en 
route to Mars. The Board's investigation was conducted recognizing the 
time-criticality of the MPL landing, and the activities the MPL mission 
team needed to perform to successfully land the MPL spacecraft on Mars. 
Hence, the Board's first report was to focus on any lessons learned 
from the MCO mission failure in order to help assure MPL's safe landing 
on Mars. The Board completed its first report, which was accepted, 
approved and released by the Associate Administrator for Space Science 
and the Associate Administrator for Safety and Mission Assurance on 
November 10, 1999.
    On January 3, 2000, the Associate Administrator for Space Science 
revised the objectives of the Board's second and final report to 
broaden the area of investigation beyond the MCO failure. The Board was 
to investigate a wide range of space science programs and to make 
recommendations regarding project management within NASA, based upon 
reviewing lessons learned from this broader list of programs.
    The Board was also asked to address additional MCO findings and 
recommendations not related to MPL (and thus not reported in the first 
report), the ideal project management process to achieve ``Mission 
Safety First,'' the current project management process and where 
improvements are needed, recommendations for bridging the gap between 
the current and ideal projects, and metrics for measuring project 
performance regarding mission safety. The Board completed its final 
report, which was accepted, approved and released by the Associate 
Administrator for Space Science and the Associate Administrator for 
Safety and Mission Assurance on March 13, 2000.

    Summary of Contents and Major Recommendations/Findings Contained in 
the First Report of MCO Mishap Investigation Board, Released November 
10, 1999

    The first Board report focused on any aspects of the MCO mishap 
that had to be addressed in order to contribute to the Mars Polar 
Lander's safe landing on Mars. The Mars Polar Lander (MPL) entry-
descent-landing sequence was scheduled for December 3, 1999. The Board 
determined that the root cause for the loss of the MCO spacecraft was 
the failure to use metric units in the coding of a ground software 
file, used in trajectory models.
    During the 9-month journey from Earth to Mars, propulsion maneuvers 
were periodically performed to remove angular momentum buildup in the 
on-board reaction wheels (flywheels). These Angular Momentum 
Desaturation (AMD) events occurred 10-14 times more often than was 
expected by the operations navigation team. This was due to the fact 
that the MCO solar array was asymmetrical relative to the spacecraft 
body as compared to Mars Global Surveyor (MGS) which had symmetrical 
solar arrays. This asymmetric effect significantly increased the Sun-
induced (solar pressure-induced) momentum buildup on the spacecraft. 
The increased AMD events, coupled with the fact that the angular 
momentum (impulse) data was in English units, rather than metric units, 
resulted in small errors being introduced in the trajectory estimate 
over the course of the 9-month journey. At the time of Mars insertion, 
the spacecraft trajectory was approximately 170 kilometers lower than 
planned. As a result, MCO either was destroyed in the atmosphere or re-
entered heliocentric space after leaving Mars' atmosphere.
    While mistakes occur in spacecraft projects, sufficient processes 
are normally in place to identify such mistakes before they become 
critical to mission success. Unfortunately, for MCO, the root cause was 
not caught by the processes in-place within the MCO project.
    A summary of the contributing causes and recommendations for MPL 
are listed below.

    Contributing Causes:

        1. undetected mis-modeling of spacecraft velocity changes;
        2. navigation team unfamiliar with spacecraft;
        3. trajectory correction maneuver number 5 not performed;
        4. system engineering process did not adequately address 
        transition from development to operations;
        5. inadequate communications between project elements;
        6. inadequate operations navigation team staffing;
        7. inadequate training; and,
        8. verification and validation process did not adequately 
        address ground software.

    Recommendations for MPL:

  <bullet> the consistent use of units throughout the MPL spacecraft 
        design and operations;

  <bullet> conduct software audit for specification compliance on all 
        data transferred between JPL and Lockheed Martin Astronautics;

  <bullet> verify Small Forces models used for MPL;

  <bullet> compare prime MPL navigation projections with projections by 
        alternate navigation methods;

  <bullet> train Navigation Team in spacecraft design and operations;

  <bullet> prepare for possibility of executing trajectory correction 
        maneuver number 5;

  <bullet> establish MPL systems organization to concentrate on 
        trajectory correction maneuver number 5 and entry, descent, and 
        landing operations;

  <bullet> take steps to improve communications;

  <bullet> augment Operations Team staff with experienced people to 
        support entry, descent, and landing;

  <bullet> train entire MPL Team and encourage use of Incident, 
        Surprise, Anomaly process;

  <bullet> develop and execute systems verification matrix for all 
        requirements;

  <bullet> conduct independent reviews on all mission critical events;

  <bullet> construct a fault tree analysis for remainder of MPL 
        mission;

  <bullet> assign overall Mission Manager;

  <bullet> perform thermal analysis of thrusters feedline heaters and 
        consider use of pre-conditioning pulses; and,

  <bullet> reexamine propulsion subsystem operations during entry, 
        descent, and landing.

Summary of Contents and Major Recommendations/Findings Contained in the 
Report on Project Management in NASA, by the MCO Mishap Investigation 
Board, released March 13, 2000

    Building upon the lessons learned from the MCO, and a review of 7 
other failure investigation board results, the Board's Report on 
Project Management in NASA lays out a new vision for NASA programs and 
projects--to improve NASA mission success within the context of the 
``Faster, Better, Cheaper'' paradigm. This vision, ``Mission Success 
First,'' entails a new NASA culture and new methods of managing 
projects.
    The Board's recommendation is that, to proceed with this culture 
shift, mission success must become the highest priority at all levels 
of the program/project and the institutional organization. The Board 
found that the institutional organizations were not appropriately 
engaged in assuring mission success. The Board recommends that all 
individuals should feel ownership and accountability, not only for 
their own work, but for the success of the entire mission. The Board 
asserted that, because people working on a project are the primary 
element of the mission-success equation, a new emphasis on people must 
be addressed across NASA programs.
    Examining the current state of NASA's program and project 
management environment, the Board found that a significant 
infrastructure of processes and requirements is already in place to 
enable robust program and project management. However, these processes 
have not been adequately implemented within the context of ``Faster, 
Better, Cheaper.''
    The MCO mission was conducted under NASA's ``Faster, Better, 
Cheaper'' philosophy, developed in recent years to enhance innovation, 
productivity, and cost-effectiveness of America's space program. The 
``Faster, Better, Cheaper'' paradigm has successfully challenged 
project teams to infuse new technologies and processes that allow NASA 
to do more with less. The success of ``Faster, Better, Cheaper'' is 
tempered by the fact that some projects and programs have put too much 
emphasis on cost and schedule reduction (the ``Faster'' and ``Cheaper'' 
elements of the paradigm). At the same time, they have failed to 
instill sufficient rigor in risk management throughout the mission 
lifecycle. These actions have increased risk to an unacceptable level 
on these projects.
    The Report summarized lessons learned from the September 1999 loss 
of the MCO spacecraft. The Board's analysis of the mishap concluded 
that program/project breakdowns occurred in 5 key areas:

  <bullet> systems engineering;

  <bullet> project management;

  <bullet> institutional involvement;

  <bullet> communication among project elements; and,

  <bullet> mission assurance.

    The Report then compared these breakdowns with other failed NASA 
missions--as well as with a long history of successful NASA missions--
and from that analysis outlined a formula for future mission success, 
termed ``Mission Success First.'' ``Mission Success First'' is a 
comprehensive project management strategy for improving the likelihood 
of mission success in every NASA endeavor. It addresses elements of 
project management that require greater attention throughout NASA:

  <bullet> renewing the focus on choosing and training the right 
        personnel;

  <bullet> establishing and monitoring disciplined project processes;

  <bullet> ensuring proper project execution with active participation 
        of NASA institutional line management; and,

  <bullet> aggressively developing and maintaining leading-edge 
        technology.

    Among the recommendations in the Board's Report on Project 
Management in NASA are:

  <bullet> improved system engineering processes;

  <bullet> better, more thorough reviews;

  <bullet> improved risk assessment and management;

  <bullet> stronger teamwork and communications among all parties;

  <bullet> improved process for reporting problems;

  <bullet> operations involvement from the outset; and,

  <bullet> use of a checklist formulated by the Board as a guide for 
        project managers and review panels (see Attachment 1).

Spear Report on Improved Faster Better Cheaper Project Management

    The Faster, Better, Cheaper (FBC) concept of project management was 
initiated by NASA in the early 1990's to challenge project managers of 
smaller, non-human spaceflight projects to use innovative approaches to 
reduce the development time of projects from 8-10 years to 3 years, and 
to development cost from billions to hundreds of millions. A corollary 
challenge was to reduce the size and complexity of spacecraft, such 
that singular mission failures would not significantly impact overall 
program objectives, if multiple smaller spacecraft were designed and 
built to accomplish the same mission previously accomplished by single 
large spacecraft. The primary Centers responsible for these types of 
spacecraft are the Jet Propulsion Laboratory (JPL) and NASA's Goddard 
Space Flight Center.
    The Mars Pathfinder was one of the first FBC projects that had 
extensive visibility and was a resounding success. The Project was 
accomplished for about $250 million, developed and launched in 
approximately 3 years, and successfully landed on Mars on July 4, 1997. 
The project was managed by JPL under the leadership of Tony Spear.
    In early 1999, after the completion of several FBC projects, NASA 
recognized that the tools and processes for the formulation and 
implementation of FBC were variable between projects, and that an 
assessment of best practices would be useful to document and promulgate 
across NASA Centers. The Department of Defense had also expressed 
interest in FBC processes. As a result, NASA's Chief Engineer requested 
that Tony Spear assemble a team to review FBC with the objective of 
making recommendations on a set of principles, tools and processes for 
ensuring NASA's success in adopting the FBC approach to NASA project 
planning, management and execution. The NASA FBC Task Final Report was 
released on March 13, 2000.

    Major recommendations of the NASA FBC Task Final Report are:

  <bullet> develop and maintain ``Mission Risk Signatures'' with 
        mitigation plans;

  <bullet> certify FBC project teams as to experience and expertise;

  <bullet> teach FBC Lessons Learned and Rules of Engagement to all 
        Centers;

  <bullet> develop a Project Performance Metric Checklist which is 
        updated at the yearly Independent Review;

  <bullet> empower an independent check of project success criteria;

  <bullet> strike a better balance between challenge and risk;

  <bullet> increase priority on people acquisition, motivation and 
        training;

  <bullet> assign a person at Headquarters responsible for advanced 
        technology infusion into projects;

  <bullet> strike a better balance between empowerment and assessment;

  <bullet> improve teaming between NASA, industry and universities;

  <bullet> increase priority of university involvement in space 
        missions; and,

  <bullet> increase use of information technology tools.

Space Shuttle Independent Assessment Report

    As a result of ascent anomalies experienced on STS-93 in July 1999, 
NASA Associate Administrator for Space Flight, Joseph H. Rothenberg, on 
September 7, 1999, chartered a Space Shuttle Independent Assessment 
Team (SIAT) to review Space Shuttle systems and maintenance practices. 
The SIAT was led by Dr. Henry McDonald, Director, NASA Ames Research 
Center, with a team comprised of NASA, contractor, and DOD personnel.
    The SIAT began work on October 4, 1999 and concluded their 
activities with a written report, submitted to the Associate 
Administrator for Space Flight on March 7, 2000.
    The SIAT focused their review on 11 technical areas: avionics; 
human factors; hydraulics; hypergols and auxiliary power unit; problem 
reporting and tracking process; propulsion; risk assessment and 
management; safety and mission assurance; software; structures; and, 
wiring. The team examined NASA practices, Space Shuttle anomalies, and 
civilian and military aeronautical experience. NASA's goal for the SIAT 
study was to bring to Space Shuttle maintenance and operations 
processes a perspective from the best practices of the external 
aviation community and, where applicable or appropriate, apply these 
practices to the Space Shuttle. The SIAT Report was released on March 
9, 2000.
    The SIAT made 81 specific Recommendations in the 11 Technical Areas 
they reviewed; 4 recommendations were dispositioned by NASA prior to 
the STS-103 Hubble Servicing Mission. The SIAT summarized their 
recommendations in 9 issues, listed in the Executive Summary:

        1. NASA must support the Space Shuttle Program (SSP) with the 
        resources and staffing necessary to prevent the erosion of 
        flight-safety critical processes
        2. The past success of the Shuttle program does not preclude 
        the existence of problems in processes and procedures that 
        could be significantly improved.
        3. The SSP's risk management strategy and methods must be 
        commensurate with the `one strike and you are out' environment 
        of Shuttle operations.
        4. SSP maintenance and operations must recognize that the 
        Shuttle is not an `operational' vehicle in the usual meaning of 
        the term.
        5. The SSP should adhere to a `fly what you test / test what 
        you fly' methodology.
        6. The SSP should systematically evaluate and eliminate all 
        potential human single point failures.
        7. The SSP should work to minimize the turbulence in the work 
        environment and its effects on the workforce.
        8. The size and complexity of the Shuttle system and of the 
        NASA/contractor relationships place extreme importance on 
        understanding, communication, and information handling.
        9. Due to the limitations in time and resources, the SIAT 
        could not investigate some Shuttle systems and/or processes in 
        depth. An independent group may be required to examine these 
        other areas and should be tasked with reviewing the Shuttle 
        program's disposition of SIAT findings and recommendations.

    The SIAT divided the remaining 77 recommendations into the 
following categories:

  <bullet> 37 recommendations identified as ``Short-Term'' (solutions 
        required prior to making more than 4 more Shuttle flights);

  <bullet> 30 recommendations identified as ``Intermediate'' (solutions 
        required prior to January 1, 2001); and,

  <bullet> 10 recommendations identified as ``Long-Term'' (solutions 
        required prior to January 1, 2005).

    NASA's Johnson Space Center, the Lead Center for Human Space Flight 
and the Space Shuttle Program, is reviewing and evaluating the SIAT 
recommendations, and will formulate a plan or response, as appropriate, 
for each over the next several weeks.
    NASA's goal for the SIAT review, as with previous independent 
assessments of the Space Shuttle, has been to identify opportunities to 
improve safety. It should be noted that the SIAT Report fully endorsed 
the continuation of Space Shuttle flights after disposition of the 
Team's immediate recommendations. The SIAT documented many positive 
elements during the course of their interviews with the Space Shuttle 
NASA/contractor workforce. Particularly noteworthy were the 
observations dealing with the skill, dedication, commitment and concern 
for astronaut safety and the entire Space Shuttle workforce. The SIAT 
report will provide additional input to the full range of activities 
already underway associated with Space Shuttle safety investments, 
including upgrades, maintainability, processes for Shuttle safety, and 
quality control.
Space Shuttle Workforce

    As NASA continues to assemble the International Space Station and 
support the infrastructure and upgrades to the Space Shuttle program as 
well as Expendable Launch Vehicle (ELV) commitments over the next 5 
years, the workload will increase steadily. Internal and external 
workforce assessments have convinced NASA management that NASA Human 
Space Flight (HSF) civil service FTE targets must be adjusted. From 
internal reviews, such as NASA's Core Capabilities Study, to external 
evaluations by the Aerospace Safety Advisory Panel (ASAP) and the Space 
Shuttle Independent Assessment (SIAT), it has become apparent that the 
HSF workforce required immediate revitalization. Five years of buyouts 
and downsizing have led to serious skill imbalances and an overtaxed 
core workforce. As more employees have departed, the workload and 
stress remaining have increased, with a corresponding increase in the 
potential for impacts to operational capacity and safety. HSF Centers 
will begin to accelerate hiring in FY 2000, in order to address 
immediate critical skill shortfalls. After the initial hiring of 500 
new personnel across the 4 HSF Centers in FY 2000, HSF workforce trends 
will begin a one-for-one replacement process and will allow HSF Centers 
to attain a steady state in civil service employment by FY 2001. NASA 
will continue to monitor HSF Center hires and attrition, ensuring that 
workforce skill balances are achieved and maintained.
    NASA will work with the Office of Management and Budget, in the 
coming months, to conduct a personnel review with an eye toward the 
future. This review will assess management tools and innovative 
approaches for personnel management that might best equip NASA to 
evolve and adapt our civil service workforce in the future. This will 
be particularly important as NASA continues our transition from 
operations to a focus on advancing the frontier with cutting edge 
research and development in science and technology.

ISS Cost Status

    Last year, NASA testified before the Congress that the FY 2000 
budget would provide stability throughout the assembly of the ISS, 
allowing us to uphold our commitment to our International Partners on 
the ISS program, while providing critical contingency capabilities. 
This has indeed been the case. Compared to the FY 2000 budget, the FY 
2001 budget request reflects an overall reduction in the budget and 
runout estimates through FY 2005 of about $1.2 billion. Roughly $0.8 
billion of this reduction is due to the movement of funding for the 
Phase 2 production of the ISS Crew Return Vehicle (CRV) to the Science, 
Aeronautics and Technology budget account. The FY 2002-2005 funding 
estimates for the CRV will reside in that account pending a decision in 
the next 2 years on whether to proceed with an X-38-based CRV design. 
This decision will be made in the context of broader decisions that 
NASA and the Administration will make regarding future space 
transportation architectures. There was also an approximate $0.4 
billion reduction in other ISS funding, over 5 years, to fund Agency 
needs and other high priority activities such as the Bioastronautics 
initiative.
    While the 5-year funding profile for ISS has decreased in the FY 
2001 budget, overall development costs are projected to increase. This 
growth, as in past years, is driven primarily by projected delays in 
reaching Development Complete. Development Complete is the point at 
which the ISS crew complement can be increased from 3 to 6 crew. Our 
current estimate is that the Development Complete schedule milestone 
will occur between Fall 2004-Fall 2005, with the projected cost in the 
range of $23-25 billion. Our estimate is that Assembly Complete 
schedule milestone will occur between May 2005-November 2006, with the 
projected cost in the range of $24-26 billion. These estimates do not 
reflect the full cost of contingency reserve for additional development 
effort and Shuttle costs that would be required to accommodate a 
partner or partners having difficulty meeting ISS commitments.
    NASA has kept the Committee briefed on the challenges facing NASA 
and our International Partners on the ISS program. Both U.S. and 
Russian difficulties contributed to last year's schedule delay. The 
Russian delays were caused by a Proton launch failure investigation. 
The planned July 2000 launch of the Service Module is now about a year 
later than projected in March 1999. While there has been much 
discussion about the state of readiness about our Russian partner, NASA 
has also experienced schedule delays. U.S. launch schedules supporting 
the ISS have slipped as a result of the wiring safety stand-down of the 
Shuttle fleet. Development and testing of U.S. elements has proceeded 
somewhat more slowly than expected. However, the current Service Module 
launch schedule date provides several months of schedule margin for 
U.S. assembly flights.
    At about this time last year, our Prime contractor reassessed their 
estimated level of overrun at completion of the ISS development 
contract. At the time, they had completed about 80 percent of the 
developmental effort, and their estimate of a $986 million overrun 
represented about 11 percent growth. Due to the level of increase in 
their estimate, and the fact that the development program was coming to 
closure, NASA initiated several additional independent analyses to 
establish confidence in the new Boeing estimate and to reassess 
Boeing's performance management processes. One of these steps was to 
request the NASA Inspector General (IG) to provide their assessment of 
the performance management and Prime costs. The IG report highlighted 
that Boeing continued to make optimistic estimates of their overrun. 
NASA continues to budget to a level higher than the Boeing estimate. 
The prime contract will continue to make hardware deliveries this year, 
as the cost to go on the development contract decreases significantly.

Gravity Probe B

    Gravity Probe B is the relativity gyroscope experiment being 
developed by NASA and Stanford University to test two extraordinary, 
unverified predictions of Albert Einstein's general theory of 
relativity. The experiment is intended to measure, very precisely, tiny 
changes in the direction of spin of 4 gyroscopes contained in a 
satellite orbiting at a 400-mile altitude directly over the poles. The 
gyroscopes are designed to be so free from disturbance that they will 
provide an almost-perfect space-time reference system. They will 
measure how space and time are warped by the presence of the Earth, 
and, more profoundly, how the Earth's rotation drags space-time around 
with it. These effects, though small for the Earth, have far-reaching 
implications for the nature of matter and the structure of the 
Universe. Since the initiation of Gravity Probe B in 1988, $453 million 
has been spent on GP-B development.
    Although the completion of the GP-B program has been a schedule and 
cost struggle for some time, Stanford University has made significant 
progress in building over 85 percent of the complex subsystems of GP-B. 
These subsystems are meeting or exceeding specifications required to 
conduct a creditable experiment to verify Einstein's General Theory of 
Relativity. Stanford has considerable technical capabilities and a high 
degree of dedication.
    As a result of a recent functional test of GP-B's Integrated Dewar 
& Probe, significant technical anomalies have surfaced, which required 
the de-integration of the payload as well as the implementation of 
design modifications. A re-integration and repeat of the functional 
testing to verify the effectiveness of the modification and to certify 
the flight worthiness of the payload will follow this activity. The 
complex nature of this integration process, which is unlike any payload 
ever built, coupled with the data readout sensitivity and precision 
requirements of the hardware, has resulted in a substantial schedule 
slip as well as the cost to complete the program.
    With the focus to resolve the current technical issues, NASA is 
aware that new issues could surface as a result of the changes being 
made. We are taking a number of steps to ensure that our design 
modification are sound and that all possible steps are taken to 
minimize future technical issues:

  <bullet> NASA has recently intensified the direct involvement of our 
        existing External Independent Readiness Review (EIRR) team by 
        asking them to work closely with Stanford and the Marshall 
        Space Flight Center (MSFC) to review all aspects of the 
        program. This includes the proposed design modifications and 
        daily feedback to the Stanford/MSFC design team on 
        recommendations that promote schedule and cost control with the 
        emphasis on mission success. The EIRR reports the status of the 
        program regularly to NASA's Associate Administrator for Space 
        Science.

  <bullet> NASA established an Independent Review Team comprised of 
        nationally recognized industry and Government experts in 
        building complex space systems. This team was chartered to 
        ``conduct an assessment of the programmatic health (technical, 
        schedule, management) of the Gravity Probe-B program'' and 
        provide immediate feedback to Stanford University, MSFC and 
        NASA Headquarters on any modification to the design or flight 
        qualification of the payload necessary to ensure mission 
        success. The Independent Review Team completed its review and 
        reported back to the Associate Administrator for Space Science 
        in late February with the following conclusions:

        Schedule Risk Assessment:

  <bullet> poor prediction of progress on critical path;

  <bullet> high probability that electronic boxes (already more than a 
        year behind schedule) will impact critical path during 
        environmental testing;

  <bullet> probe repair is on critical path; and,

  <bullet> additional funding needed to mitigate schedule.

        Cost Risk Assessment:

  <bullet> any schedule or technical issue could become a cost risk if 
        not resolved quickly;

  <bullet> need to install NASA management at Stanford for quick 
        decision making and to insulate Stanford from outside 
        distractions;

  <bullet> refurbish Probe B as flight backup unit to mitigate 
        potential payload recycle; and,

  <bullet> technical Risk Assessment:

  <bullet> Probe C neck temperature anomaly of most concern; root cause 
        remains unknown.

    As a consequence of the testing problems, GP-B has been delayed at 
least 18 months and is currently under consideration for an April 2002 
launch. NASA's estimated cost to address the technical problems and the 
schedule delays is $65-100 million. As the Committee is aware, 
approximately $20 million of this increase has already been 
accommodated in NASA's FY 1999 and FY 2000 Operating Plans and in the 
FY 2001 budget request. Analysis is underway to define impacts to the 
Space Science budget to fund the remainder. A Headquarters-controlled 
critical milestone schedule is also in development.
    During the late July timeframe, NASA expects to make a decision 
with respect to the future of the Gravity Probe B Program, based upon 
the extent to which progress is being made toward resolving the 
technical and schedule issues, and the extent to which remaining budget 
requirements will impact other Agency science priorities.

X-33 Status

    The X-33 objective is to demonstrate technologies and operations 
concepts with the goal of reducing space transportation costs to one 
tenth of their current level. NASA is utilizing an innovative 
management strategy for the X-33 program, based on industry-led 
cooperative agreements, allowing a much leaner management structure, 
lower program overhead costs, and increased management efficiency. The 
X-33 program Phase II selection was made in July 1996 based on specific 
programmatic, business planning, and technical criteria. NASA selected 
the Lockheed Martin Skunk Works to lead an industry team to develop and 
flight test the X-33.

    The X-33 is an integrated technology effort to flight demonstrate 
key Single Stage To Orbit (SSTO) technologies, and deliver advancements 
in:

        1. ground and flight operations techniques that will 
        substantially reduce operations costs for a Reusable Launch 
        Vehicle (RLV);
        2. lighter, reusable cryogenic tanks;
        3. lightweight, low-cost composite structures;
        4. advanced Thermal Protection Systems to reduce maintenance;
        5. propulsion and vehicle integration; and,
        6. application of New Millennium microelectronics for vastly 
        improved reliability and vehicle health management.

    The X-33 Program deals with cutting-edge technologies, such as 
large composite tanks, a metallic thermal protection system, innovative 
aerospike engines, and a lifting body approach to a launch system. The 
program has made considerable progress in the last year. The X-33 
launch complex was completed and site activation begun. In addition, 
the structural testing of the liquid oxygen tank was successfully 
completed; the flight software was delivered and verification and 
validation was undertaken; the linear aerospike engine was delivered to 
Stennis and testing begun; the metallic TPS was flight qualified; and 
the liquid hydrogen composite tank was delivered to MSFC for testing. 
Three cryogenic and structural load tests of the hydrogen tank, based 
upon 105 percent of maximum flight conditions, were completed. However, 
after the completion of the third test, a partial failure of the outer 
skin of one of the 4 lobes of the tank was observed.
    A failure investigation of the hydrogen tank, by a team of NASA and 
industry personnel, was initiated in November 1999. The failure 
investigation team will make a report on the root cause of the failure. 
Their report is expected to be released within the coming weeks. After 
reviewing the team's findings, NASA and the contractor will jointly 
agree on the approach necessary to recover from the hydrogen tank 
failure and then proceed with development of a recovery plan and 
schedule.
    In an effort as technologically challenging as the X-33 program, 
incidents like the tank failure--while disappointing--are not 
unexpected. Furthermore, it is important to remember that, thanks 
largely to our commitment to safety and the various independent reviews 
we have carried out, the tank failure occurred in the test stand rather 
than in flight.
    As the X-33 program has evolved, our industry partners have been 
exceptional in accommodating such challenges. While industry's 
investment has grown significantly since the beginning of the program, 
NASA's financial investment in the X-33 has not increased. We have, 
however, utilized additional staff across the Centers to help resolve 
issues as they have arisen. As other challenges develop in the future, 
we will assist our industry partners to the extent that our program 
priorities permit.
                                 ______
                                 
                                              Attachment 1*
---------------------------------------------------------------------------
    * Prepared by the Mars Climate Orbiter Mishap Investigation Board
---------------------------------------------------------------------------
                         MISSION SUCCESS FIRST
           Checklist for Project Management and Review Boards
                                 PEOPLE
Leadership

  {time}  Is an accountable, responsible person in place and in charge 
        with experience and training commensurate with the job?
  {time}  LDoes the leader work well with the team and external 
        interfaces?
  {time}  Does the leader spend significant time fostering teamwork?
  {time}  Is safety the number-one priority?

    Organization/Staffing

  {time}  Is the organization sound?
  {time}  Is the staffing adequate?
  {time}  Are science and mission assurance elements properly 
        represented in the organization?
  {time}  Does the organization enable error-free communication?

Communications

  {time}  Is ``Mission Success First'' clearly communicated throughout 
        the organization?
  {time}  Is open communications evident, with all parties having an 
        opportunity to be heard?
  {time}  Is a ``Top 10'' reviewed and acted upon weekly?
  {time}  Are all team members encouraged to report problems?
  {time}  Are line organization/project communications good?
  {time}  Do all team members understand that the only real success is 
        mission success?

Project Team

  {time}  Is safety the number-one priority?
  {time}  Has team chemistry been considered, and personality profiles 
        reviewed?
  {time}  Is staffing adequate for project size, and are the right 
        people in place?
  {time}  Are people who could not demonstrate teamwork gone?
  {time}  Are all key positions filled and committed to a sustained 
        effort over the project's life cycle?
  {time}  During team formation, has the project manager performed an 
        Agency-wide search to identify key technical experts for 
        membership on the team or sustained support to reviews?
  {time}  Is the team adequately staffed and trained in the processes?
  {time}  Are team members supportive and open with one another, 
        review boards and management?
  {time}  Does the team actively encourage peer reviews?
  {time}  Are science representatives involved in day-to-day decision-
        making?
  {time}  Does the team understand that arrogance is their number-one 
        enemy? Does the team understand that ``anyone's problem is my 
        problem?''
  {time}  Does the team have assessment metrics, which are evaluated 
        regularly?
                          PROCESS & EXECUTION
Systems Engineering
  {time}  Are risk trades included in the scope of the system 
        engineering job?
  {time}  Have risk trades been performed and are risks being actively 
        managed?
  {time}  Have flight/ground trades been performed?
  {time}  Is a fault tree(s) in place?
  {time}  Are adequate margins identified?
  {time}  Does mission architecture provide adequate data for failure 
        investigation?
  {time}  Is ``Mission Success First'' reflected in the trades and 
        systems efforts?
  {time}  Is there a formal process to incorporate lessons learned 
        from other successful and failed missions?
  {time}  Has the team conducted reviews of NASA lessons-learned 
        databases early in the project?
  {time}  Is a rigorous change control process in place?

Requirements

  {time}  Was mission success criteria established at the start of the 
        mission?
  {time}  Is ``Mission Success First'' reflected in top-level 
        requirements?
  {time}  Are mission requirements established, agreed upon by all 
        parties, and stable?
  {time}  Is the requirements level sufficiently detailed?
  {time}  Is the requirements flowdown complete?

Validation and Verification

  {time}  Is the verification matrix complete?
  {time}  Are the processes sound?
  {time}  Are checks in place to ensure processes are being followed?
  {time}  Does every process have an owner?
  {time}  Is mission-critical software identified in both the flight 
        and ground systems?
  {time}  Are processes developed for validation of system interfaces?
  {time}  Are facilities established for simulation, verification and 
        validation?
  {time}  Is independent validation and verification planned for 
        flight and ground software?
  {time}  Are plans and procedures in place for normal and contingency 
        testing?
  {time}  Is time available for contingency testing and training?
  {time}  Are tests repeated after configuration changes?
  {time}  Are adequate end-to-end tests planned and completed?
Cost/Schedule

  {time}  Is cost adequate to accommodate scope?
  {time}  Has a ``bottoms up'' budget and schedule been developed?
  {time}  Has the team taken ownership of cost and schedule?
  {time}  Are adequate cost reserves and schedule slack available to 
        solve problems?
  {time}  Has mission success been compromised as a result of cost or 
        schedule?

Government/Contractor Roles and Responsibilities

  {time}  Are roles and responsibilities well defined?
  {time}  Are competent leaders in charge?

Risk Management/Analysis/Test
  {time}  Is risk managed as one of four key project elements (cost, 
        schedule, content and risk)?
  {time}  Are analysis measures in place (Failure Modes and Effects 
        Analysis, Fault Tree Analysis, Probablistic Risk Assessment)?
  {time}  Have single-point failures been identified and justified?
  {time}  Has special attention been given to proper reuse of hardware 
        and software?
  {time}  Has extensive testing been done in the flight configuration?
  {time}  Have potential failure scenarios been identified and 
        modeled?
  {time}  Is there a culture that never stops looking for possible 
        failure modes?

Independent/Peer Review

  {time}  Are all reviews/boards defined and planned?
  {time}  Is the discipline in place to hold peer reviews with ``the 
        right'' experts in attendance?
  {time}  Are peer review results reported to higher-level reviews?
  {time}  Are line organizations committed to providing the right 
        people for sustained support of reviews?

Operations

  {time}  Has contingency planning been validated and tested?
  {time}  Are all teams trained to execute contingency plans?
  {time}  Have mission rules been formulated?
  {time}  Has the ops team executed mission rules in simulations?
  {time}  Are plans in place to ensure visibility and realtime 
        telemetry during all critical mission phases?
Center Infrastructure

  {time}  Is a plan in place to ensure senior management oversight of 
        the project?
  {time}  Is a plan in place to ensure line organization commitment 
        and accountability?
  {time}  Is a plan in place to mentor new and/or inexperienced 
        managers?

Documentation

  {time}  Have design decisions and limitations been documented and 
        communicated?
  {time}  Is a process of continuous documentation in place to support 
        unanticipated personnel changes?
  {time}  Is electronic/web-based documentation available?
  {time}  Are lessons-learned available and in use?

Continuity/Handovers

  {time}  Are handovers planned?
  {time}  Are special plans in place to ensure a smooth transition?
  {time}  Do core people transition? Who? How many?
  {time}  Is a development-to-operations transition planned?
  {time}  Does development-team knowledge exist on the operations 
        team?
  {time}  Is a transition from the integration-and-test ground system 
        to new-operations ground system planned? If so, is there a plan 
        and schedule to revalidate databases and procedures?
  {time}  Have there been changes in management or other key technical 
        positions? How was continuity ensured?
  {time}  Have processes changed? If so, has the associated risk been 
        evaluated?

Mission Assurance

  {time}  Is staffing adequate?
  {time}  Are all phases of the mission staffed?
  {time}  Is mission assurance conducting high-level oversight to 
        ensure that robust mission success processes are in place?
                               TECHNOLOGY
Technology Readiness

  {time}  Is any new technology needed that has not matured 
        adequately?
  {time}  Has all appropriate new technology been considered?
  {time}  Has it been scheduled to mature before project baselining?
  {time}  Does it represent low deployment risk?
  {time}  Is there a plan in place to train operations personnel on 
        new technology use and limitations?

    Mr. Goldin. But, first, if it is OK with you, I would like 
to respond to the issue that you and Senator McCain brought up. 
First, with regards to the Young report, we recognized that 
more time would be necessary for NASA to review the report.
    We got our in-house briefing on March 14th. There is an 
appendix for the report we received electronically today by 
John Cassani. We will review that in detail.
    I have a meeting scheduled with Tom Young on Friday to 
clarify a number of the issues. And we expect to issue the 
report early next week.
    We made your staff aware about 3 weeks ago of this 
situation and said we would be prepared to have the hearing 
after the Young report was released, or to go ahead now, and 
then after the Young report is released, have another hearing. 
So this is the first point I would like to make.
    Senator Frist. And the Young report will be released when?
    Mr. Goldin. I think Tuesday next week.
    Senator Frist. All right.
    Mr. Goldin. Well, we will meet with him Friday. And then we 
will have it out Tuesday along with the appendix I referred to.
    Senator Frist. Is it being altered now, the report, based 
on your----
    Mr. Goldin. No. The report is not being changed itself. But 
we needed to get the final version of the supporting 
appendices, which is quite a thick report, so we could review 
it, and be prepared to ask questions to get clarification. But, 
we do not change those reports. That is very clear.
    Senator Frist. And is it appropriate for our Chairman to 
see that report at this juncture?
    Mr. Goldin. We were unaware that there was a request made. 
And I just asked my staff when that statement was made. We are 
unaware that there was any request made for that report.
    Senator Frist. OK.
    [Pause.]
    Mr. Goldin. Oh, I stand corrected. A request was made for 
the report and the NASA respondent said the report was not 
available yet, because we did not have all the appendices to 
that report. And that is what we received today.
    Senator Frist. So you have the appendices. Would you 
expect--well, you may not be able to answer--now, would you 
expect that our Chairman could--could see that report?
    [Pause.]
    Mr. Goldin. We are days away from making the report public.
    Senator Frist. OK. Proceed.
    Mr. Goldin. OK. Secondly, with regards to the UPI story, 
there was an allegation made incorrectly in the story about 
testing of the thrusters. We identified that problem in 
November. There was an open press conference on it, I believe, 
November 11th, where it was thoroughly discussed and the 
contractor was made aware of the problem, and we had time to do 
testing of that propulsion system before the scheduled landing 
of the Mars Polar Lander.
    There are a number of things that were very, very irregular 
in that press report. We have made our concerns known to UPI, 
and we believe we are doing all the right things.
    Senator Frist. Just--just for the record, the article is 
entitled, ``NASA Knew Mars Polar Lander Doomed,'' by UPI, 
United Press International, March 21st, 2000, by James Oberg, 
O-b-e-r-g, UPI Space Writer.
    Mr. Goldin. By the way, the press conference was November 
8th, and at that point in time the team believed they had a 
real good chance of doing it. In fact, the head of the 
investigation team of the Mars Climate Orbiter, Art Stephenson, 
had asked the propulsion expert, a gentleman named Bob Sachiem 
to get involved.
    He identified that problem at that time and they requested 
additional testing to get more confidence in that landing 
system.
    [Pause.]
    Senator Hutchison. So are you saying that you did--that 
NASA did not know there was a fatal flaw in the braking 
thrusters?
    Mr. Goldin. We knew about that in November, and we asked 
for an additional test----
    Senator Hutchison. And the----
    Mr. Goldin. --set of tests to make sure we--and they did 
those tests and they reset the conditions on the spacecraft, so 
we did not believe it would be a fatal flaw after the tests.
    Senator Hutchison. You thought then it had been fixed?
    Mr. Goldin. Yes.
    Senator Frist. The--I do not--I do not want to belabor the 
press article, because I know we have so much to cover, but 
yesterday's press article also mentioned your safety memo 
issued on March 20th to NASA employees in which you stressed, 
and I quote, ``the important of adequate testing.''
    Can you elaborate at all on that memo?
    Mr. Goldin. I would be honored to elaborate. As the NASA 
Administrator, I give a safety lecture on Mondays. My notes 
from the safety lectures are put on the Internet. I announced 
to my staff that I intend to talk about safety at our Monday 
morning phone call. And that is the subject I talk about. And 
each week, I pick another subject to talk about safety. That 
was one of the subjects I talked about.
    Senator Frist. And those comments there were not related to 
the Mars failures in that memo?
    Mr. Goldin. Those comments were related to a variety of 
circumstances that I had expressed concern about, proper 
validation and testing. It is fundamental to good, sound 
engineering practice and as the head of the agency, I feel it 
is crucial that that is what I talk about.
    Senator Frist. Well, let us move on again. I do not want 
to--the UPI article, you have rebutted in part with a--with a 
press release today; and rather than go through it, we can come 
back to it if people have specific questions.
    Let me--was there anything else to respond to?
    Mr. Goldin. Mr. Chairman, I would like to add one more 
point to it. Most responsible reporters, if they feel they have 
a story, always call and give the agency a chance to respond 
and rebut. We never received such a call.
    And I believe among the people in the Nation that work on 
these cutting edge approaches, I am at the cutting edge of 
safety. And I take it as an affront that I would actually worry 
about a failure and cover up a failure when I talk about 
safety. My record is open and clear and I have absolutely no 
regrets, no concerns and no apologies.
    Senator Frist. Mr. Goldin, there are a number of reports--
and as you looked through the recommendations and suggestions, 
a common finding seems to be that employees--and you 
acknowledge this in your written statement--have not adhered to 
sound engineering and project management principles, agency 
standards and procedures.
    It--again this is from a number of the reports. How do you 
plan to correct these findings in the reports?
    Mr. Goldin. OK. Again, I would like to provide a little 
context before I answer that. We have had spectacular 
successes. The Mars, the Lunar Prospector, the Pathfinder 
Mission.
    We have had more than a dozen successful missions where 
execution was outstanding. But let me give you an example of 
one of them. We are in the middle of unbelievable change. And 
the Jet Propulsion Lab, in particular, went from an average of 
four projects to fifteen to twenty projects.
    So we had a new team coming on. Some teams executed well. 
And other teams did not execute. On the Pathfinder Mission, 
which successfully landed on Mars, it was a radical new 
management approach, different.
    We had wise old owls come in to critique it. And they 
constantly said, ``Impossible, this will not work. It is a 
disaster.'' After we landed on Mars--but the people persevered 
in spite of the criticism, because they wanted to bring about 
change. They did a mission for one-tenth the cost of a prior 
mission. And they did it in 3 years instead of ten.
    Of course, we are going to make errors. But after that 
spacecraft landed on Mars in 1997, the person who criticized it 
walked up to me and said, ``Dan, I have been openly criticizing 
this approach. And I want to take this opportunity to 
apologize. You took a risk. You did it right.''
    Now, did we have problems? Yes. And I think that due to the 
fact that we pushed real hard on budget, and I am personally 
responsible for that, we wanted to see where the boundaries 
were.
    It used to cost $600 million on average to build a 
spacecraft at NASA. And it used to take on average 8 years. And 
in 1992, we launched two scientific spacecraft. We now are 
launching more than ten. The average cost is $208 million and 
it takes 5 years. Did we push the limits? You bet. Did we push 
too fast? Absolutely. But we now are stepping back and saying, 
``Look, we found some problems. We are going to understand it. 
But we are not returning to $600 million a spacecraft. We are 
not returning to 8 years on average. And we are not returning 
to two launches a year.''
    I might also point out that we lost a spacecraft in 1992 
called the Mars Observer. $800 million, and we had ``proven 
techniques,'' but they tried something different and they 
failed. We should not blame the people.
    Now, as a final point, we intend to take all these reports, 
Mr. Chairman, and we are going to have our chief engineer pull 
the key features together. And when we go through all these 
issues, within some months from now--we intend to come back to 
this Committee to tell you exactly what we think we need to do 
to fix these issues and we will hold education courses with 
every key NASA and contractor employee. We intend to set up a 
very major training program.
    In later testimony, in the Stephenson report, he calls out 
a checklist, which I put into the written testimony. That is 
going to serve as a starting point for where we want to go.
    And I believe that this will only strengthen our ability, 
but let me come back and say we had projected that in the 2000 
to 2004 timeframe we would drop from $208 million a space craft 
to $86 million.
    I think we are going to have to re-look at that and see if 
we want to moderate that, because it is clear we have now hit 
the limits and we probably cut too tight.
    But this is a message to my associates in industry.
    Senator Frist. I want to move on to other questions.
    I guess, again, looking through the reports, when we say 
inadequate adherence to sound engineering and project 
management principles, it goes beyond budget and doing things 
inexpensively, because you are not going to be cutting 
management principles and--and sound engineering practices.
    And so to me, there are two issues. That is why I do want 
to stay on management during this hearing as much as possible.
    Mr. Goldin. OK. Good.
    Senator Frist. And--and you have--you have answered the 
question, what you plan, and to go through the checklist, and 
look to the future.
    Mr. Goldin. Right.
    Senator Frist. But, again, on each of these statements when 
these critiques are there, even though we have been 
tremendously successful, when we are talking about management, 
when we are talking about sound engineering practices, agency 
standards and procedures, somewhere it is not working.
    Mr. Goldin. I agree. We had just a few programs at NASA 
that lasted about a decade. There was tremendous stability in 
that. There was time to train people and bring them up the 
line.
    Now, suddenly, we have increased the number of programs by 
about a factor of four or five. We are bringing on a new staff 
that has never been in leadership positions. I believe the 
problem was in inadequate training and mentoring of those 
people. Some of them took to it naturally and did not have 
problems. But I would say the key error that was made in 
judgment in executive management was not setting up an adequate 
training and mentoring program, which has nothing to do with 
money. And I think that is the point that you were driving at.
    Senator Frist. Yes. Thank you.
    Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.
    NASA has had to repeatedly fight for funding our existing 
human space flight commitments to complete the Space Station 
and upgrade the Shuttle.
    I have been on the station and I have seen the potential 
that we have for medical research and new technologies that can 
be available from space research, but I--I wonder if there is a 
priority.
    If short exploratory missions to Mars are the best way to 
advance NASA, should that be done at the expense of human space 
flight, research and development. Is there a priority that you 
see, or do you think we can do both with the--the limited 
budget that you have?
    Mr. Goldin. The No. 1 priority at NASA is fly the Shuttle 
safely. The No. 2 priority at NASA is successfully complete 
construction of the Space Station.
    The No. 3 priority at NASA is work with the industry in 
America, and develop revolutionary new ways of making the 
reliability of access to space for people and payloads a factor 
of ten better and one-tenth the cost.
    The fourth priority at NASA is to do good science and 
technology and meet the expectations of the American people. It 
is in our strategic plan. It is part of our budget process. And 
that is----
    Senator Hutchison. You put in the good science----
    Mr. Goldin. --where we put the priorities.
    Senator Hutchison. --and technology. Is the Mars 
exploration in that fourth category?
    Mr. Goldin. Yes.
    Senator Hutchison. Last fall we heard testimony from NASA 
and the USA prime contractor about the Shuttle wiring matter. 
And at that time, NASA and USA testified that safety was put 
first, and that, in fact, USA knew they might get a $3 million 
penalty, but nevertheless, chose not to launch the next 
scheduled vehicle and inspect all the vehicles from that time 
forward.
    Is that consistent with the findings of the McDonald 
report, and are there any things that would be done differently 
today in inspection of those vehicles that are because of the 
report?
    Mr. Goldin. Well, I think the report heightened our 
awareness, but what happened was exactly what I referred to in 
my opening statement. We want to encourage a culture at NASA 
where schedule is not the driving force, but the safety of the 
people and the high value assets is important. And that was 
correct.
    But the McDonald Committee pointed out some other issues. 
But I might point out that when we went through this wiring, 
they indicated that there was one area we needed to look at a 
little bit more, and it was a key finding.
    And, in fact, they said that we should do this before we 
launched the Shuttle, and that is, 70 percent of the wires were 
very, very visible and you could see where there could be 
abrasions, but about 30 percent of the wires were inside areas 
that blocked the visual sight.
    So they recommended that we take the Shuttle Columbia which 
was in Palmdale, and since we were doing an orbital maintenance 
down-period on it, to open up areas that are invisible and see 
if we had any abrasion or any problems with the wires to 
validate that our assumptions were correct. And sure enough, 
when we opened up closed areas, we found almost no problem, so 
we were able to validate. And that's why we felt comfortable 
successfully launching it.
    So, I think the McDonald panel pointed out something very, 
very important which caused us to think more and to delay a 
little bit more. It was a very valuable input.
    Senator Hutchison. Last year we provided $25 million in new 
upgrades that were directed at placing a higher priority on 
keeping the Shuttle fleet properly maintained. You have 
mentioned to me that in your fiscal year 2001 budget, there is 
funding for new Shuttle upgrades.
    Which new upgrades have you funded with the additional $25 
million that was provided in last year's appropriation, and 
what do you plan to fund with the $156 million contained in 
this year's budget request, and are they all safety related?
    Mr. Goldin. First, let me answer the second question. 
They're all safety related. And, in fact, the No. 1 priority on 
upgrades is to get rid of the hydrazine in the auxiliary power 
unit which was one of the major suggestions made by the 
McDonald Panel. They were very, very concerned about this 
equipment, and that $25 million from last year got us started 
on that.
    The second priority is intelligent vehicle health 
monitoring and management which is a revolutionary new 
technique of being able to diagnose perhaps incipient failures 
and take action before they occur. We then have a series of 
propulsion upgrades that we are exploring to give the Shuttle a 
more robust capability. And one that is very high on the 
priority of the Aerospace Safety Advisory Panel, is to separate 
out critical operational functions from mission payload 
functions on the Shuttle and have a separation of those 
computers and a very advanced avionics system. And the upgrades 
that we are working on all relate to that, but we are not 
stopping there. We have asked the NASA Advisory Panel to take a 
look at these upgrades, and rate them, and establish that the 
No. 1 goal is safety, and that we have a set of cost objectives 
that are commensurate with what we are going forward to in 
terms of safety objectives. And they will be reviewing that 
over this year, but I am very pleased with what we are doing. 
And we have $2.1 billion in the 5-year budget run out which 
will get us there.
    Senator Hutchison. Let me just finish my last question, and 
that is the relationship with Russia. Many of the delays that 
have been caused have been because of Russian delays in doing 
their contractual obligations.
    Do you think this is in our best interest to continue the 
relationship with Russia, or would it be more efficient for us 
to absorb the added cost but be able to go it alone?
    Mr. Goldin. At this point in time, we have taken a number 
of steps, which in a way have led to some of the cost growth 
that Senator McCain has raised.
    To be able to be more robust on the Station, we have an 
engine control module, a propulsion module, one of which will 
be ready in December this year, the other in 2003. We have made 
some very significant investments on our side to make it more 
robust.
    The Russians have finally completed the service module. 
They have had some launch failures, but they have now fixed the 
proton rocket. They have showed us things we would never show 
them about rocketry. And we just had a team come back from 
Russia indicating they believe that the Russians are on track. 
They have had two successful launches, but we want three more 
successful launches, two to three successful launches before we 
launch the service module. At this point in time, I believe we 
ought to proceed because we are almost done.
    Senator Hutchison. Thank you, Mr. Chairman.
    Senator Frist. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Mr. Goldin, thank you for being here. In some ways, I sort 
of think as I hear you, and listen to you, that you invite your 
own critics because you are very assertive, and very positive. 
You have developed a new model, ``Faster, Better, Cheaper.'' 
You have turned that agency, in some ways, upside-down in the 
way it approached problems.
    You operate as an agency on the edge of technology and 
knowledge. Inherently, that is very risky, and all of us have 
always understood that.
    Some critics have argued, Mr. Goldin, that ``better'' has, 
from time to time, been sacrificed to ``faster and cheaper.'' 
What is your response to that?
    Mr. Goldin. My response is: Sometimes they are right; 
sometimes they are wrong. I contend that the Lunar Prospector, 
which was built for $63 million, start to finish, was 
breathtaking, and if that is not better, and faster, and 
cheaper, nothing is. Pathfinder--we had the audacity to land on 
Mars with an air bag.
    When you go to the people that had done it before, and they 
said to us, ``It is impossible,'' we said, ``We are not 
afraid.'' Did we make mistakes? I think the key mistake was the 
one I identified, and I feel personal responsibility for that, 
but I am not apologetic. For the whole issue, we saw this huge 
surge coming forward, and we did not think to take the time to 
mentor and train the next generation.
    We have the processes. We have the procedures. What we 
lacked was execution, so our performance was spotty. But, 
again, I want to point out, we need to focus on the failures, 
but we have had 10 failures and 136 successes. It cannot be 
perfect, but we are going to learn and we are going to make it 
better.
    Senator Dorgan. We are not scientists or engineers. I mean, 
we have trouble parking in a two-car garage and want to 
criticize those that cannot land on Mars. So, I think all of us 
want the same thing. We want an agency that has the resources 
to do the job and to achieve the successes that all of us 
expect and want.
    Let me ask you a couple of more general questions. I 
understand the failures. I have read about them and tried to 
understand what has happened. I have read some of these 
reports. There are some people who are critical of some areas 
of management.
    Let me ask you about the successes just for a moment. In 
the past year--let us just take the past year--I have read 
about the failures in the past year. Can you tell us: What are 
your achievements in the past year? What are the successes at 
NASA?
    Mr. Goldin. Well, let me bring up a few. Chandra: We have 
opened up a whole new window on the universe. The Hubble Space 
Telescope takes pictures in the visible the way we are 
accustomed to. We are looking at the dark energy, unbelievable 
energetic processes. This is the most spectacular machine ever 
built.
    And in fact, the contractor was ready to ship it, and our 
leader, Ed Wallace, said, ``We are not going to ship because it 
is not yet safe.'' We launched that. It was a spectacular 
success, and is going to turn in science that is going to be 
breathtaking for the decade ahead.
    I have had Nobel laureates walk into my office and say, 
``This is an unbelievable machine. Thank you, NASA.''
    We fixed the Hubble Space Telescope, and I would like to 
clear up an issue that came up here. It was not an emergency 
servicing mission. What we did was we had the world's best 
attitude control sensors on board, Gyros. We pushed the limits 
with those Gyros, and we did not know when they would fail. But 
we designed the system to be fixable by astronauts.
    When we lost the sensors, within 2 months of when we lost 
the sensors, we were up in space, and we were able to replace 
those sensors, replace payloads. And the Hubble Space Telescope 
resolved an 8-year-old question, relative to what is called the 
Hubble constant: How fast is the universe expanding? This will 
rewrite chemistry and physics textbooks.
    So these are the kind of things we do. And my point is, we 
turned that mission around in record time by a factor of two.
    Now the easy thing for the NASA Administrator to say is, 
``Hey, we may have a failure. We will be criticized. Let us 
play it safe.''
    I spoke to Joe Rothenberg, who is the head of the Office of 
Space Flight, and I said, ``Joe, the scientists could be dark 
for as much as a year. Can you safely fix it in half the 
preparation time that we normally had?'' He talked to his 
people and he said, ``We are going to go.'' And I said, ``I 
will be personally responsible for that failure.''
    This is what you have got to do. And when you say that ``I 
am afraid,'' what you do is you set mediocre goals, and 
everyone is happy, and budgets go up.
    And I would like to show you one chart at this point. This 
is a chart that says it all. The bottom line there is the 
normalized NASA budget from 1993 to the year 2000. And it is 
going down.
    You see the defense budget there, and then you see the non-
defense discretionary budget, and you see the total 
discretionary budget. Because NASA was determined that we were 
going to listen to the American people about doing more with 
less, we said, ``We are not afraid of failure. We are going to 
set the beat of the drum in this nation, and we are not going 
to accept mediocrity, and we are going to push the limits. And 
when we have failure, we will be responsible and accountable.''
    I salute every NASA employee, including those who failed, 
and not one employee is going to be fired. They have destroyed 
themselves enough. I have got to tell you, they are down in the 
dumps, but we are going to recover.
    Senator Dorgan. Mr. Goldin, one additional question: The 
second panel that will follow you talks about a recurring theme 
of people at NASA. I mean, NASA is made up of people--
scientists, engineers, administrators.
    Are you attracting the best young scientists and engineers 
to a career at NASA? What is your assessment of the talent that 
you are getting at NASA at this point?
    Mr. Goldin. First let me say, and I will accept 
responsibility for this, our work force has come down from 
about 25,000 to about 18,500. We made a decision that we would 
have no forced layoffs in 1993 because we felt the people who 
were at the agency did not deserve to be fired to make a 
political statement.
    So we went by attrition. It has been painful. We have 
almost not hired for the last 7 years, but we respected the 
dignity of the work force. And now, we have the opportunity to 
hire 2,000 new people. We are at a real turning point.
    And is it going to be tough? You bet. We have to compete 
with dot-com companies. The President of one of the major 
technical universities said to me, ``Dan, my smart kids are 
wanting to get equity in the companies, and they are looking at 
compensation measured in hundreds of thousands of dollars,'' 
but none of these dot-com companies, none of these high-tech 
companies have what we have, the NASA vision, and the American 
dream.
    We are going to hire 2,000 people in the next few years. 
What we need to do is do a better job at mentoring. I am going 
to keep coming back to that. I feel terrible that I did not see 
it.
    If we mentored properly, if we train properly, I do not 
think we would have seen the large variety of problems we have, 
and this is the area that is important.
    And there is one other key issue, Mr. Frist, and it just 
came to me. We did not have a good communications system. The 
problems were there, and the fact that people were speaking and 
we did not hear them, is another major failure that has nothing 
to do with cost, and nothing to do with schedule. So that is 
another significant area we have to fix.
    Senator Dorgan. If I might make, Mr. Chairman, one 
additional point.
    Mr. Goldin, you have been an agent of change and that by 
its nature, inherits substantial risk. All of us understand 
that. The Chairman, I think, made a point, and I think all of 
us on this panel would agree with the point. We need to learn 
from failure. We have had some failures. We must learn from 
that. The agency must learn. Congress must learn.
    You as an Administrator have indicated that you are 
learning lessons from those failures which are important to our 
future space program.
    Thank you for being here today.
    Mr. Goldin. Thank you for the comment. I am 59 years old, 
and I feel embarrassed. At this age, I am still learning, but 
we are committed to do what is right for the country.
    And I spoke to the Chairman last night and I said, ``I 
would welcome a very vigorous hearing when we sort through all 
these issues.'' We would like to work with this Committee in an 
open fashion to make sure you have confidence, and the American 
people have confidence that we are doing the right thing.
    Senator Frist. Senator Breaux.
    Senator Breaux. Thank you, Mr. Chairman, and thank you, Mr. 
Goldin for being with us, and for your presentation and 
response to the questions.
    It is a great deal of pride, I think, that all of us in the 
Congress can have, and this Committee in particular, because of 
our responsibilities for the job that NASA does in general. 
This is an area where the United States is clearly the best in 
the world, and whoever is second is so far behind, that we can 
be justifiably proud.
    And of course, you will never make any mistakes if you 
never do anything. And sometimes we in the Congress follow that 
rule more often than we should, I think.
    You have had great successes, and when you have a failure, 
it is a big one. These things that you deal with----
    Mr. Goldin. They are spectacular.
    Senator Breaux. They are spectacular failures, and they, 
unfortunately, get a great deal of the coverage. That is the 
way it is going to be, but I think we have to put it in 
balance.
    I think maybe some of my colleagues previously commented on 
the UPI story that was read, and I would like to ask you to 
comment on it. And I think that if this issue is left out there 
hanging, someone may read it and come to the conclusion that 
there are some real problems at NASA.
    I take it that the gist of the story was that on the Mars 
Polar Lander Project there were not one but two design flaws. 
It can be expected every now and then that you would have 
things that were not designed properly.
    I think the disturbing thing in the story was that it 
implies that in the testing of the hydrazine part of the 
landing mechanism on the braking thrusters they did not get the 
right results, and that the tests and conditions were changed 
until they got the right results. At least that is what I get 
out of reading the story.
    It would be very unfortunate if it occurred like that. Can 
you make any comments to clarify and give me some information 
on this?
    Mr. Goldin. I cannot remember the exact words, but it had 
to do with based on a whole bunch of rumors they heard, this 
was the case. Let me get the exact words because----
    Senator Breaux. While you are looking for it, I just want 
to mention that the quote from the story is, ``They tested the 
CAT bed initiation process at temperatures much higher than it 
would be in flight.'' The UPI source said, ``This was done 
because when the CAT beds were first tested at the low 
temperatures predicted out to the long cruise from earth to 
Mars, the ignition failed, or was too unstable to be 
controlled. So the test conditions were changed in order to 
certify the engine's performance. But the conditions then no 
longer represented those most likely to occur on the real space 
flight.''
    Can you comment on that?
    Mr. Goldin. I would be pleased. When we lost the Mars 
Climate Orbiter, it was a real shock to us. I asked Art 
Stephenson, who is the Director of the NASA Marshal Space 
Flight Center, to lead the review team. This man came to NASA 
from the private sector at great financial sacrifice because I 
asked him to do it just a year ago. He had been in the private 
sector his whole career. He was imminently qualified to lead a 
nationwide team to look at it.
    I said, ``Do not just find out what was wrong with the Mars 
Climate Orbiter, but we have a spacecraft called the Polar 
Lander that is on its way to Mars right now, and if there is 
anything we could learn from the Climate Orbiter, let us make 
sure we address it in the Polar Lander.''
    One of the members of his team pointed out that there was a 
problem with the propulsion system, or a suspected problem 
relative to the operating temperature.
    Senator Breaux. But the Polar Lander had already been 
launched.
    Mr. Goldin. It was already launched, so what JPL and the 
contractor at Lockheed Martin did is run a whole series of 
tests to see if they could control the start temperature of 
that propulsion system. Based upon that, they changed the 
operating mode, so when they got to Mars, they verified from--
before the thrusters fired, that we were at the right point. 
This to my recollection. This is what we know.
    And, in fact, in November when a press conference was held, 
November 8th, we talked about this issue so there is no new 
news, no surprise, no nothing that I know about except there's 
a statement here called, ``Garbled Rumors.''
    If anyone in America has any information indicating that 
there was some bad things, or inappropriate things done, if it 
is brought forward, we will investigate it.
    Senator Breaux. Would NASA not have had in that department 
a record of the tests that were made on the landing facility 
before they----
    Mr. Goldin. Sure they do.
    Senator Breaux. Was it retested at different temperatures 
in order to get a different result?
    Mr. Goldin. You might want to ask Mr. Stephenson in the 
next panel the details of that, but I told you the process. And 
I like to make sure we are open, and what we have, we put on 
the web. We open up everything to everyone. So I believe we did 
everything we knew how to do. If there is something we did not 
do, if someone points it out, we will look into it.
    Senator Breaux. I guess failures are failures in the worst 
way when we do not learn from the failures.
    Can you tell us, in general, what you have learned from the 
failures as far as making corrections in the process, or in any 
way that we have learned from the failures?
    Mr. Goldin. I think there are a couple of issues that are 
fundamental that have nothing to do with money. And again, the 
Chairman pointed this out.
    We changed the culture, and we were rapidly increasing the 
number of programs at the same time while a lot of veterans, 
the Apollo Air, and the cold war veterans of the space program 
were retiring, and we did not take the time to do adequate 
training, and adequate mentoring. And to do mentoring, you want 
to do on-the-job training. You want to give people real 
experience and follow along.
    I view that as the most critical error we made. The 
processes were in place. It was execution. The second one is 
the one I brought up just as you were walking in. I told Mr. 
Frist we did not have a good feedback system on communications.
    Some people actually believe that you rigidly had to stick 
to cost and schedule even though you saw problems coming. And 
the third lesson was we have terrific people. And I, as the 
leader of NASA, have to accept responsibility for those two 
very basic breakdowns.
    Senator Breaux. Well, I think that is encouraging to hear 
the Administrator, Mr. Chairman, say that, yes, there were 
mistakes made. You have learned from them, and you plan to 
correct them.
    I do not want to harp on the failures because the successes 
greatly exceed the failures. Sometimes I get the feeling, as do 
other Senators, that when our constituents come up and we have 
done nine out of ten things for them, the only thing they ask 
about is the one thing that we were not able to do. They forget 
about the nine things that we were successful in helping them 
get them get accomplished--so we want to thank you for the good 
things that this agency has done and want to continue to work 
with you to make sure your good work continues.
    Mr. Goldin. Mr. Breaux, there is one thing that I left out 
that I just realized. Fundamental to the engineering and 
scientific process--and I left this out in my answer to the 
Chairman's question--is good strong peer review, not by your 
friends, but by people such as in the case of Pathfinder, who 
were really cynical.
    Some of our inexperienced managers did not understand this 
concept, and it comes back to training. And the other area that 
we have to very, very carefully look at, and I have asked our 
chief engineer to do that, is to really explore the process for 
how we select the peer review.
    We are not interested during peer review of hearing all the 
good things. And, in fact, this is my management strategy. Let 
us not concentrate on the 95 percent that we do right; let us 
focus on where we have problems. Let us magnify them, dissect 
them, understand them, and fix them.
    We did not do an adequate peer review process on some 
programs because of this inexperience factor. We are going to 
go back and make sure we fix that.
    Senator Breaux. Well, that is very encouraging.
    Thank you, Mr. Chairman.
    Senator Frist. Thank you, Senator Breaux.
    Mr. Goldin, just a couple of other quick points--and again, 
you have been very patient and I appreciate both your testimony 
and answers to the questions. I am glad that we evolved back to 
this work force because I think in looking at it from a 
management standpoint, it is an area that you recognize great 
deficiencies.
    And when you look at all these reports, and I am sure the 
Young Report will probably substantiate that as well, it does 
come back to this human aspect, work force.
    And I look down, since 1996, the Aerospace Safety Advisory 
Panel has cautioned NASA that the Shuttle program has 
experienced an erosion of critical skills, a lack of younger 
people at entry level positions, and a decreasing capacity to 
accommodate a higher Space Shuttle flight rate.
    In 1999, the panel recommended that NASA aggressively 
address work force problems to ensure safe operations.
    Jumping ahead to the next panel, the GAO testimony today 
cites NASA's human exploration and development of space. 
Independent Assessment Office concluded that Kennedy Space 
Center had the minimum work force necessary to conduct daily 
business; ``the minimum'' meaning, ``And also reported that 
NASA had little evidence of structured training plans for its 
staff, and inadequate resources to support the needed training, 
which we have mentioned, but we have separated.''
    Your response, again, has been mentoring, communication, 
and then peer review. And I think those three are the responses 
that you have come to give us. And then at our next hearing, we 
can come back and look at those more aggressively.
    Is there anything else in this work force that you would 
like to add?
    Mr. Goldin. Yes, and that is the Aerospace Safety Advisory 
Panel, in their 1997 report, presented to me in February 1998, 
really felt strongly that we needed to take some action. And we 
commissioned what we call the Core Review Team, the Core 
Capabilities Review, that went very systematically through each 
area.
    Our people looked at stress indicators like: How many hours 
overtime is increasing? How many people are voluntarily giving 
up vacation? How many people are going to the Employee 
Assistance Program for stress related problems? What is the 
health condition of the employees?
    And we went through center by center. We looked and found 
that we were really thin. So as part of the process, last year 
we authorized the addition of people which is the fourth leg to 
the stool.
    The first things I said, and then you have to go out and 
hire people. The panel expressed to us a concern that the 
Shuttle needed experienced people, and when we brought fresh-
outs, which are people who are fresh out of college with a 
Master's, PhD, or a Bachelor's degree, we put them on programs 
a little less critical than the Shuttle in Station.
    Give him his chance to train, put the experienced people on 
the Shuttle and the station, and then, as they learn, migrate 
them there. And that is exactly what we have done.
    And I just spoke to Roy Bridges, the Director of NASA 
Kennedy today, one of the primary concerns of the McDonald 
Panel, and you can address that issue to Dr. McDonald, was that 
we did not have enough quality inspectors at Cape Canaveral. We 
had to add 25. We have already hired those 25 people. And 12 of 
those people are on board, and by June, all 25 will be there.
    So, the fourth leg--it is the fourth leg of a stool. It is 
not symmetric, and it will bounce a little bit, but the fourth 
leg of what we have to accomplish is go out to America, hire 
the best and brightest, and over the next 2 years, we have an 
ambitious goal of bringing in 2,000 people, but we will have 
the world's best training program.
    And the last point I want to make to say we learned, we are 
working right now with MIT. We set up a new course on systems 
management, and we selected our top 20 people that are starting 
this pioneering course.
    So we are going to be working with a large number of 
universities, so that we do not do just in-house training, but 
we will go for the best in America. So when we combine these 
four principals to the first order, we need more time to think. 
I think we will be on the road to recovery, and we will be even 
better.
    Senator Frist. Thank you.
    Let me just close with one last issue that has to do with 
the oversight in this Committee. And what we have heard today, 
both the importance of it, and Chairman McCain's comments 
earlier, that it really is our responsibility and our role that 
the $14 billion in taxpayer money is being managed in the very 
best way, and to identify what deficiencies there are and where 
we need to work.
    As Chairman of this Subcommittee, last September, Senator 
McCain and I requested information from you, and from NASA, on 
the operational cost of the propulsion module which will add 
the additional capability to the Space Station. And that was 
September, and I have the letter here, but from September 1999, 
and we still have not received a response.
    The importance of that request is not so much the challenge 
of whatever numbers are there, but it is to be a litmus test of 
whether we should proceed with that program, whether or not to 
proceed.
    And the letter is just two paragraphs, and again, I just 
want to mention it, and I believe if you are not aware of it, 
your staff would be. And the letter from me and Senator McCain 
to you basically says, ``It was recently reported by the GAO 
that NASA has not developed a cost estimate for the cost of 
operating the propulsion module for the International Space 
Station. As both Congress and NASA proceeds to make a final 
decision regarding this alternative propulsion and guidance in 
navigation capability, a better understanding of the associated 
cost is essential,'' and then we just make the request for the 
cost estimate.
    And again, it is not so much the particular numbers that I 
am interested in now, but it leads us to assume that your lack 
of a response means that the information is not available.
    And given things like the National Academy of Science's 
recent finding of a lack of long-term planning on the station 
by NASA, the question comes back to us: Are we ready to proceed 
with propulsion module?
    Mr. Goldin. Let me say the following. I am very surprised 
you did not get a response, and I just asked Mal Peterson about 
that. We have had a recurring problem, and let me assure you in 
terms of oversight, we are going to fix that issue because 
communication must go back to you, and the Chairman of the big 
Committee. We will fix that.
    But we do have a very serious problem. Our contractor is a 
good contractor, but not outstanding. We made a commitment to 
transfer the things that NASA used to do in-house to our 
contractors, and we have a terrible time getting creditable 
cost proposals from our contractor. I think the reason you did 
not get a response is we did not have an answer to that 
question. So, this is something I will go back and look at. I 
can only say that right now from what I know and see, you have 
a right to be upset.
    Senator Frist. Thank you. Again, it is used as more of an 
illustration as we look at management, long-term planning, 
short-term planning, mid-term planning. If we cannot, or you 
cannot, both demand and receive that the information be shared 
with us, it will be impossible for us to give the adequate 
oversight expected by the taxpayers of America.
    Mr. Goldin. All I can say is, yes, we do have these 
problems. But in terms of long-term planning, NASA is one of 
the only agencies of organizations in the country that has a 25 
year strategic plan. We do long-range planning.
    In some circumstances, we do not communicate all of the 
information that we have. So I will personally go back, look at 
it, and give you a formal response in detail instead of 
shooting from the hip which I just did.
    Senator Frist. No, and I understand, but the cost is a 
basic issue.
    Mr. Goldin. I understand.
    Senator Frist. What is this going to cost the American 
taxpayer? If we cannot answer it, and you cannot answer it, and 
your contractor cannot answer it, something is wrong, and we 
should not be going to the American people and saying, ``You 
are paying for it though nobody can tell you how much this 
thing is going to cost.''
    Senator Breaux. Mr. Chairman----
    Senator Frist. We need to move to the second panel. Senator 
Breaux.
    Senator Breaux. Yes, just a quick question. I wanted to ask 
Mr. Goldin for his thoughts.
    Next week, I think that Senator Burns is planning on 
bringing legislation to the floor dealing with satellite 
television access for rural areas.
    I am thinking about adding to that legislation an amendment 
which would authorize, just authorize not fund, loan guarantees 
for space transportation for U.S. private companies to 
construct rockets in the U.S. to move into the satellite launch 
industry.
    You had testified on this issue before this Committee once 
before, and I do not want to characterize your position, but I 
took it to mean that you thought such legislation would be 
useful. It would be one of the tools that would be helpful. I 
wonder if you still have any current thoughts that you could 
update the Committee with this issue.
    Mr. Goldin. Yes, I think it is very, very innovative, what 
you had in mind. There has been a change since last year and 
that is the ability of small rocket companies to get commercial 
business just took a turn for the worse.
    Iridium, which put up 71 space craft, went bankrupt, and 
now they are going to literally de-orbit all those space craft. 
In addition to that, it has put a chill on the financing for 
other, what is called, low orbit mobile communications and 
Internet communication functions. We hope that this is cyclic 
and perhaps in 5 years there will be a recovery.
    Toward that end and the President's budget, we have $4.5 
billion to do cutting edge research, but not to do the 
production and development which your bill could enable. And it 
is our hope that by 2005, we will have worked with small and 
big rocket companies to overcome all the critical barriers so 
we have technology that will allow us to improve the 
reliability ten times and cut their cost by a factor of ten.
    When that happens, hopefully by 2010, we will have private 
launch services not involving the government. This bill that 
you are looking at makes sense to me. However, I want to add 
something and this is a message to my good friends in the space 
community. They fight with each other, and they kill each 
other.
    You stepped forward with a good idea, and to prevent other 
rocket companies from getting business, some good people did 
terribly stupid, vicious things. I ask every executive in the 
rocket business to take a deep breath, sit back, loosen your 
tie, and do not be afraid of competition, and do not try to 
kill a good bill that is being presented to you.
    Thank you very much.
    Senator Breaux. I think I heard some breaths in the back of 
the room somewhere.
    Mr. Goldin. Oh, yes. I am winning more points again today.
    [Laughter.]
    Senator Breaux. Thank you very much.
    Senator Frist. Mr. Goldin, thank you for your testimony 
today and your forthrightness with the issues that were brought 
forward, and we look forward to working with you as we go 
ahead.
    Mr. Goldin. Thank you.
    Senator Frist. At this juncture, I'll ask the second panel 
to come forward. Our second panel will consist of four 
individuals: Mr. Allen Li, Associate Director of the General 
Accounting Office; Dr. Harry McDonald, Director, Ames Research 
Center; Mr. Tony Spear, former Mars Pathfinder Project Manager, 
from Jet Propulsion Laboratory, who is Task Leader, NASA's 
Faster, Better, Cheaper Review Team; and, Mr. Art Stephenson, 
Director of the Marshal Space Flight Center.
    Let us proceed with our second panel. We will begin with 
Mr. Li, followed by Dr. McDonald, Mr. Spear, and Mr. 
Stephenson.
    Mr. Li, welcome.

          STATEMENT OF ALLEN LI, ASSOCIATE DIRECTOR, 
         NATIONAL SECURITY AND INTERNATIONAL AFFAIRS, 
                 U.S. GENERAL ACCOUNTING OFFICE

    Mr. Li. Mr. Chairman and Members of the Subcommittee, I am 
pleased to be here today to discuss our ongoing work on the 
Shuttle program's civil service work force.
    In the context of today's hearing on management challenges, 
it is clear that NASA must, like other agencies, maximize its 
resources and accountability. In doing so, I believe NASA must 
focus on its most important asset: its people. I will now 
summarize the four points from my prepared statement.
    Point No. 1: Several studies point to the fact that the 
Shuttle work force has been negatively impacted by years of 
downsizing and buyouts. A common theme in these studies is that 
the work force has been stretched thin--to the point where 
there is just one qualified person in many critical areas.
    For example, NASA has identified 30 such critical areas at 
the Kennedy Space Center that do not have sufficient back-up 
coverage. In addition, studies have found that the work force 
is showing signs of overwork and fatigue. Also, not having 
enough people with the right skills impacts functions to be 
performed.
    One study expressed concern with NASA's ability to perform 
mandatory Shuttle inspections. Initially, NASA believed that 
these inspections could be performed by the contractor. 
However, the agency later determined that a substantial number 
of inspections would still be needed to be performed in-house.
    Unfortunately by then, many of these inspectors had already 
left NASA. In reviewing these studies, there is one frequently 
identified aspect that I found worrisome, namely, that NASA 
employees were experiencing an increasing level of stress.
    This conclusion was based on multiple indicators such as 
increased forfeited of leave, absences from required training, 
and counseling visits through the employee assistance program. 
I defer to the Chairman as to the clinical significance of 
stress. But worker stress can result in problems in 
concentrating and difficulty in making decisions.
    While increased workload and stress from downsizing is 
likely to be found in many agencies and their units, their 
impact on maintaining a safe and efficient Shuttle program is 
unique.
    I have great respect for the hard work and dedication of 
all NASA employees, but I fear that their ``can do'' attitude 
may have masked some of the problems caused by downsizing.
    Point No. 2: To its credit, NASA has responded to these 
work force problems in a number of ways. It has terminated its 
downsizing program and is increasing its budget to provide an 
additional 95 FTEs for the Shuttle program in fiscal year 2000. 
NASA has also increased its 2001 budget request to provide an 
additional 278 FTEs for the Shuttle program. In addition, the 
Administration has directed the agency's managers to consider 
ways to reduce workforce stress.
    The agency has included improved health monitoring as an 
objective in its 2001 performance plan.
    Point No. 3. NASA faces a number of challenges in 
addressing the current Shuttle work force imbalance. These 
include accommodating increased training needs, attracting and 
retaining technical skills, dealing with uncertainties related 
to the future of Shuttle privatization and commercialization 
plans, and achieving a higher flight rate.
    Last year, NASA flew four Shuttle flights. If all goes well 
with the Space Station, the number of flights jumps to nine in 
2001. Because the Shuttle is now projected to be used at least 
through 2012, safety upgrades are planned. A 5-year safety 
upgrade initiative will develop modifications to increase the 
safety of all major components of the Shuttle. According to 
Johnson Space Center officials, the safety upgrade initiative 
will require up to 300 engineers.
    Point No. 4: The challenge of ensuring that NASA has the 
proper mix and number of staff to meet Shuttle objectives 
safely will require a structured approach. Just hiring more 
engineers next year is not enough. The Comptroller general has 
recently brought concerted attention to human capital issues in 
the federal government and the importance of long-term 
planning.
    The term human capital recognizes the fact that work force 
is the government's greatest asset, whose value can be enhanced 
through investment. We believe that agencies must have a clear, 
fact-based understanding of its human capital situation.
    In this regard, we have provided a checklist for agency 
leaders to use to help them develop human capital strategies. 
This checklist allows them to scan their human capital systems 
to determine whether their approach supports their vision of 
who they are and what they want to accomplish, and to identify 
those policies that are in particular need of attention.
    The checklist helps to establish linkage between human 
capital programs and the agency's mission, goals, and 
strategies.
    We have applied some of the concepts contained in the 
checklist during our review at NASA, and have provided copies 
of the checklist to agency personnel. We have been told that 
human resource officials are currently using the checklist as a 
guide in their work force planning and as part of the agency's 
ongoing discussions with OMB. It is our hope that it will 
enable NASA to perform more comprehensive evaluations of its 
human capital systems in the coming years.
    Thank you, sir.
    [The prepared statement of Mr. Li follows:]

 Prepared Statement of Allen Li, Associate Director, National Security 
                                  and 
         International Affairs, U.S. General Accounting Office

    Mr. Chairman and Members of the Subcommittee:

    We are pleased to be here today to discuss our ongoing work on the 
National Aeronautics and Space Administration's (NASA) Space Shuttle 
program. We are currently responding to the Committee's request to 
review NASA's plans for meeting current and future human capital needs. 
We plan to finalize our work and report on this issue in the coming 
months. As a result, my statement today presents our preliminary 
observations.
    NASA budget data shows that, since 1995, Shuttle workforce levels 
have decreased from about 3,000 to about 1,800 full time equivalent 
employees.\1\ NASA based its downsizing efforts on optimistic 
programmatic assumptions. For example, NASA believed it could reduce 
its workforce by consolidating contracts for flight, ground, and 
mission operations under a single private sector contract. In October 
1996, NASA awarded this contract. Under the contract, NASA was to 
provide incentives to eliminate unnecessary work and would no longer be 
involved in day-to-day Shuttle operations. However, because NASA was 
implementing a number of workforce reduction initiatives, NASA could 
not directly attribute specific reductions to the contract 
consolidation. Also, in 1994 NASA froze the Shuttle design in the 
expectation that it would be replaced. NASA now expects to operate the 
Shuttle for at least the next decade. As a consequence, it initiated an 
upgrade program. In addition, NASA's downsizing coincided with a 
decreased number of Shuttle flights: eight flights in fiscal year 1997, 
but only four each in fiscal years 1998 and 1999. However, the number 
of flights is projected to increase substantially as the International 
Space Station assembly schedule accelerates. NASA plans nine flights in 
fiscal year 2001. NASA believes this will require more staff.
---------------------------------------------------------------------------
    \1\ Full time equivalent is a measure of staff hours equal to those 
of a full time employee working 40 hours per week over the course of a 
year.
---------------------------------------------------------------------------
    Today we will focus on the Shuttle program's civil service 
workforce. Specifically, we will (1) summarize the results of studies 
on the impact of workforce reductions, (2) describe NASA's actions 
following these workforce assessments, (3) identify challenges NASA 
faces in the anticipated heavy workload imposed by the International 
Space Station, and (4) suggest a structured approach NASA can take to 
analyze human capital challenges.

RESULTS IN BRIEF

    Several studies, one as recent as March 2000, have reported that 
the Shuttle program's workforce has been affected negatively by the 
downsizing, much of which has occurred since 1995. The studies 
concluded that the existing workforce is stretched thin to the point 
where there is just one qualified person in many critical areas. NASA 
has identified 30 critical areas at Kennedy Space Center that do not 
have sufficient backup coverage. These areas include Shuttle range 
safety systems and solid rocket booster and external tank electrical 
systems. In addition, the studies found that the workforce is showing 
signs of overwork and fatigue. For example, indicators including 
forfeited leave, absences from training courses, and stress-related 
employee assistance visits are all on the rise. Moreover, the program's 
workforce age distribution and skill mix now limit opportunities for 
mentoring newer staff. For example, throughout the Office of Space 
Flight, which includes the Shuttle program, there are more than twice 
the number of workers over 60 years of age than under 30 years of age. 
This jeopardizes the program's ability to ``hand off'' leadership roles 
to the next generation.
    NASA has responded to the workforce problems in a number of ways. 
It has terminated its downsizing program and is increasing its budget 
to provide an additional 95 full time equivalent employees for the 
Shuttle program in fiscal year 2000. NASA has also increased its fiscal 
year 2001 budget request to provide an additional 278 full time 
equivalent employees for the Shuttle program. In addition, the 
administrator has directed the agency's managers to consider ways to 
reduce workforce stress.
    NASA faces a number of challenges in addressing the current Shuttle 
workforce imbalance--especially given the anticipated increased 
workload. This includes accommodating increased training needs, 
ensuring adequate staffing levels for its safety upgrade program, 
attracting and retaining technical skills, dealing with uncertainties 
related to the future of Shuttle privatization and commercialization 
plans, and achieving a higher projected flight rate.
    The challenge of ensuring NASA has the proper mix and number of 
staff to meet Shuttle objectives safely will require a structured 
approach. GAO's internal control standards for the federal government 
discuss the importance of human capital management in achieving program 
results. The Comptroller General has brought additional attention to 
human capital issues and the importance of long-term planning. In this 
regard, we recently issued a checklist \2\ for agency leaders to use, 
in order to help them develop human capital strategies. This checklist 
will allow agency managers ``to quickly determine whether their 
approach to human capital supports their vision of who they are and 
what they want to accomplish, and to identify those . . . policies that 
are in particular need of attention.'' The checklist follows a five-
part framework, including strategic planning, organizational alignment, 
leadership, talent, and performance culture. The checklist helps to 
establish linkage between human capital programs and the agency's 
mission, goals, and strategies. We have provided copies of the 
checklist to NASA. We believe NASA's attention to human capital issues 
will be essential to ensuring the agency's ability to achieve the goals 
of the Shuttle program.
---------------------------------------------------------------------------
    \2\ Human Capital: A Self-Assessment Checklist for Agency Leaders, 
Discussion Draft (GAO/GGD-99-179, September 1999).

RECENT STUDIES HIGHLIGHT SHUTTLE WORKFORCE PROBLEMS
    Over the past several years, NASA and its Aerospace Safety Advisory 
Panel have studied the Shuttle program civil service workforce.\3\ The 
studies concluded that the Shuttle program workforce has suffered 
significantly from the downsizing, much of which has occurred since 
1995. For example, the studies conclude that the workforce may not be 
sufficient to support the planned Shuttle flight rate and many key 
positions are not sufficiently staffed by qualified workers. In 
addition, the studies found that stress levels have reached the point 
of creating an unhealthy workforce. The results of these studies are 
highlighted below.
---------------------------------------------------------------------------
    \3\ Independent Assessment of the Shuttle Processing Directorate 
Engineering and Management Processes, NASA's Human Exploration and 
Development of Space Independent Assessment Office (November 4, 1999); 
Report to Associate Administrator, Office of Space Flight, Space 
Shuttle Independent Assessment Team (March 7, 2000); and Annual Report 
for 1999, Aerospace Safety Advisory Panel (February 2000).

  <bullet> In its November 1999 report, NASA's Human Exploration and 
        Development of Space Independent Assessment Office concluded 
        that, even with a relatively low flight rate, the Shuttle 
        Processing Directorate at Kennedy Space Center had the 
        ``minimum'' workforce necessary to conduct daily business. For 
        example, the report expressed concerns with NASA's ability to 
        perform mandatory Shuttle inspections. NASA believed that these 
        inspections could be performed under its flight operations 
        contract. However, after the departure of many inspectors, the 
        agency determined that a substantial number of inspections 
        would still need to be performed in-house. The report also 
        found that NASA provided little evidence of structured training 
        plans for its staff, and the resources to support needed 
        training were inadequate. Given these concerns, the report 
        concluded that NASA might not be able to support higher Shuttle 
---------------------------------------------------------------------------
        flight rates projected in the future.

  <bullet> During the fall of 1999, NASA chartered a team to review the 
        overall Shuttle systems and maintenance practices. The team, 
        chaired by the Ames Research Center Director, assessed NASA's 
        standard practices in these areas and concluded that the 
        current workforce was inadequate. In addressing human capital 
        issues, the study noted that important technical areas were 
        understaffed. For example, during a recent Shuttle wiring 
        investigation, the team found that ``workforce skill shortages 
        created the need to use . . . personnel inexperienced in wiring 
        issues to perform critical inspections.'' In addition, the 
        study team found that work stresses had impacted the downsized 
        Shuttle workforce. For example, one center employee survey 
        suggested that hypertension, gastrointestinal, and cardiac 
        conditions could have resulted from work-related stress.

  <bullet> In an internal study completed in June 1999, NASA concluded 
        that the Office of Space Flight, which includes the Shuttle 
        program, had (1) an inappropriate skill mix for current and 
        future work, (2) a growing lack of younger staff to assume 
        management and technical roles, and (3) an overworked and aging 
        workforce. The study also concluded that there was an overall 
        shortfall of workers. In response, NASA adjusted the agency's 
        workforce targets by providing one new hire for every two 
        additional losses.

  <bullet> In the fall of 1999, NASA decided to build on its earlier 
        workforce study to further define resource requirements. This 
        second phase, completed in December 1999, included an 
        evaluation of stress-related issues. In terms of resources the 
        study found that a ``revitalization'' of the workforce was 
        required to prevent ``significant'' safety concerns. For 
        example, at the Kennedy Space Center, the Shuttle program has 
        only one qualified person in 30 \4\ critical systems areas. 
        These areas include Shuttle range safety systems and solid 
        rocket booster and external tank electrical systems. In 
        addition, the study found that, throughout the Office of Space 
        Flight, there were more than twice the number of workers over 
        60 years of age than under 30 years of age. This represented a 
        reversal of the age profile just 6 years ago, creating a 
        potential problem in developing future qualified leaders.
---------------------------------------------------------------------------
    \4\ This study identified a total of 87 critical systems areas at 
Kennedy Space Center.

  <bullet> As for health issues, the study concluded that the agency 
        was experiencing an ``unhealthy'' and increasing level of 
        stress. This conclusion was based on multiple indicators 
        including increased forfeited leave, absences from required 
        training, increased payment of overtime, and counseling visits 
        through the employee assistance program. This level of worker 
        stress resulted in (1) problems in concentrating, (2) 
        difficulty in making decisions, (3) inability to cope, (4) 
---------------------------------------------------------------------------
        insomnia, and (5) anxiety.

  <bullet> Perhaps the most persistent voice stressing the consequences 
        of Shuttle workforce downsizing has been NASA's Aerospace 
        Safety Advisory Panel. This Panel is an independent group of 
        experts consisting of nine members appointed by the NASA 
        Administrator. Since 1996, the Panel has examined the potential 
        safety impacts of downsizing and has consistently cautioned 
        that the program has been experiencing an erosion of critical 
        skills, a lack of younger people at entry-level positions, 
        insufficient training opportunities, and a decreasing capacity 
        to accommodate higher Space Shuttle flight rates for sustained 
        periods. In its 1999 annual report, the Panel recommended that 
        NASA ``. . . address its workforce problems aggressively'' to 
        ensure safe operations. It added that ``emphasis should be 
        placed on eliminating critical skills shortfalls and recruiting 
        younger [engineers] who can develop into experienced and 
        skilled future leaders.''

NASA IS BEGINNING TO ADDRESS WORKFORCE PROBLEMS

    In response to the workforce studies, NASA is now implementing 
actions to address its workforce problems. For example, the agency has 
terminated its downsizing plans and expects to add 95 full time 
equivalent employees to the Shuttle program in fiscal year 2000 to 
address critical skill shortages. In addition, in its fiscal year 2001 
budget request, NASA is seeking authority to add another 278 full time 
equivalent employees to the Shuttle workforce.
    In addition to these immediate actions, NASA's Administrator has 
announced that the agency will soon begin a joint review with the 
Office of Management and Budget to identify NASA's overall future 
workforce needs. According to the Administrator, this review will 
assess potential tools and approaches for overall personnel management 
for the agency.
    NASA believes the stress-related indicators that were reported in 
the December 1999 workforce study were critical evidence supporting the 
need for increasing NASA's workforce. In October 1999, NASA's 
Administrator directed the agency's highest level managers to consider 
ways to reduce workplace stress. NASA subsequently included improved 
health monitoring as an objective in its fiscal year 2001 performance 
plan.\5\ According to the plan, NASA plans to develop and implement 
supervisor-specific and individual training to identify, manage, and 
cope with stress in the workplace.
---------------------------------------------------------------------------
    \5\ The Government Performance and Results Act of 1993 requires 
agencies to prepare annual performance plans.

---------------------------------------------------------------------------
NASA WILL CONTINUE TO FACE HUMAN CAPITAL CHALLENGES

    In dealing with its workforce problems, the Shuttle program will 
have to deal with a number of complicating factors. These include 
accommodating increased training needs, ensuring adequate staffing 
levels for its safety upgrade program, attracting and retaining 
employees with critical skills, dealing with uncertainties related to 
the future of Shuttle privatization and commercialization plans, and 
achieving a higher projected flight rate.
    For example, according to one NASA study, it could take 2 or more 
years to fully train new engineers, while the current Shuttle workload 
leaves little time for training. Also, the Shuttle program has just 
begun a 5-year safety upgrade initiative. This initiative involves 
developing modifications to increase the safety of all major components 
of the Shuttle vehicle. According to Johnson Space Center officials, 
this initiative will require up to three hundred engineers. Moreover, 
some critically needed skills, such as software engineering will be 
hard to attract and retain. In August 1999, we reported on this concern 
as it related to the Space Station program.\6\
---------------------------------------------------------------------------
    \6\ Space Station: Russian Commitment and Cost Control Problems 
(GAO/NSIAD-99-175, August 17, 1999).
---------------------------------------------------------------------------
    In recent years, NASA has considered ways to maximize private 
sector involvement in Shuttle operations, including transitioning 
management functions and marketing of payloads for commercial 
applications.\7\ Regarding the future Shuttle privatization and 
commercialization plans, the Human Exploration and Development of Space 
Independent Assessment Office study noted that strategic planning, 
workforce deployment, and prioritization will be difficult. The study 
concluded that NASA ``must begin to analyze how its workforce will 
evolve in the [new] environments and prepare a plan for this 
evolution.'' All of these challenges will have to be faced while the 
program attempts to double its current flight rate. In recent years, 
NASA has flown four flights a year, but plans to fly nine times in 
fiscal year 2001, primarily to support the International Space Station 
assembly.
---------------------------------------------------------------------------
    \7\ In the past, the Shuttle program has performed commercial 
activities for which it has been reimbursed by the private sector. 
However, it has been limited from flying reimbursable payloads by 
federal regulations. NASA is in the process of reviewing these 
restrictive policies with their initiators with the objective of 
removing them as obstacles to a fully commercialized Shuttle program.

---------------------------------------------------------------------------
STRUCTURED APPROACH FOR MEETING HUMAN CAPITAL CHALLENGES IS NECESSARY

    We believe NASA must build on its renewed emphasis on a healthy, 
diverse, and properly deployed Shuttle workforce. Our Standards for 
Internal Control in the Federal Government, as updated in November 
1999, address these workforce issues. The standards state that ``only 
when the right personnel for the job are on board and are provided the 
right training, tools, structure, incentives, and responsibilities is 
operational success possible.''
    GAO's Comptroller General has made improved human capital 
management throughout the federal government one of his top priorities. 
In testimony \8\ on March 9, 2000, he stated that ``. . . human capital 
management recognizes that employees are a critical asset for success, 
and that an organization's human capital policies and practices must be 
designed, implemented, and assessed by the standard of how well they 
support the organization's mission and goals.'' He also noted that we 
had recently published a human capital self-assessment checklist that 
provides a structured approach to identifying and addressing human 
capital issues. This checklist will allow agency managers ``to quickly 
determine whether their approach to human capital supports their vision 
of who they are and what they want to accomplish, and to identify 
those...policies that are in particular need of attention.'' The 
checklist follows a five-part framework, including strategic planning, 
organizational alignment, leadership, talent, and performance culture. 
It also provides a linkage of human capital programs to the agency's 
mission, goals, and strategies.
---------------------------------------------------------------------------
    \8\ Testimony was given before the Subcommittee on Oversight of 
Government Management, Restructuring, and the District of Columbia, 
Senate Committee on Governmental Affairs (GAO/T-GGD-00-77). Also on 
March 9, 2000, GAO testified on similar human capital concerns related 
to the Department of Defense. This testimony was given at a joint 
hearing involving the Subcommittee on Military Readiness, House 
Committee on Armed Services, and the Subcommittee on Civil Service, 
House Committee on Government Reform (GAO/T-GGD/NSIAD-00-120).
---------------------------------------------------------------------------
    We have applied some of the concepts contained in the checklist 
during our workforce review at NASA and have provided copies of the 
checklist to NASA. We have been told that human resource officials are 
currently using the checklist as a guide in their workforce planning 
and the agency's ongoing discussions with the Office of Management and 
Budget. It is our hope that it will enable NASA and other agencies to 
perform more comprehensive evaluations of their human capital systems 
in the coming years.
    Mr. Chairman, this concludes our formal statement. We would be 
happy to answer any questions that you or members of the Subcommittee 
may have.

    Senator Frist. Thank you.
    Dr. McDonald.

          STATEMENT OF DR. HARRY MCDONALD, DIRECTOR, 
        AMES RESEARCH CENTER, NATIONAL AERONAUTICS AND 
        SPACE ADMINISTRATION, MOFFETT FIELD, CALIFORNIA

    Dr. McDonald. Thank you, Mr. Chairman, and thank you for 
the invitation to come here this afternoon. It is a pleasure 
and a privilege.
    The Shuttle program is one of the most complex engineering 
tasks undertaken anywhere in the world at the present time, and 
the Space Shuttle independent assessment team was chartered in 
September 1999 by the Associate Administrator for Human Space 
Flight, Mr. Joe Rothenberg, in light of several, in his mind, 
disturbing maintenance issues reflected in in-flight anomalies, 
i.e., problems encountered in the flight of the Space Shuttle 
mission.
    Mr. Rothenberg invited me to form a team comprised of both 
NASA and a contractor, together with DOD experts in the area of 
aircraft maintenance, wiring, and other technologies required 
in the maintenance of the vehicle.
    In performing this review, I would like to say at the 
outset that a very positive nature was observed in doing the 
review, not the least of which was the commitment, dedication, 
and outstanding skill of our work force, the NASA work force 
involved in maintaining the vehicle, including the very great 
concern for the safety of the astronauts. So that was really 
moving to see that commitment on behalf of the technician work 
force, in particular.
    It is very unfortunate that the nature of the type of 
review that we performed, that we were not able to dwell on 
that very positive aspect. We were there for the critical 
elements of the program. In this we noted that in the last few 
years, since 1995, there had been a massive change in the 
operation of the Shuttle. It had been transferred to a space 
flight operations contract.
    There had been significant slimming down of both the NASA 
and the contractor work force involved in supporting the 
Shuttle, in particular, from the maintenance point of view. All 
this had been accomplished without significant problems, and, 
indeed, with a very considerable cost saving to the agency.
    However, the assessment team did identify some problem 
areas, some significant problem areas that we felt should be 
addressed to maintain a safe and effective program. Some 
specifics are given in the body of the report, and I would just 
like to touch on a couple of them here.
    The assessment team was asked by the Space Shuttle Program 
Office for its views on the return to flight in December of 
last year, which occurred during the period of time in which we 
were undertaking the review, and we had concluded that a 
suitable criteria for the return to flight would be that the 
vehicle would then possess less risk than, for example, the 
STS-93, whereby two anomalies had occurred, one, the wiring 
short, the other is the pin injection. It was clear at that 
point in time, in December 1999, that that would be the case.
    There had been extensive reviews, extensive repairs, and 
many of the questions that we had raised had been answered, so 
that we were quite comfortable with the return to flight and 
the continued operation of the Shuttle.
    We were pleased to learn that following the STS-103 flight 
that only minor in-flight anomalies had been encountered in 
that flight, which continued a downward reduction in the number 
of in-flight anomalies that had been occurring over the last 
six or 7 years.
    However, one of the continuing and major concerns among the 
assessment team members was the concern with the reduction in 
allocated resources, including appropriate staff required to 
ensure that the critical processes were being adequately and 
rigorously implemented, and continuously improved.
    Our findings showed to us, at least, that there were 
important technical areas that were undermanned, staffed one-
deep, and this type of vehicle, given its severe environment in 
which it operated would require extensive maintenance, major 
amounts of touch labor, where actually technicians would 
replace and go on board the vehicle, and also it required a 
high degree of skill, a high degree of expertise, and 
significant on-the-job training. Touch labor, in particular, 
always creates the opportunity for collateral damage, and that 
was our belief that it occurred with the wiring issue.
    The technicians looking to repair other components on the 
vehicle, repair, or renew, maintain, would inadvertently damage 
the wiring by stretching, touching, standing, whatever, so that 
this emphasized the need at the present time, given the present 
level of technology, for increased inspection and attention to 
these particular areas.
    In addition, we observed that the program was using an 
increase in the standard repair designation and the use of fair 
wear-and-tear allowances, essentially hid the extent of some of 
these problems from the management.
    They were not reported into the problem reporting and 
corrective action data base that would allow management to see 
that there were very significant numbers of repairs being done 
on, for example, the wiring. So we were a little concerned 
about that.
    We were also concerned that there is an operational 
philosophy within the program to only fly what you test, and 
test what you fly. Clearly, for various reasons, this had not 
been adhered to with regard to the pin problem. That was an 
example that came up.
    There was also the issue, and we believe that the Shuttle 
upgrades program will present us with the opportunity to 
correct a number of the observed efficiencies, in particular it 
might enable us to reduce the 76 areas where redundancy is 
compromised on the vehicle, and incorporate design for 
maintainability.
    So follow-on, we believe, activity is required to examine 
some of the other systems that we have not been able to examine 
in the light of our limited amount of time. We concentrated on 
the orbiter vehicle, and we believe that a similar type of 
review should be carried out in terms of the solid rocket 
motors and the external fuel tank, for instance, and that this 
follow-on activity should review our recommendations for 
implementation.
    In conclusion, shortly before delivering the part to NASA, 
the team was very gratified to learn that a number of steps had 
already been taken by the agency to rectify some of the 
problems, some of the adverse findings that we had reported on.
    It was particularly pleasing to know that the targeted 
staffing additions which had been authorized and were referred 
to earlier this afternoon by the Administrator, targeted 
staffing increases were directly mainly at quality assurance 
function, which we felt would be particularly beneficial to the 
program. With that, that is the end of my statement.
    [The prepared statement of Dr. McDonald follows:]

   Prepared Statement of Dr. Harry McDonald, Director, AMES Research 
        Center, National Aeronautics and Space Administration, 
                       Moffett Field, California

Space Shuttle Independent Assessment Team

Report to the Associate Administrator
Office of Space Flight
October-December 1999

Executive Summary

    The Shuttle program is one of the most complex engineering 
activities undertaken anywhere in the world at the present time. The 
Space Shuttle Independent Assessment Team (SIAT) was chartered in 
September 1999 by NASA to provide an independent review of the Space 
Shuttle sub-systems and maintenance practices. During the period from 
October through December 1999, the team led by Dr. McDonald and 
comprised of NASA, contractor, and DOD experts reviewed NASA practices, 
Space Shuttle anomalies, as well as civilian and military aerospace 
experience.
    In performing the review, much of a very positive nature was 
observed by the SIAT, not the least of which was the skill and 
dedication of the workforce. It is in the unfortunate nature of this 
type of review that the very positive elements are either not mentioned 
or dwelt upon. This very complex program has undergone a massive change 
in structure in the last few years with the transition to a slimmed 
down, contractor-run operation, the Shuttle Flight Operations Contract 
(SFOC). This has been accomplished with significant cost savings and 
without a major incident. This report has identified significant 
problems that must be addressed to maintain an effective program. These 
problems are described in each of the Issues, Findings or Observations 
summarized below, and unless noted, appear to be systemic in nature and 
not confined to any one Shuttle sub-system or element. Specifics are 
given in the body of the report, along with recommendations to improve 
the present systems.

Issue 1

NASA must support the Space Shuttle Program with the resources and 
staffing necessary to prevent the erosion of flight-safety critical 
processes.

    Human rated space transportation implies significant inherent risk. 
Over the course of the Shuttle Program, now nearing its 20th year, 
processes, procedures and training have continuously been improved and 
implemented to make the system safer. The SIAT has a major concern, 
reflected in nearly all of the subsequent ``Issues'', that this 
critical feature of the Shuttle Program is being eroded. Although the 
reasons for this erosion are varied, it appears to the SIAT that a 
major common factor among them is the reduction in allocated resources 
and appropriate staff that ensure these critical processes and 
procedures are being rigorously implemented and continually improved. 
The SIAT feels strongly that workforce augmentation must be realized 
principally with NASA personnel rather than with contract personnel. 
The findings show that there are important technical areas that are 
staffed ``one-deep''. The SSP should assess not only the quantity of 
personnel needed to maintain and operate the Shuttle at anticipated 
future flight rates, but also the quality of the workforce required in 
terms of experience and special skills. In the recent fleet wiring 
investigation, work force skill shortages created the need to use 
Quality Assurance personnel inexperienced in wiring issues to perform 
critical inspections. Note that increasing the work force carries risk 
with it until the added work force acquires the necessary experience.

Issue 2

The past success of the Shuttle program does not preclude the existence 
of problems in processes and procedures that could be significantly 
improved.

    The SIAT believes that another factor in the erosion referred to in 
Issue 1 is success-engendered safety optimism. The SIAT noted several 
examples of what could be termed an inappropriate level of comfort with 
certain apparently successful ``acceptance of risk'' decisions made by 
the program. One example was the number of flights with pinned liquid 
oxygen injectors flown without prior hot-fire testing that did not 
experience pin ejection before the STS-93 pin ejection rupture 
incident. These successful flights created a false sense of security 
that pinning an injector could be treated as a standard repair. There 
were 19 incidences of pin ejection that did not result in nozzle 
rupture prior to STS-93 and this created an environment that led to the 
acceptance of risk. Similarly the wire damage that led to the short on 
STS-93 is suspected to have been caused 4 to 5 years prior to the 
flight. The SSP must rigorously guard against the tendency to accept 
risk solely because of prior success.

Issue 3

The SSP's risk management strategy and methods must be commensurate 
with the `one strike and you are out' environment of Shuttle 
operations.

    While the Shuttle has a very extensive Risk Management process, the 
SIAT was very concerned with what it perceived as Risk Management 
process erosion created by the desire to reduce costs. This is 
inappropriate in an area that the SIAT believes should be under 
continuous examination for improvement in effectiveness with cost 
reduction being secondary. Specific SIAT findings address concerns such 
as: moving from NASA oversight to insight; increasing implementation of 
self-inspection; reducing Safety and Mission Assurance functions and 
personnel; managing risk by relying on system redundancy and abort 
modes; and the use of only rudimentary trending and qualitative risk 
assessment techniques. It seemed clear to the SIAT that oversight 
processes of considerable value, including Safety and Mission 
Assurance, and Quality Assurance, have been diluted or removed from the 
program. The SIAT feels strongly that NASA Safety and Mission Assurance 
should be restored to the process in its previous role of an 
independent oversight body, and not be simply a ``safety auditor.'' The 
SIAT also believes that the Aerospace Safety Advisory Panel membership 
should turnover more frequently to ensure an independent perspective. 
Technologies of significant potential use for enhancing Shuttle safety 
are rapidly advancing and require expert representation on the 
Aerospace Safety Advisory Panel. While system redundancy is a very 
sound element of the program, it should not be relied upon as a primary 
risk management strategy; more consideration should be given to risk 
understanding, minimization and avoidance. It was noted by the SIAT 
that as a result of choices made during the original design, system 
redundancy had been compromised in 76 regions of the Orbiter (300+ 
different circuits, including 6 regions in which if wiring integrity 
was lost in the region, all three main engines would shut down). These 
were design choices made based on the technology and risk acceptance at 
that time. Some of these losses of redundancy may be unavoidable; 
others may not be. In either case, the program must thoroughly 
understand how loss of system redundancy impacts vehicle safety.

Issue 4

SSP maintenance and operations must recognize that the Shuttle is not 
an `operational' vehicle in the usual meaning of the term.

    Most aircraft are described as being ``operational'' after a very 
extensive flight test program involving hundreds of flights. The Space 
Shuttle fleet has only now achieved one hundred flights and clearly 
cannot be thought of as being ``operational'' in the usual sense. 
Extensive maintenance, major amounts of ``touch labor'' and a high 
degree of skill and expertise by significant numbers of technician and 
engineering staff will be always required to support Shuttle 
operations. Touch labor always creates a potential for collateral and 
inadvertent damage. In spite of the clear mandate from NASA that 
neither schedule nor cost should ever be allowed to compromise safety, 
the workforce has received a conflicting message due to the emphasis on 
achieving cost and staff reductions, and the pressures placed on 
increasing scheduled flights as a result of the Space Station. Findings 
of concern to the SIAT include: the increase in standard repairs and 
fair wear and tear allowances; the use of technician and engineering 
``pools'' rather than specialties; a potential complacency in problem 
reporting and investigation; and the move toward structural repair 
manuals as used in the airline industry that allow technicians to 
decide and implement repairs without engineering oversight. The latter 
practice has been implicated in a number of incidents that have 
occurred outside of NASA (Managing the Risks of Organizational 
Accidents, Chapter 2, p. 21). When taken together these strategies have 
allowed a significant reduction in the workforce directly involved in 
Shuttle maintenance. When viewed as an experimental / developmental 
vehicle with a ``one strike and you are out'' philosophy, the actions 
above seem ill advised.

Issue 5

The SSP should adhere to a `fly what you test / test what you fly' 
methodology.

    While the ``fly what you test / test what you fly'' methodology was 
adopted by the Shuttle Program as a general operational philosophy, 
this issue arose specifically with the Space Shuttle Main Engine 
(SSME). For the SSME, fleet leader and hot-fire (green-run) testing are 
used very effectively to manage risk. However, the concept must be 
rigorously adhered to. Recent experience, for instance the pin ejection 
problem, has shown a breakdown of the process. An excellent concept, 
the fleet leader is also applicable to other systems, but its 
limitations must be clearly understood. In some cases (e.g., hydraulic 
testing, avionics, Auxiliary Power Unit) the SIAT believes that the 
testing is not sufficiently realistic to estimate safe life.

Issue 6

The SSP should systematically evaluate and eliminate all potential 
human single point failures.

    In the past, the Shuttle Program had a very extensive Quality 
Assurance program. The reduction of the quality assurance activity 
(``second set of eyes'') and of the Safety & Mission Assurance function 
(``independent, selective third set of eyes'') increases the risk of 
human single point failures. The widespread elimination of Government 
Mandatory Inspection Points, even though the reductions were made 
predominantly when redundant inspections or tests existed, removed a 
layer of defense against maintenance errors. Human errors in judgment 
and in complying with reporting requirements (e.g., in or out of 
family) and procedures (e.g., identifcation of criticality level) can 
allow problems to go undetected, unreported or reported without 
sufficient accuracy and emphasis, with obvious attendant risk. 
Procedures and processes that rely predominantly on qualitative 
judgements should be redesigned to utilize quantitative measures 
wherever possible. The SIAT believes that NASA staff (including 
engineering staff) should be restored into the system for an 
independent assessment and correction of all potential single point 
failures (see also the concerns concerning the Safety and Mission 
Assurance function in Issue 3).

Issue 7

The SSP should work to minimize the turbulence in the work environment 
and its effects on the workforce.

    Findings support the view that the significant number of changes 
experienced by the Shuttle Program in recent years have adversely 
affected workforce morale or diverted workforce attention. These 
include the change to Space Flight Operations Contract, the reduction 
in staffing levels to meet Zero Based Review requirements, attrition 
through retirement, and numerous re-organizations. Ongoing turbulence 
from cyclically heavy workloads and continuous improvement initiatives 
(however beneficial) were also observed to stress the workforce. While 
the high level workforce performance required by the Shuttle program 
has always created some level of workforce stress, the workforce 
perception is that this has increased significantly in the last few 
years. Specifically, the physical strain measured in the Marshall Space 
Flight Center workforce significantly exceeded the national norm, 
whereas the job stress components (e.g., responsibility levels, 
physical environment) were near normal levels. This typically indicates 
the workforce is internalizing chronic instability in the workplace. 
Similarly, feedback from small focus groups at Kennedy Space Center 
indicates unfavorable views of communication and other factors of the 
work environment. Clearly, from a health perspective, one would seek to 
reduce employee stress factors as much as possible. From a vehicle 
health perspective, stressed employees are more likely to make errors 
by being distracted while on the job, and to be absent from the job 
(along with their experience) as a result of health problems.
    The SIAT believes that the findings reported here in the area of 
work force issues parallel those that were noted by the Aerospace 
Safety Advisory Panel. The SIAT is concerned that in spite of the 
Aerospace Safety Advisory Panel findings and recommendations, supported 
by the present review, these problems remain.
Issue 8

The size and complexity of the Shuttle system and of the NASA/
contractor relationships place extreme importance on understanding, 
communication, and information handling.

    In spite of NASA's clear statement mandate on the priority of 
safety, the nature of the contractual relationship promotes conflicting 
goals for the contractor (e.g., cost vs. safety). NASA must minimize 
such conflicts. To adequately manage such conflicts, NASA must 
completely understand the risk assumptions being made by the contractor 
workforce. Furthermore, the SIAT observed issues within the Program in 
the communication from supervisors downward to workers regarding 
priorities and changing work environments. Communication of problems 
and concerns upward to the SSP from the ``floor'' also appeared to 
leave room for improvement. Information flow from outside the program 
(i.e., Titan program, Federal Aviation Administration, ATA, etc.) 
appeared to rely on individual initiative rather than formal process or 
program requirements. Deficiencies in problem and waiver tracking 
systems, ``paper'' communication of work orders, and FMEA/CIL revisions 
were also apparent. The program must revise, improve and 
institutionalize the entire program communication process; current 
program culture is too insular in this respect .
    Additionally, major programs and enterprises within NASA must 
rigorously develop and communicate requirements and coordinate changes 
across organizations, particularly as one program relies upon another 
(e.g., re-supplying and refueling of International Space Station by 
Space Shuttle). While there is a joint Program Review Change Board 
(PRCB) to do this, for instance on Shuttle and Space Station, it was a 
concern of the SIAT that this communication was ineffective in certain 
areas.

Issue 9

Due to the limitations in time and resources, the SIAT could not 
investigate some Shuttle systems and/or processes in depth.

    Follow-on efforts by some independent group may be required to 
examine these areas (e.g., other propulsion elements, such as the 
Reusable Solid Rocket Motor, Solid Rocket Booster, External Tank, 
Orbiter Maneuvering System, and Reaction Control System, and other 
wiring elements besides those in the Orbiter). This independent group 
should also review the SSP disposition of the SIAT findings and 
recommendations. The Shuttle Upgrades program creates the opportunity 
to correct many of the observed deficiencies, e.g., the 76 areas of 
compromised redundancies (300+ circuits), and to incorporate design for 
maintainability and continuous improvement. However, without careful 
systems integration and prioritization, some of the deficiencies 
observed by the SIAT will be exacerbated, e.g., in wiring, hydraulics, 
software, and maintenance areas. Additionally, the elements of 
maintenance must be rigorously analyzed, including training, 
maintainability, spares support maintenance, and accessibility.

Return to Flight

    The SIAT was asked by the SSP for its views on the return to flight 
of STS-103. The SIAT had earlier considered this question and had 
concluded that a suitable criterion would be that STS-103 should 
possess less risk than, for example, STS-93. In view of the extensive 
wiring investigation, repairs and inspections that had occurred this 
ondition appeared to have been satisfied. Furthermore, none of the main 
engines scheduled to fly have pinned Main Injector liquid oxygen posts. 
The SIAT did suggest that prior to the next flight the SSP make a 
quantitative assessment of the success of the visual wiring inspection 
process. In addition, the SIAT recommended that the SSP pay particular 
attention to inspecting the 76 areas of local loss of redundancy and 
carefully examine the OV102 being overhauled at Palmdale for wiring 
damage in areas that were inaccessible on OV103. Finally, the team 
suggested that the SSP review in detail the list of outstanding waivers 
and exceptions that have been granted for OV103. The SSP is in the 
process of following these specific recommendations and so far has not 
reported any findings that would cause the SIAT to change its views.
    Shortly before completing this report, the SIAT was gratified to 
learn that a number of steps had been taken by NASA to rectify a number 
of the adverse findings reported above. Of particular note was the 
strengthening of the NASA Quality Assurance function for the Shuttle at 
Kennedy Space Center. Upon completion of STS-103, the SIAT was pleased 
to learn that only two orbiter in-flight anomalies were experienced, a 
reduction from past trends (see Appendix 11 of the final summary).

    Senator Frist. Thank you, Dr. McDonald.
    We will be back for questions for all of the panelists. Mr. 
Spear.

        STATEMENT OF TONY SPEAR, TASK LEADER, NATIONAL 
            AERONAUTICS AND SPACE ADMINISTRATION'S 
   FASTER, BETTER, CHEAPER REVIEW TEAM, PASADENA, CALIFORNIA

    Mr. Spear. Mr. Chairman, thank you for this opportunity to 
summarize the Faster, Better, Cheaper Task results. I got this 
job directly from Dan Goldin early in 1999, and finished up 
this February, during which I incorporated my personal 
experience and my team's experience on the Mars Pathfinder 
mission with the results of a series of interviews and 
workshops with representatives from NASA, other agencies, 
industry, and academia.
    For most of my career, I worked at JPL, and retired in 
1998. In 1992, I was asked to plan and implement Mars 
Pathfinder, not only to land on Mars, but to invent a new way 
of doing business out there at JPL. I was asked to treat cost 
and schedule as importantly as technical, and to develop and 
operate under cost and schedule caps.
    My summary conclusions, but first, let me answer a question 
often asked: Why did not the Mars 98 project use the Pathfinder 
airbags? On Pathfinder, we were midway through our airbag 
development without a credible design, when 1998 had to make 
their decision on their approach, so they chose a proven 
approach derived from Viking, a prudent approach at the time.
    Now, listed in my testimony is the rules of engagement, how 
to get into a Faster, Better, Cheaper mode. In my four pages 
there are ten steps. I am going to highlight No. 4.
    We formed an excellent team comprised of a few old-timers, 
scarred with experience, but most of the team were bright, 
energetic youth, bringing enthusiasm and new methods. Our 
Pathfinder team was the major reason for our success. By the 
way, at the start I was one of the bright, energetic youth.
    Now, in our interviews and workshops, it was not surprising 
that other successful, better, cheaper teams reported similar 
findings as to what made Faster, Better, Cheaper work. It was 
not anything magic, nothing new. It was back to basics, 
especially the importance of people, teaming, and good 
communication.
    Then after much debate, we concluded that Faster, Better, 
Cheaper is simply attempting to continuously improve 
performance through efficiency and innovation, just that. But 
in addition, there is a teaming spirit associated with doing 
Faster, Better, Cheaper, and this intangible, the humanist 
versus the technicians won out, and this intangible element was 
made a part of our definition of Faster, Better, Cheaper.
    So then Faster, Better, Cheaper equates to all of NASA. It 
applies to all missions, and work, and support, and all others 
in the Nation are at it, too. Everybody understands that we 
must improve, continuously improve to compete in the twenty-
first century.
    There are two major challenges for Faster, Better, Cheaper. 
No. 1, in our zeal we have gone too far in challenging projects 
to cut costs. We need to slow down some, move from a fixation 
on cost and near-term gain, and to do more careful planning. We 
have made mistakes, and the mission failure rate, in my 
opinion, is too high.
    No. 2, Faster, Better, Cheaper precipitated a major 
transition within NASA from few to many missions, requiring 
many more project managers, teams, and institutional support, 
including review teams.
    Where do you go get suddenly all these new people? We 
caught the institution by surprise. At the same time there is a 
talent drain due to requirements, due to retirements, 
downsizing, and the loss to industry.
    The future for Faster, Better, Cheaper, the future equates 
to people, technology, and methods. On people, we must place a 
higher priority on acquisition, motivating, and training of 
people. We must develop incentives to attract good people and 
well-respected leaders to come work for NASA. Generating 
interest in NASA must start early in the schools.
    The results of this task need to be combined with the other 
investigations to derive a common set of Faster, Better, 
Cheaper, lessons-learned, and principles to form the basis for 
training the newly formed project teams. Now, this is within 
NASA, industry, and throughout academia.
    On technology, advanced technology is the better in Faster, 
Better, Cheaper, and we have not yet scratched the surface on 
its potential. Technology, in one way, is reducing the amount 
of work that projects need to do, as well as bringing down the 
cost of powerful, but small spacecraft, and accompanying 
reduction in launch vehicle costs is necessary, and must be a 
national priority if we are to remain a world leader in space.
    Combined with the low-cost spacecraft, this will lead to a 
major move into space by universities, developing countries, 
high-roller individuals who decide they want to have their own 
mission to Mars.
    On methods, methods involve expanding the multi-mission 
institutional infrastructure support to the Faster, Better, 
Cheaper project teams. There is a list of things in my paper as 
to what that means.
    So core teams, with less project-unique systems to build, 
using more advanced multi-mission capability, and aided with a 
larger base of advanced technology, will become smaller in 
size. You will not need as big a team to do the job. The multi-
mission capability will aid better the smaller teams.
    Then finally, the future of NASA is bright. I believe 
personally that Dan Goldin is right on with this Faster, 
Better, Cheaper thrust. He set the stage, created the proper 
environment, now all we need to do is follow through on 
implementation.
    The key word nowadays is implementation, a gaining from our 
lessons learned. Working hard in the trenches, executing, 
following through on the details and getting it right.
    Thank you.
    [The prepared statement of Mr. Spear follows:]

Prepared Statement of Tony Spear, Task Leader, National Aeronautics and 
      Space Administration's Faster, Better, Cheaper Review Team, 
                          Pasadena, California

    Mr. Chairman and members of the Subcommittee thank you for this 
opportunity to summarize the NASA FBC Task results. I was asked by the 
NASA Administrator, Dan Goldin, to undertake this study of the Agency's 
implementation of Faster, Better, Cheaper (FBC) in mid 1999.
    The FBC Task was conducted from July 1999 through February 2000, 
during which I incorporated my personal experience on the Mars 
Pathfinder Mission with the results of a series of interviews and 
workshops with representatives from NASA Headquarters, the NASA 
Centers, other Government Agencies, Industry, and Academia. This has 
led to the conclusions presented here.

INTRODUCTION

    For most of my career, 1962 to 1998, I worked on Deep Space 
Missions at the Jet Propulsion Labs, JPL, in Pasadena CA. I retired 
from JPL in 1998.
    In 1992, I was asked to plan and implement Pathfinder, challenged 
not only to land on Mars, but to ``invent a new way of doing business 
at JPL.''
    I was to treat cost and schedule as importantly as technical and to 
develop and operate the mission under a cost cap of $265 million, 
including the lander, rover Sojourner, flight operations and launch 
vehicle. Project development from start to launch took a little over 
three years.

SUMMARY FBC TASK CONCLUSIONS

    First let me answer a question often asked:
    After the Mars 1998 Lander failure and during the final stages of 
this Task, I was asked: Why the Mars 1998 Lander did not use the 
Pathfinder airbags?
    In Pathfinder development, there was concern over our airbag 
landing approach, and we were only midway through its development when 
the Mars 1998 Project needed to make their landing approach decision. 
Since we had not completed a credible design yet, the Mars 1998 Project 
choose a derivative of the proven Viking landing approach--a prudent 
decision under the circumstances at that time.

HOW TO GET INTO THE FBC MODE--``FBC Rules of Engagement''

    Some of the key elements of Pathfinder's success form the basis for 
the ``FBC Rules of Engagement'' developed in this Task:

  <bullet> We were given latitude to adjust mission scope to fit within 
        the cost cap and initiated the project with adequate reserves 
        to handle uncertainty.

  <bullet> Requirements did not change, and funds were provided at the 
        right time.

  <bullet> Team members were extracted from their institutional home 
        base at JPL and co-located in one big room around out test bed. 
        We sought out the best expertise inside and outside of JPL. Our 
        team was Nationwide.

  <bullet> We formed an excellent team comprised of a few old timers 
        scarred with experience, but with mostly bright energetic youth 
        bringing enthusiasm and new methods. Our Team is the major 
        reason for our success.

  <bullet> Each team member reporting directly to the project, removing 
        layers of management in between, was truly empowered with cost 
        and schedule as well as technical responsibility for their 
        project element.

  <bullet> We accomplished thorough mission, system and subsystem 
        engineering and strict project planning, monitoring, and 
        control.

  <bullet> Open and candid communication was important inside the Team 
        and outside as well to management, the press and public. We 
        agreed to place our data immediately on the Internet and to 
        have CNN show our landing to the world.

  <bullet> We continuously assessed and mitigated risk throughout 
        development and operations, and did not think for a second we 
        could fail because we were experimenting with new ways.

  <bullet> We emphasized testing and training and followed through on 
        details.

  <bullet> And, very importantly, we subjected ourselves to extensive 
        peer review, informal interactions with experts outside the 
        project on all important project events--the best check and 
        balance for FBC projects.

    Not surprisingly, other successful FBC Teams throughout NASA, other 
Agencies, industry and academia reported similar findings as to what 
made FBC work, especially the importance of people, teaming and good 
communication.
    And after much debate on just what is FBC, its definition, we 
concluded that FBC is simply attempting to continuously improve 
performance through efficiency and innovation.
    But in addition, there is a ``Teaming Spirit'' associated with 
doing FBC which distinguishes FBC Teams, this intangible element was 
made a part of the definition. On Pathfinder, all vendors, NASA Centers 
and other Agencies in support of Pathfinder also got into the FBC 
Spirit.
    And FBC equates to all of NASA, applying to all missions and work 
in support of missions. Other Government Agencies, industry and 
academia are at it too. All realize we must improve to compete in the 
21st Century information age and world economy. Of all the hundreds of 
people interviewed during this Task, no one said we should go back to 
the old way. All said we need to gain from our lessons learned and 
improve our FBC approach.

SOME MAJOR CHALLENGES FOR FBC

  <bullet> In our zeal to do FBC, we have gone too far in challenging 
        projects to cut cost. We need to slow down some, move from a 
        fixation on cost and near term gain, and do more careful 
        planning.

    For the 1st generation of FBC Missions, including Clementine, Near 
Earth Rendezvous, Lunar Prospector, Mars Global Surveyor, and Mars 
Pathfinder, scope fit well within cost and schedule caps. However, for 
some of the 2nd generation missions, the challenge bar was raised too 
high. The cost cuts were too much.

  <bullet> FBC precipitated a major transition within NASA from few to 
        many missions requiring many more project managers, teams, and 
        institutional support including review teams. Management 
        attention has become diluted across these many missions. At the 
        same time, there is a talent drain due to retirements, 
        downsizing, and loss to industry.

    Before with fewer missions, project managers worked up through the 
ranks for many years with ``on the job training'' to gain significant 
experience before they became project managers. Now with many missions 
this is not always possible, making training, mentoring, and peer 
review even more important.

FUTURE FOR FBC

    To take FBC to the next level will require much dedication and 
teaming among NASA Headquarters, the NASA Centers and its industry and 
academia partners. It's one thing to do FBC projects experiments, it's 
another thing to institutional it.

    Future FBC equates to PEOPLE, TECHNOLOGY, METHODS.

    On people: We must place a higher priority on acquisition, 
motivation, training. We must develop incentives to attract good people 
and well-respected leaders to come to work for NASA. Generating 
interest in NASA must start early in the schools. While there is good 
work here, it needs higher priority. There is nothing better than 
involving students in real live missions, with some managed by 
students, with strong, encouraging assistance and mentoring by NASA 
expertise to give them a better chance to succeed. Let them navigate 
rovers on the Moon and Mars.
    The results of this FBC Task need to be combined with those of the 
two Mars Investigations to derive a common set of FBC lessons learned 
and principles to form the basis for FBC Training of newly formed 
project teams.

    On technology: Advanced technology is the ``Better'' in FBC and we 
have not scratched the surface yet on its potential. Soon projects, who 
now develop their communications links with their spacecraft, will be 
provided proven, advanced, multi-mission communications and data 
systems with ``bug free'' software--this will be like not having to 
build your own telephone every time you call home.
    Advanced tailor-able, multi-mission micro-electronics with 
intelligent systems will bring the cost of small, but powerful, 
reliable, automatic spacecraft matched to automated, Internet driven 
ground support systems down to a few $ million so that universities, 
developing countries and companies can explore space, have their own 
Mars mission.
    An accompanying reduction in launch vehicle costs is necessary and 
must be a National priority if we are to remain a world leader in 
space. Combined with the low cost spacecraft above, this will lead to 
an major move into space.
    This is what NASA in the FBC mode must be about--paving the way for 
others to do space exploration by accomplishing high risk, but high 
payoff, enabling advanced developments.

    On methods: Methods involves expanding the institution's multi-
mission support infrastructure in support of FBC project teams.
    Core FBC project teams with less project unique systems to build 
and aided with larger base of multi-mission support can become smaller 
in size. They will be supported by:

  <bullet> Multi-missions pools of technical and managerial expertise 
        and peer review experts.

  <bullet> Advanced computer aided tools, processes, templates, model 
        based design techniques, management standards and checklists, 
        risk evaluation tools and training.

  <bullet> Readably available lessons learned data bases.

  <bullet> Powerful electronic information links among NASA 
        Headquarters, NASA Centers and their industry and university 
        partners; graphic visualization tools for virtual spacecraft 
        design and for display of mission results.

    As well as:

  <bullet> The advanced, multi-mission technology mentioned above.

    The future for NASA is bright--looking for life ``out there'' and 
in building the bridge for humans to space. Dan Goldin is right on with 
his FBC thrust. He has set the stage, created the proper environment. 
Now all we need to do is follow through on better implementation of the 
exciting roadmaps and visions that have been generated. The key word is 
implementation. Getting it right.

    Senator Frist. Thank you, Mr. Spear.
    Mr. Stephenson.

STATEMENT OF ARTHUR G. STEPHENSON, DIRECTOR, GEORGE C. MARSHALL 
      SPACE FLIGHT CENTER, NATIONAL AERONAUTICS AND SPACE 
                         ADMINISTRATION

    Mr. Stephenson. Good afternoon, Mr. Chairman, and members 
of the Committee. Thank you for the opportunity to discuss the 
Mars Climate Orbiter Mishap Investigation Board's report on 
project management in NASA. I have a brief opening statement, 
but I would ask that the Investigation Board's entire report be 
entered into the record.*
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    I am speaking today on behalf of the board members. It is 
our hope that this report will significantly help those 
involved in project management at NASA, and within the 
aerospace industry to successfully manage their projects during 
an era of limited resources.
    We believe that mission success can be achieved under the 
Faster, Better, Cheaper paradigm, but the approach to project 
management must be carefully managed with strict attention to 
four distinct areas: Selection and training of the right 
people, use of proven project management processes, with a new 
emphasis on risk management, disciplined execution of the 
project, and use of new, but adequately matured technology.
    Our initial report in November, 1999, addressed the root 
cause of the loss of the Mars Climate Orbiter mission as the 
failure to use metric units in the coding of ground software 
Small Forces used in trajectory modeling. This failure led to 
the navigator's not fully understanding the trajectory of the 
spacecraft. This, in turn, led to errors in the trajectory 
correction propulsive maneuvers, and thus the spacecraft 
approached Mars too low for spacecraft survival.
    The Board recognizes that mistakes and deficiencies occur 
on all spacecraft projects. It is imperative that spacecraft 
projects have sufficient processes in place to catch mistakes 
before they become detrimental to mission success.
    Unfortunately, for the Mars Climate Orbiter, the processes 
in place on the project did not catch the root cause, nor did 
these processes enable the contributing causes, which we 
pointed out in our November report, to catch and correct this 
mistake.
    Following the loss of the Mars Polar Lander, Dr. Ed Wiler, 
NASA's Associate Administrator for Space Science, amended our 
Board's charter to develop recommendations based on an 
examination of recent spacecraft failures.
    Our report on project management in NASA provides the 
following: Observations and lessons learned from the Mars 
Climate Orbiter mission; a description of a well-run Faster, 
Better, Cheaper project; an assessment of NASA's current 
project management guidelines and procedures; and 
recommendations for improved project management.
    Let me summarize the most significant findings and 
recommendations documented in this report. Some projects have 
gone too far in emphasizing the importance of meeting cost and 
schedule, thereby introducing too much risk into the project. 
Project management, as well as NASA and industry senior 
managers, must be willing to push back and ask for more people 
and dollar resources in order to keep risk levels in check. An 
alternative might be to reduce project scope.
    However, if neither additional resources nor a reduction in 
project scope is achievable, then project management should 
recommend cancellation rather than proceed with a project that 
carries too much risk.
    Within the eight failure investigations we examined, six 
reported that failure could be attributed to inadequate 
technical reviews, inadequate risk management, and/or 
insufficient testing, analysis, and simulations. Our Board 
recommends that reviews must be conducted with the right highly 
qualified reviewers, including strong representation from 
functional line management.
    We recommend that risk management be raised in importance 
on NASA projects to a level equal to that traditionally given 
to cost, schedule, and project scope. In effect, this would 
make risk management the fourth element in project management.
    Clearly, on some projects we have cut corners in testing, 
analysis, and simulations. We must not give in to cutting 
corners when schedule and cost are tight.
    Communication on any team effort is key. We found 
inadequate communications on five of the eight failure 
investigations we looked into. Projects must have disciplined 
processes in place to enable communications. This is not new to 
successful project management. It has just been shortchanged 
under the pressure to do more with less.
    Adequate staffing is another area that is sometimes 
shortchanged because of limited resources. We must make sure 
that not only is the staffing adequate, but also that people 
are the right ones and work well together.
    Last, let me say that technology is the key to Faster, 
Better, Cheaper strategy. We must have adequate funding to 
provide a pipeline of enabling technology to feed the daring 
missions we undertake.
    Cheaper does not mean just cutting cost. Cheaper missions 
result from the use of better technology. One needs only to 
look for a moment at the information revolution we are 
experiencing. Technology is the key to this success.
    Our board believes mission success is achievable on what I 
have called daring missions if we do these things. Sure, we 
will experience failures, but that is because we are 
challenging the unknown, and we must learn as we go. Space 
exploration is inherently difficult. There is not a lot that is 
new in these suggestions. We are underlining the need for 
execution of the fundamentals of project management, but 
without a return to the old ways of excessive government 
oversight.
    Faster, better, cheaper is a great innovative approach. It 
does not mean throwing out the fundamentals of project 
management. It means using improved processes and improved 
technology in a disciplined way.
    Thank you for the opportunity to share this report with you 
today. I believe our efforts, along with all of those asked to 
review recent mission failures, will help us better address 
current and future projects.
    [The prepared statement of Mr. Stephenson follows:]

    Prepared Statement of Arthur G. Stephenson, Director, George C. 
     Marshall Space Flight Center, National Aeronautics and Space 
                             Administration
The Mars Climate Orbiter Mishap Investigation Board's Report on Project 
                           Management in NASA

    Good afternoon Mr. Chairman and members of the Committee. Thank you 
for the opportunity to discuss the Mars Climate Orbiter Mishap 
Investigation Board's ``Report on Project Management in NASA.'' I am 
speaking today on behalf of the Board members. It is our hope this 
report will significantly help those involved in project management at 
NASA and within the aerospace industry to successfully manage their 
projects during an era of limited resources. We believe that mission 
success can be achieved under the ``Faster, Better, Cheaper'' paradigm 
but the approach to project management must be carefully managed with 
strict attention to four distinct areas:

        1. Selection and training of the right people
        2. Use of proven project management processes with a new 
        emphasis on risk management
        3. Disciplined execution of the project
        4. Use of new but adequately matured technology

    Our initial report in November 1999 addressed the root cause of the 
loss of the Mars Climate Orbiter mission as the ``failure to use metric 
units in the coding of ground software `Small Forces' used in 
trajectory modeling.'' This failure led to the navigators not fully 
understanding the trajectory of the spacecraft. This, in turn, led to 
errors in the trajectory correction propulsive maneuvers, and thus the 
spacecraft approached Mars too low for spacecraft survival.
    The Board recognizes that mistakes and deficiencies occur on all 
spacecraft projects. It is imperative that spacecraft projects have 
sufficient processes in place to catch mistakes before they become 
detrimental to mission success.
    Unfortunately for the Mars Climate Orbiter, the processes in place 
on the project did not catch the root cause. Nor did these processes 
enable the contributing causes--which we pointed out in our November 
report--to catch and correct this mistake.
    Following the loss of the Mars Polar Lander, Dr. Ed Weiler, NASA's 
Associate Administrator for Space Science, amended our Board's charter 
to develop recommendations based on an examination of recent spacecraft 
failures.

    Our ``Report on Project Management in NASA'' provides the 
following:

  <bullet> Observations and lessons learned from the Mars Climate 
        Orbiter mission

  <bullet> A description of a well-run ``Faster, Better, Cheaper'' 
        project

  <bullet> An assessment of NASA's current project management 
        guidelines and procedures

  <bullet> Recommendations for improved project management

    Let me summarize the most significant findings and recommendations 
documented in this report:

  <bullet> Some projects have gone too far in emphasizing the 
        importance of meeting cost and schedule, thereby introducing 
        too much risk into the project. Project management, as well as 
        NASA and industry senior managers, must be willing to push back 
        and ask for more people and dollar resources in order to keep 
        risk levels in check. Or, an alternative might be to reduce 
        project scope. However, if neither additional resources nor a 
        reduction in project scope is achievable, then project 
        management should recommend cancellation rather than proceed 
        with a project that carries too much risk.

  <bullet> Within the eight failure investigations we examined, six 
        reported that failure could be attributed to inadequate 
        technical reviews, inadequate risk management, and/or 
        insufficient testing, analysis, and simulations. Our Board 
        recommends that reviews must be conducted with the right, 
        highly qualified reviewers, including strong representation 
        from functional line management. We recommend that Risk 
        Management be raised in importance on NASA projects to a level 
        equal to that traditionally given to Cost, Schedule, and 
        Project Scope. In effect, this would make Risk Management the 
        ``fourth'' element in project management. Clearly, on some 
        projects we have cut corners in testing, analysis, and 
        simulations. We must not give in to cutting corners when 
        schedule and cost are tight.

  <bullet> Communication on any team effort is key. We found inadequate 
        communications in five of the eight failure investigations we 
        looked into. Projects must have disciplined processes in place 
        to enable communications. This is not new to successful project 
        management--it has just been shortchanged under the pressure to 
        do more with less.

  <bullet> Adequate staffing is another area that was sometimes 
        shortchanged because of the limited resources. We must make 
        sure that not only is the staffing adequate, but also that the 
        people are the right ones and work well together.

  <bullet> Lastly, let me say that technology is key to the ``Faster, 
        Better, Cheaper'' strategy. We must have adequate funding to 
        provide a pipeline of enabling technology to feed the daring 
        missions we undertake. ``Cheaper'' does not mean just cutting 
        cost. Cheaper missions result from the use of better 
        technology. One needs only to look for a moment at the 
        information revolution we are experiencing. Technology is the 
        key to it.

  <bullet> Our Board believes mission success is achievable on what I 
        have called daring projects if we do these things. Sure, we 
        will experience failures--but that is because we are 
        challenging the unknown and we must learn as we go. Space 
        exploration is inherently difficult.

  <bullet> There is not a lot that is new in these suggestions--we are 
        underlining the need for execution of the fundamentals of 
        project management but without a return to the old ways of 
        excessive government oversight. ``Faster, Better, Cheaper'' is 
        a great, innovative approach--it does not mean throwing out the 
        fundamentals of project management. It means using improved 
        processes and improved technology in a disciplined way.

    Thank you for the opportunity to share this report with you today. 
I believe our efforts--along with all those asked to review the recent 
mission failures--will help us better address current and future 
projects.
               Final Report on Project Management in NASA
         by the Mars Climate Orbiter Mishap Investigation Team
    Released March 13, 2000. The report is available at http://
www.nasa.gov/newsinfo/publicreports.html

Executive Summary

    This second report and final report, prepared by the Mars Climate 
Orbiter Mishap Investigation Board, presents a vision and 
recommendations to maximize the probability of success for future space 
missions. The Mars Climate Orbiter Phase I Report, released Nov. 10, 
1999, identified the root cause and factors contributing to the Mars 
Climate Orbiter failure. The charter for this second report is to 
derive lessons learned from that failure and from other failed 
missions--as well as some successful ones--and from them create a 
formula for future mission success.
    The Mars Climate Orbiter mission was conducted under NASA's 
``Faster, Better, Cheaper'' philosophy, developed in recent years to 
enhance innovation, productivity and cost-effectiveness of America's 
space program. The ``Faster, Better, Cheaper'' paradigm has 
successfully challenged project teams to infuse new technologies and 
processes that allow NASA to do more with less. The success of 
``Faster, Better, Cheaper'' is tempered by the fact that some projects 
and programs have put too much emphasis on cost and schedule reduction 
(the ``Faster'' and ``Cheaper'' elements of the paradigm). At the same 
time, they have failed to instill sufficient rigor in risk management 
throughout the mission lifecycle. These actions have increased risk to 
an unacceptable level on these projects.
    The Mishap Investigation Board conducted a series of meetings over 
several months with the Jet Propulsion Laboratory and Lockheed Martin 
Astronautics to better understand the issues that led to the failure of 
the Mars Climate Orbiter. The Board found that the Mars Surveyor 
Program, agreed to significant cuts in monetary and personnel resources 
available to support the Mars Climate Orbiter mission, as compared to 
previous projects. More importantly, the project failed to introduce 
sufficient discipline in the processes used to develop, validate and 
operate the spacecraft; nor did it adequately instill a mission success 
culture that would shore up the risk introduced by these cuts. These 
process and project leadership deficiencies introduced sufficient risk 
to compromise mission success to the point of mission failure.
    It should be noted that despite these deficiencies, the spacecraft 
operated as commanded and the mission was categorized as extremely 
successful until right before Mars orbit insertion. This is a testament 
to the hard work and dedication of the entire Mars Climate Orbiter 
team. The Board recognizes that mistakes and deficiencies occur on all 
spacecraft projects. It is imperative that all spacecraft projects have 
sufficient processes in place to catch mistakes before they become 
detrimental to mission success. Unfortunately for the Mars Climate 
Orbiter, the processes in place did not catch the root cause and 
contributing navigational factors that ultimately led to mission 
failure.
    Building upon the lessons learned from the Mars Climate Orbiter and 
a review of seven other failure investigation board results, this 
second report puts forth a new vision for NASA programs and projects--
one that will improve mission success within the context of the 
``Faster, Better, Cheaper'' paradigm. This vision, Mission Success 
First, entails a new NASA culture and new methods of managing projects. 
To proceed with this culture shift, mission success must become the 
highest priority at all levels of the program/project and the 
institutional organization. All individuals should feel ownership and 
accountability, not only for their own work, but for the success of the 
entire mission.
    Examining the current state of NASA's program and project 
management environment, the Board found that a significant 
infrastructure of processes and requirements already is in place to 
enable robust program and project management. However, these processes 
are not being adequately implemented within the context of ``Faster, 
Better, Cheaper.'' To move toward the ideal vision of Mission Success 
First, the Board makes a series of observations and recommendations 
that are grouped into four categories, providing a guide by which to 
measure progress.

(1) People

    The Board recognizes that one of the most important assets to a 
program and project is its people. Success means starting with top-
notch people and creating the right cultural environment in which they 
can excel. Thus, Mission Success First demands that every individual on 
the program/project team continuously employ solid engineering and 
scientific discipline, take personal ownership for their product 
development efforts and continuously manage risk in order to design, 
develop and deliver robust systems capable of supporting all mission 
scenarios.
    Teamwork is critical for mission success. Good communication 
between all project elements--government and contractor, engineer and 
scientist--is essential to maintaining an effective team. To ensure 
good teamwork, the project manager must guarantee an appropriate level 
of staffing, and all roles and responsibilities must be clearly 
defined.

(2) Process

    Even the best people with the best motivation and teamwork need a 
set of guidelines to ensure mission success. In most cases NASA has 
very good processes in place, but there are a few areas for 
improvement.
    A concise set of mission success criteria should be developed and 
frozen early in the project life cycle.
    During the mission formulation process, the program office and the 
project should perform the system trades necessary to scope out the 
expected costs for mission success. This should be accomplished 
independently of any predefined dollar cap. If necessary, consider 
mission scope changes to drive the costs to a level that the program 
can afford. Scope should never be decreased below a minimum threshold 
for science and for technical achievement as defined by the mission 
success criteria.
    Both the project and the program should hold adequate contingency 
reserves, to ensure that mission success is achievable. Projects and 
programs that wind up with inadequate funding should obtain more funds 
or consider cancellation before proceeding with inadequate funds.
    Close attention should be paid from project outset to the plan for 
transition between development and operations. Adequate systems 
engineering staffing, particularly a mission systems engineer, should 
be in place to provide a bridge during the transition between 
development and operations, and also to support risk management trade 
studies.
    Greater attention needs to be paid to risk identification and 
management. Risk management should be employed throughout the life 
cycle of the project, much the way cost, schedule and content are 
managed. Risk, therefore, becomes the ``fourth dimension'' of project 
management--treated equally as important as cost and schedule.
    Project managers should copy the checklist located in the back of 
this report, putting it to constant use and adding to it in order to 
benchmark the performance of their project team. Moreover, this 
checklist should be distributed to all members of the project team as a 
360-degree benchmark tool, to identify and reduce potential risk areas.

(3) Execution

    Most mission failures and serious errors can be traced to a 
breakdown in existing communication channels, or failure to follow 
existing processes--in other words, a failure in execution. To 
successfully shift to the Mission Success First culture, it is 
necessary for the institutional line management to become more engaged 
in the execution of a project. As such, line managers at the field 
centers need to be held accountable for the success of all missions at 
their centers.
    Let us be clear that this role of institutional line management 
accountability should not be construed as a return to the old 
management formula, wherein NASA civil servants provided oversight for 
every task performed by the contractor or team. Instead, we recommend 
that NASA conduct more rigorous, in-depth reviews of the contractor's 
and the team's work--something that was lacking on the Mars Climate 
Orbiter.
    To accomplish this, line management should be held accountable for 
asking the right questions at meetings and reviews, and getting the 
right people to those reviews to uncover mission-critical issues and 
concerns early in the program. Institutional management also must be 
accountable for ensuring that concerns raised in their area of 
responsibility are pursued, adequately addressed and closed out.
    Line organizations at the field centers also must be responsible 
for providing robust mechanisms for training, mentoring, coaching and 
overseeing their employees, project managers and other project team 
leaders. An aggressive mentoring and certification program should be 
employed as the first step toward nurturing competent project managers, 
systems engineers and mission assurance engineers for future programs.
    Line organizations, in conjunction with the projects, also must 
instill a culture that encourages all internal and external team 
members to forcefully and vigorously elevate concerns as far as 
necessary to get attention within the organization. Only then will 
Mission Success First become a reality.

(4) Technology

    Technological innovation is a key aspect in making the ``Faster, 
Better, Cheaper'' approach a reality. Through such innovation, smaller, 
lighter, cheaper, and better-performing systems can be developed. In 
addition, innovative processes enable quicker development cycles. To 
enable this vision, NASA requires adequately funded technology 
development, specifically aimed at Agency needs. Programs and projects 
must conduct long-range planning for and champion technology infusions 
resulting in delivery of low-risk products for project incorporation.
    Mechanisms which minimize technology infusion risk, such as the New 
Millennium Program, should be employed to flight-validate high risk 
technologies prior to their use on science missions.

Agenda for the Future

    The Mars Climate Orbiter Mishap Investigation Board perceives its 
recommendations as the first step in an agenda that will be revisited 
and adjusted on an ongoing basis. The aim is to make Mission Success 
First a way of life--a concern and responsibility for everyone involved 
in NASA programs.
    The recommendations of this report must trigger the first wave of 
changes in processes and work habits that will make Mission Success 
First a reality. To implement this agenda with a sense of urgency and 
propagate it throughout the Agency, NASA Headquarters and the NASA 
centers must address the recommendations presented in this report. NASA 
must further assign responsibility to an organization (such as the 
Office of the Chief Engineer) for including the recommendations in 
Agency policy and in training courses for program and project 
management.
    These actions will ensure that Mission Success First serves as a 
beacon to guide NASA as the future unfolds.

    Senator Frist. Thank you, Mr. Stephenson.
    Mr. Li, you mentioned a number of Shuttles last year, I 
guess it was four last year. We talked about downsizing. Could 
you relate the two to me? You mentioned that NASA's downsizing 
on the Shuttle program coincided with the decrease in the 
number of flights in 1996, 1997, and 1998. Would this 
downsizing have been possible without the decrease in the 
number of flights? What is that relationship?
    Mr. Li. I believe that it is a serendipitous relationship. 
The fact of the matter is, with the decreased work force, they 
were able to maintain and provide safe operations with the 
Shuttle fleet. However, had they gone to the higher rate, which 
they were expected to have, to build the Space Station, I am 
afraid that margin of safety would not have been as great. And 
I believe that Dr. McDonald's report supports that statement.
    Senator Frist. With the increases slated for fiscal years 
2000 and 2001, are those increases sufficient for the expected 
increase in workload that you pointed out will take place in 
the Shuttle?
    Mr. Li. What I have done is, I have reviewed the Office of 
Space Flight projects for what that organization would need in 
order to support the Space Station and to perform their Shuttle 
flights. I believe that those numbers are reasonable within 
that realm.
    I cannot say that those numbers will, indeed, be 
sufficient, but I think it is going in the right direction. 
However, I would like to add that, as I said in my prepared 
statement, adding engineers is not sufficient to resolve the 
problem. They need to have an overall implementation strategy 
that is much broader in scope.
    Senator Frist. Dr. McDonald, in your comments and your old 
testimony on touch labor, increased numbers of inspections, you 
had mentioned that the wiring damage that led to the short on 
the STS-93 is suspected to have been caused four or five years 
prior to that.
    Last fall, NASA conducted extensive wiring inspections on 
all the Shuttle orbiters. In accordance with NASA procedures, 
how often is this type of wiring inspection required?
    Dr. McDonald. The standard procedure would require the 
wiring to be examined on every flight.
    Senator Frist. Is that sufficient? Again, you mentioned the 
fact that you have people working side by side, where damage is 
inadvertently caused. Is inspection with every flight 
sufficient?
    Dr. McDonald. Our recommendation was that they enhance the 
degree of inspection and make it a focal point, particularly in 
the area where redundancy had been compromised. We also believe 
that the agency should embark upon technology to relieve the 
rather difficult task imposed on the inspectors. The inspectors 
in many cases have to use a ten-times magnifying glass and a 
light, an intense light beam, and we felt that technology could 
assist in that process.
    So we know the realization of the damage that can and has 
occurred to capped-on wiring on the vehicle, the renewed 
attention to details by the staff should mitigate the problem, 
but it will require intensive surveillance to ensure that this 
is kept safe.
    Senator Frist. The databasing that you mentioned, I 
understood it to mean that if you had an adequate computerized 
database and identified certain deficiencies, that it would--
the collection of that data, analysis of that data would bring 
things to management's attention earlier on.
    Dr. McDonald. Yes, sir. That was the observation.
    Senator Frist. That would seem to be a standard practice. 
Does that mean more computerization, or more data entry, or 
what does it mean, more importantly?
    Dr. McDonald. The problem goes back a number of years, 
actually the Rogers' Commission suggested that a computerized 
database be constructed, so it was constructed in the mid-
eighties.
    And as such, in the present time, it is a legacy system 
that is somewhat outdated, and the agency is now undertaking a 
very serious look at that system to see how it could be 
modified in light of the significant process and database 
management that has occurred in the last 14 years.
    Senator Frist. Mr. Spear, in your written testimony, the 
Faster, Better, Cheaper strategy you say precipitated a major 
transition within NASA from few to many missions, requiring 
many more project managers, teams, and institutional support, 
including review teams.
    Should NASA decrease its number and scope of missions, do 
you think, if success and safety, which we come back to again 
and again over the course of the hearing today, is 
accomplished?
    Mr. Spear. One of the things we recommended is that NASA 
slow down a little, and do better planning. In our major 
report, which I entered into testimony, I recommend that there 
are not only project reviews, but program reality checks as to 
whether the projects really do, in fact, fit under the funding 
profile.
    I believe in training. I believe in a mix of experience-
based people, with the young people. The young people can do a 
lot. I believe in what I call three badges of courage. Each 
project needs to have some type of informal certification by 
the institution, not some bureaucratic process, but some way of 
assessing, hey, this is a good mix of a team.
    The second badge of courage is a risk signature. Each 
project has its own fingerprints, per se. Some projects are 
higher risk, some are less risk. On one sheet we can illustrate 
that risk for each project. I think we owe that to the nation, 
this risk signature.
    A third thing, we will now compile all these checklists, 
and all the lessons learned, all the rules of engagement into a 
set of Faster, Better, Cheaper ways of doing business. There 
ought to be a metric, a simple check, as Art Stephenson as laid 
out in his report, yearly, or maybe every 6 months, as to how 
well each project is doing in this Faster, Better, Cheaper 
mode. Those three things, which could be three pieces of paper, 
would be dramatic, visual status reports on a project.
    Senator Frist. Mr. Stephenson, is that consistent with both 
your findings and recommendations?
    Mr. Stephenson. Yes, it is.
    Senator Frist. Thank you. Mr. Stephenson, you mentioned 
unacceptable level of risk management in your testimony on the 
Mars Climate Orbiter. How would that have been determined in 
advance? We had this whole Faster, Better, Cheaper paradigm. 
How would we have figured that out earlier?
    Mr. Stephenson. Well, when we were asked to go look at the 
failure, following the failure, we were asked first of all for 
the risk management processes, so that we could see what had 
been conducted in terms of risk assessment, and we found that 
it was lacking, and that was the finding of our report. We 
would expect to see a ``fault tree'' analysis, and we did not 
see that.
    We did not sense that there was enough in the review 
process, and I mentioned inadequate reviews, that said what 
could go wrong with this mission, and in searching for the 
possibilities of failure, and what we found in the case of the 
Mars Climate Orbiter was that there was not even a peer review 
of the navigation team. So there was not an adequate effort 
toward assessing risk and dealing with it.
    Chairman Frist. Thank you. Senator Breaux.
    Senator Breaux. Thank you, Mr. Chairman, and I thank all of 
our distinguished panelists this afternoon for being with us 
and providing very valuable information. I am just trying to 
figure out who is doing what and who is on first.
    We have everybody looking at one aspect of NASA. We have 
GAO, I guess, looking at all of it. Dr. McDonald, you are in 
charge of the Space Shuttle Independent Assessment Team.
    Mr. Spear, you are doing the ``Faster, Better, Cheaper'' 
Review Team, Mr. Stephenson, you are doing the Mars Climate 
Orbiter Mishap Investigative Board report on project management 
in NASA. I mean it looks like everybody is out there just 
sifting through all the information that could possibly be 
turned up in NASA.
    I mean is it too much? I mean are we coordinating here? It 
seems to me, it must be awfully crowded. It looks like you are 
all looking at some of the same things, and maybe from a 
different perspective. That may be good. I do not know.
    Mr. Stephenson. Well, I can respond to that. I think, at 
least in the case of the Mars activity, of course, Tony was 
already underway in his studies, and so our Board, when we 
expanded our role in looking at mission studies and failure, 
asked Tony to come and brief us, so we were aware of the 
findings that Tony was coming to, and incorporated those in our 
report.
    So I think we had an opportunity to exchange ideas and test 
on our own what Tony was saying. So I think our two reports are 
consistent, not the same, but we agree on what our findings 
are.
    Senator Breaux. Mr. Spear, did you have a comment?
    Mr. Spear. I appeared in front of both Tom Young's and Art 
Stephenson's Board, and we shared our experiences and our 
results, but after a post-task debrief, I had a meeting with 
Dan Mulville, and he indicated that the NASA chief engineer is 
going to now consolidate all the findings, interact with us as 
to, OK, is this really representative of the results of all the 
three investigations, and then that is going to spawn a 
training course, a training course on Faster, Better, Cheaper, 
as to, here is the definition, here are the checklists as to 
how you do Faster, Better, Cheaper, and then this is going to 
be taught all around NASA, but not only NASA, with industry and 
universities.
    Senator Breaux. So is that going to be one book then as a 
result of all of this on recommendations?
    Mr. Spear. That is my understanding.
    Senator Breaux. It would seem to me, if we have all these 
different reports running around, one group is going to read 
one, another group is going to read another one, another group 
may not get them all.
    It would seem to be very helpful if we had everything in a 
concise book of recommendations on what needs to be done and 
what type of process needs to be followed for the future, and 
coordinate what we are doing. Otherwise, it is going to be 
uncoordinated, and not very useful.
    Mr. Li. Senator Breaux, I would like to address your 
question in terms of the three gentlemen on my right here, 
obviously, all are NASA individuals.
    Senator Breaux. Yes.
    Mr. Li. The General Accounting Office is here to assist the 
Congress in its oversight of NASA, and we perform an 
independent assessment, an objective assessment of the facts, 
and we provide that to the Congress.
    Senator Breaux. Well, I want to followup on that. Dr. 
McDonald, I know that you led the team effort, but you also had 
NASA and contractors. I mean is your Space Shuttle and 
independent assessment team reoport truly independent, if you 
have NASA involved in looking at NASA?
    Dr. McDonald. Well, I believe it was, sir, because the NASA 
employees were not from the centers involved directly.
    Senator Breaux. They still get paid by the same check.
    Dr. McDonald. Yes, sir, but I think the overriding 
consideration for all the NASA people was the safety of the 
Shuttle.
    Senator Breaux. I understand that, and I appreciate what 
you are saying, but I think Mr. Li knows why we depend on GAO 
so much, because it is separate and truly independent in 
everything it does. I am not criticizing the report, but it 
seems to me that the fact that you called it the ``independent 
assessment team,'' and it has people from NASA doing it, seems 
like it compromises the independence of the investigation.
    Dr. McDonald. Well, I do not believe it did, sir, and I 
think anyone who tried to muzzle, for example, Rear Admiral Don 
Eaton would be on a losing track.
    Senator Breaux. Well, I understand that, but I mean it 
would be like asking the Commerce Committee to assess the 
Finance Committee. I am sure that you may not get the best 
results.
    I think it is within the bosom of the law, looking at each 
other and saying, you know, how are you doing, and there is a 
tendency to say, ``Well, we are doing really well. Thank you 
very much.''
    Dr. McDonald. As you say.
    Senator Breaux. No, it is not. I mean I am here to learn 
from you guys. I mean I am just disturbed by the fact that it 
is called an independent assessment team, and part of the 
people on the team are part of the group that you are looking 
at and assessing. I just do not know how that is possible.
    Dr. McDonald. Sir, I think the basic observation is that 
there were a few NASA people on it. None of them were directly 
involved in the human space flight program. There were a 
majority of non-NASA people, DOD, and some contractors were----
    Senator Breaux. Were the contractors also doing work for 
NASA?
    Dr. McDonald. No, sir, they were not.
    Senator Breaux. They are not?
    Dr. McDonald. They were from McDonnell-Douglas Air Frame 
Systems, or no, Boeing Aircraft. They were working on the MD-11 
investigation.
    Senator Breaux. Well, I mean, I think that you heard Dan 
Goldin speak very clearly that he appreciates and wants it to 
be independent, and not to have him investigate his own shop, I 
think. I think it is very important to maintain that 
independence to the degree that we can.
    I take, Mr. Spear, when we talk about faster, better, and 
cheaper, it seems like you are saying we have been focusing too 
much on the cheaper and the cost.
    Mr. Spear. That is true, and there has been much pressure, 
and now we need to back off a little bit, and do better 
planning, and continue, but continue in a more disciplined 
approach, according to the rules of engagement, we call them, 
the Faster, Better, Cheaper rules of engagement, that are now 
coming out of my report, Art's and Tom's reports--
investigation.
    Senator Breaux. I asked Administrator Goldin about the 
article by James Oberg from UPI and I think he shucked it to 
Mr. Stephenson, to comment on.
    Mr. Stephenson. Yes.
    Senator Breaux. I do not know what happened or what did not 
happen, I was just reading this as a concerned member of the 
Commerce Committee. Some of the things contained in this 
article disturb me, and I think probably disturb everybody. We 
are looking for some answers because, according to this writer, 
he said, as explained privately to him, the Mars Polar Lander 
vehicle's breaking thrusters had failed acceptance testing 
during its construction. Rather than begin an expensive and 
time-consuming redesign, an unnamed space official simply 
altered the conditions of the testing until the engine passed.
    Now, there is an awful lot of openness to that statement. 
So you can take it to say that the test conditions were changed 
in order to certify the engine's performance.
    That, to me, is an incredibly serious charge, that if the 
equipment does not pass the test, do not change the equipment, 
change the test. I know a lot of students would probably like 
to have that happen to them in school, if you cannot pass the 
test, throw out the test and get a new test. It is, in essence, 
what they are saying here, and it is very disturbing. Can you 
shed any light, whatsoever, on how that occurred, or what 
happened, in fact?
    Mr. Stephenson. Well, I can tell you that we have been 
trying very hard to understand that statement, because we can 
find no evidence anywhere that that was done.
    Senator Breaux. You would have records of, or have access 
to the records of the testing of various systems----
    Mr. Stephenson. Yes.
    Senator Breaux.--such as this.
    Mr. Stephenson. Yes. I would expect that NASA, with 
Lockheed Martin, would have records, and we have not----
    Senator Breaux. You have not seen the tests on this 
particular piece of equipment to certify whether, in fact, the 
test was given, that the equipment did not pass, and then a 
different test was given, and then the equipment was certified.
    Mr. Stephenson. I have no knowledge of that, and I have 
asked over the last 12 hours everyone I can find, and I am not 
aware of it. We certainly were not aware of it during our 
investigation.
    We pointed out an issue that was pursued with vigor by JPL 
and Lockheed Martin, and I have no knowledge that anyone 
surfaced during any of these investigations any evidence of 
what I would consider a probable----
    Senator Breaux. Has anybody in your shop had a chance to 
review the actual tests that were given to this particular 
piece of equipment?
    Mr. Stephenson. I cannot say that we have in the detailed 
level that we are talking about here. My shop----
    Senator Breaux. It would be helpful to pull up in the files 
what the tests were, and to say whether, in fact, there was one 
test that was not successfully completed, and then there was a 
second different test that, in fact, was.
    Mr. Stephenson. I have no knowledge of that. Let me say 
that when we uncovered the issue, we discovered that the test 
program had not been tested at the cold temperatures that we 
felt it should, and Mr. Sackhiem, who was on my Committee, who 
is a propulsion expert, recommended that they go back and 
reexamine it, and there was a team formed by JPL and Lockheed 
Martin to go back and conduct an investigation, and to run 
tests.
    What they found was that they needed to raise the 
temperature of those cat beds before going into Mars, and they 
did redesign the mission to turn on the power to heaters on 
those cat beds, on the thrusters, about ten or twelve hours 
prior to the use of the thrusters. So there was an 
acknowledgment that there was an issue.
    I would not be surprised if they tested at a temperature 
that was too warm, because they did not produce the test data 
when we asked the question. They went back and did a ground 
test less than a month prior to landing on Mars.
    So we uncovered an issue, it was addressed, I think, 
adequately and thoroughly by JPL and Lockheeed Martin, and they 
changed the mission design to address it. I have no knowledge 
of anyone running a test and falsifying the results.
    Senator Breaux. Do you feel confident that you have 
explored every avenue in that regard, to determine whether, in 
fact, it may have happened without your knowledge?
    Mr. Stephenson. No. I think we need to go back and look at 
it real hard, based on this allegation, but I am telling you, 
at this point, we have no knowledge, and we will certainly be 
happy to----
    Senator Breaux. It would seem to me, and good Lord, I am 
the last person to become an expert on the internal operations 
of NASA, by a far stretch, but it would seem to me that the 
tests that NASA administers to certify equipment would be a 
matter that the record is kept somewhere.
    Mr. Stephenson. Absolutely.
    Senator Breaux. So if this particular piece of the breaking 
thrusters, I guess, was tested for the first test, you would 
have the results, and if you had a second test or a third test, 
you would have the results of each one of the tests, and they 
would be pretty simple to find.
    Mr. Stephenson. Correct. I just do not have that 
confirmation. Let us take that action and get back to this 
Committee, and give you that answer.
    Senator Breaux. Yes. I would think it would be helpful to 
find out exactly what happened, because I guarantee Members of 
Congress are going to be getting letters from constituents--and 
rightfully so--saying, look, I read this thing, this is not a 
good story, and can you respond to it. I am going to say, well, 
I am going to do that as soon as I hear from Mr. Stephenson.
    Mr. Stephenson. Our initial----
    Senator Breaux. Should I just tell them to call you?
    Mr. Stephenson. Our initial response is, we do not believe 
that this is correct statement, but we need to go back and look 
at the data again.
    Senator Breaux. Well, I appreciate it. I am not being 
critical of you at all. I think that we just need to have it 
looked at, and then we can be given a definitive response as to 
whether there is any information that maybe the tests were done 
several times, and then changed.
    Mr. Stephenson. I will do that.
    Senator Breaux. Thank you. I appreciate the panel. Thank 
you very much.
    Senator Frist. Mr. Li, you mentioned that the age profile 
of the workers at Kennedy reversed just 6 years ago from twice 
as many workers under 30 years of age to twice the number of 
workers over 60 years of age. Why is that?
    Mr. Li. I think it is obvious, NASA was not able to hire. 
They had no stream of new employees that were able to come in 
and create new blood.
    As a result, that percentage, as you are saying--in fiscal 
year 1993, the Office of Space Flight, for the people who were 
under 30, they comprised 17 percent of the work force. In 
fiscal year 1999, now they comprise 3 percent of that work 
force. Obviously, something is happening.
    Senator Frist. Say the reason again. Obviously, what?
    Mr. Li. Because they were not able to hire. NASA----
    Senator Frist. They were not able to hire. What does that 
mean?
    Mr. Li. They did not hire, because they were in a 
downsizing mode. It is not a matter of them not wanting to. 
They had a strategy that they were going to drop from over 
20,000 employees down to 18,500. Their strategy was obviously 
not, as we heard earlier this afternoon, to have any 
involuntary separations. They wanted to have voluntary 
separations. They had buyouts, and through that downsizing, 
they did not hire anybody.
    Senator Frist. As this great hiring process goes on, as 
everybody has said, it cannot be just the hiring process 
itself, do you think those ratios will turn back to what they 
were?
    Mr. Li. I am hopeful. I think there is one thing that the 
Administrator mentioned last week in a hearing that I thought 
was very important, in that he feels that the hiring of 
employees should be looked at from two perspectives, one, from 
a short-term perspective, because, as he said earlier this 
afternoon, it is very difficult to retain these bright, bright 
people coming out of college, they are not going to stay in the 
government, we just cannot compensate them enough; however, the 
excitement of working at NASA is enough to keep them for, 
perhaps, two or 3 years.
    He has that plan to keep those people there for a while, 
but he also recognizes that he has to keep institutional 
knowledge, and he also wants to hire people for longer periods.
    Senator Frist. When we talk about a mentoring program, and 
it has been mentioned indirectly by a lot, you had these sort 
of short-term focused projects, team spirit, people pulling 
together, you know, going through the night, you have all these 
visions of a real team. Can it really go on in that environment 
on a project, like Mr. Spears? I mean if you basically said I 
have to be in the job of mentoring at the same time I have this 
three-, or four-, or 5-year project, what do you do?
    Do you take the gray-haired person who has been around a 
while, one of the old guys, whatever your words were, and you 
pair him up, and you say, OK, you are the mentor, because this 
young fellow may or may not leave, and they are more likely to 
leave if they are not--how do you----
    Mr. Li. I think there has to be a specific goal, and it has 
to be explicit that the Agency's strategy and objective is to 
have that mentoring. In the environment that has happened 
recently, because they had so much work, and also, obviously, 
because they did not have enough young people to mentor, that 
did not happen.
    But I really think that if there is that push now to do and 
perform mentoring--mentoring, to me, is taking somebody under 
their wing and trying to teach them on the job, this is how you 
do these things.
    Senator Frist. What incentive is there--Mr. Spear, you can 
jump in. How do you reward that person? You said mentoring is 
important. Are you going to get paid more? How do you 
incorporate that in this Faster, Better, Cheaper team spirit, 
pull ahead, we are going to produce in a short period of time 
for less? Is it possible? How do you incentivize it, Mr. Spear?
    Mr. Spear. First of all, Senator, mentoring can only go so 
far. You can only teach this new person, this young person, 
your experience, to a certain degree. Sometimes it is just hard 
for them to fathom what you are telling them. So the team has 
to be a balance. It always has to be a balance.
    It cannot just be youth and inexperience. There has to be 
people with on-the-job training. Nothing works better than on-
the-job training.
    The best, by far and away, mentoring process is in this 
peer review process that we talked about, where every key 
decision, every test result, every walk down prior to launch, 
is reviewed by a peer group. Now, in that peer group, you want 
the best expertise and the best experience.
    Senator Frist. In the Mars Pathfinder project, how many of 
those employees, workers, members of that team are still with 
NASA now? Are the people that are in there really a part of 
this so-called team? And I have the image, but are they all 
full-time NASA people who are there?
    Mr. Spear. That is a very good point. A large fraction of 
the original Mars Pathfinder team, a young bunch of people, are 
still at JPL, and what a way to carry on lessons learned. They 
have gone on to do projects now. Some of them, however, very 
close to me, are somewhat more scarred than I imagine they 
would get scarred so soon. OK?
    But the experience, on-the-job training is extremely 
important, and then--but this is a very healthy process. The 
fact that we do projects now in 3 years, and we do more than 
two per decade, we do 20 to 30 now, we are going to benefit 
from this.
    Now, we have had some problems, but NASA soon will have a 
lot of people with experience, real live experience, because 
the missions only take 3 years. That is a very healthy process 
that is going to come out of this, but we are going to have 
failures, OK, from time to time.
    Let me tell you, that is very, very traumatic to these 
young people, that I know very well.
    Senator Frist. Well, the failures, and then the stress of 
Mr. Li's findings, and the alternatives that are out there in 
the private sector now, where we have this gap, where there is 
an age gap, or an experience gap? However we define this gap, 
it is very exciting. This experience can build if people stay 
around, are retained, and see a great future with NASA.
    Mr. Spear. Right.
    Senator Frist. Dr. McDonald--and I know it is very late, so 
I have just a couple more questions. Dr. McDonald, pin 
injection problem, break down, and fly what you test, test what 
you fly approach methodology systems. Are there other instances 
where that methodology was not adhered to, broke down, did not 
work?
    Dr. McDonald. Not to the best of our knowledge, Senator. We 
would pull on threads as we went through things that looked 
askance, and pull on those threads and go into them, but that 
was the only case we could find of a direct ignoring the 
regulation, yes.
    Senator Frist. Mr. Spear, cost caps, International Space 
Station, do you believe that Mr. Goldin could apply the 
successful lessons that you have learned managing Pathfinder 
under a cost cap-type scenario?
    Dr. McDonald. It is my personal belief that all projects 
can employ the Faster, Better, Cheaper approach, and work with 
accountability to a cost cap. Now, that is not to say that they 
tried to stuff an arbitrarily large, say, a challenging large 
scope into an arbitrary cost cap, but they have been given the 
opportunity to work from the bottom up, a good cost estimate, 
and then declare to NASA, to Dan Goldin, hey, I am going to do 
this task, on this schedule, and under this cost cap. I am a 
firm believer that most work within NASA should be done that 
way, across the board.
    Senator Frist. Then you would understand my frustration a 
bit earlier in questions to Mr. Goldin. The fact that I cannot 
get cost estimates for a project, he cannot get it from his 
contractor, and if you cannot even get the cost estimates, you 
much less cannot have the cap or the accountability built in to 
it.
    Dr. McDonald. That's the problem.
    Senator Frist. Mr. Stephenson, eight failure investigations 
that your Board examined, each one suffered from poor and 
inadequate technical reviews. Who traditionally performs these 
technical reviews? Is it the prime contractor? Is it people 
from within NASA?
    Mr. Stephenson. It's a combination of both. It depends on 
what programs we are talking about. In the case of the Mars 
program, there was a shift to rely on the spacecraft's 
contractor, in this case, Lockheed Martin, to conduct the 
reviews on the spacecraft design development and readiness for 
flight.
    On other programs, where NASA is more integrated, and we 
think we should move to more integration from NASA, and more 
involvement in institutionalized line management, in that case, 
being JPL's technical experts being involved in the reviews, we 
think that is where we should be going more, and not have this 
reliance on a contractor to make the right decisions without 
any insight from NASA.
    Senator Frist. Thank you. Well, again, the hour is late, 
and I do want to thank each of our witnesses for taking time, 
being patient, and being with us for this afternoon. Your 
expertise, your knowledge, and your input are absolutely 
crucial, as you can tell from our questions, to our fully 
understanding the very complex issues confronting NASA today.
    The recommendations of all of your reports and the usual 
outstanding testimony of GAO goes a long way in helping us 
answer our questions, and ask the right questions of NASA, as 
we go forward.
    We will continue in this Subcommittee and in the full 
Committee to review NASA activities as additional reports come 
on-line over the coming weeks and months. As you have heard, 
NASA will be coming back in a few months, after we have had 
time to digest further all of the reports, to digest the Young 
report, which will be out shortly.
    Again, I want to thank all of you for participating in 
today's discussions, and thanks again to all of the members of 
your respective review teams who have put forth the time and 
the effort to make these reports possible. Thank you.
    [Whereupon, at 4:58 p.m., the hearing was adjourned.]


                            A P P E N D I X

    Response to written questions submitted by Hon. John McCain to 
                                Allen Li

    Question 1. You mentioned that there are twice as many workers over 
60 years old than there are under 30 years old. What percentage of the 
overall workforce does this over 60 years old represent? Also, in what 
areas are these workers found?
    Answer. This statistic refers to personnel in NASA's Office of 
Space Flight (OSF). It was provided to us as part of NASA's ``Core 
Capability'' Critical Staffing Review dated December 10, 1999. 
Specifically, the data shows that for fiscal year 1999, the workforce 
over 60 represented 8 percent of the OSF total, or 407 workers. Workers 
under 30 represented 3 percent of the total workforce, or 144 workers.
    According to NASA's data, these categories of workers are 
represented in four general classifications, including science and 
engineering, professional administrative, clerical, and technicians.

    Question 2. Given the uncertainties related to the future of 
Shuttle privatization and commercialization plans, what impact are they 
having on the overall program, both current and future?
    Answer. NASA has not established a schedule for the privatization 
and commercialization of the Shuttle. In November 1999, a Space Shuttle 
independent assessment team found that, because the milestones for 
privatization and commercialization were uncertain, there was no 
foundation from which NASA could accomplish strategic planning and 
workforce deployment. The study recommended that NASA should begin the 
analysis of how its workforce will evolve in the privatization and 
commercialization environment and prepare a plan for this evolution.
    NASA took a step toward privatization with the award of the space 
flight operations contract, but full privatization has not been 
accomplished. Regarding commercialization, there are currently federal 
laws and regulations that limit the Shuttle's ability to fly commercial 
payloads.
    Although NASA does not have an approved plan for privatizing and 
commercializing the Shuttle, the Office of Space Flight is reviewing 
laws, regulations, and policies that are seen as barriers to achieving 
that goal.

    Question 3. Can you elaborate further on your human capital 
checklist? Which agencies are employing it?
    Answer. The checklist is still in discussion draft form. It is our 
understanding that a number of government organizations are reviewing 
it and have expressed interest in applying it. These organizations 
include the National Partnership for Reinvention, the Office of 
Personnel Management, the Office of Management and Budget, and the 
Environmental Protection Agency. To our knowledge, NASA is the only 
agency that has provided written comments regarding their actual use of 
the checklist.

    Question 4. Your statement mentioned that many key positions are 
not staffed by qualified workers. Can you elaborate on this? Are you 
saying that some functions are being performed by unqualified 
personnel? Is this a violation of established NASA procedures?
    Answer. See Question 5.

    Question 5. You mentioned that an earlier study found there was one 
qualified person in 30 critical system areas. How is ``qualified'' 
being defined?
    Answer. We did not intend to leave the impression that 
``unqualified'' workers were tending to key Shuttle program positions. 
The issue we raised is captured by Question 5. That is to say, while 
NASA maintains that its front line Shuttle workforce is qualified, 
there are many areas in which redundancy and depth are lacking. NASA's 
Space Shuttle Independent Assessment Team (SIAT) report also spoke to 
this issue. It concluded that ``there are important technical areas 
that are staffed one-deep.'' The example we used in Question 5 relates 
to Shuttle personnel at Kennedy Space Center.

    Question 6. Your testimony stated that during a recent Shuttle 
wiring investigation, personnel unexperienced in wiring issues were 
used to perform critical inspections. Has GAO work confirmed this 
finding?
    Answer. The study we referred to is the SIAT report. The team 
expressed a concern that reductions in staff make it difficult to 
ensure that critical flight safety processes and procedures are being 
rigorously implemented and continually improved. The team also 
expressed the belief that Shuttle program workforce augmentation must 
be realized with NASA personnel rather than contractor in these 
critical areas. In this context, the team concluded that, because of 
workforce shortages, NASA had to use quality assurance personnel who, 
although certified, lacked specific experience with wiring issues. In 
general, our work confirms the concerns expressed by the SIAT report.
                                 ______
                                 
    Response to written questions submitted by Hon. John McCain to 
                               Tony Spear
    Question 1. One of your recommendations is to improve the 
participation of universities in space missions. Can explain the merits 
of this approach?
    Answer. Witness did not respond.

    Question 2. Would you suggest adjusting current project schedules 
to avoid the risk of excessive cost-cutting? That seems to be your 
overarching sentiment in your testimony as a result of your vast 
management experience.
    Answer. Witness did not respond.

    Question 3. Do you believe that Mr. Goldin's ``no prescription for 
success'' strategy is the right approach to resolving these management 
problems given the prescriptive nature of some of your recommendations?
    Answer. Witness did not respond.

    Question 4. In the Faster, Better, Cheaper report, Colonel Pete 
Rustan, the Clementine Project Manager, is quoted by saying that 
``careful FBC pre-project planning and costing are as important as ever 
before.'' Has NASA applied those principles to the International Space 
Station and other ongoing projects?
    Answer. Witness did not respond.

    Question 5. Is NASA adequately and aggressively taking steps to 
reverse the talent drain that is outlined in the Faster, Better, 
Cheaper report?
    Answer. Witness did not respond.

    Question 6. If technology is the key to implementing the Faster, 
Better, Cheaper strategy, what happens to Mr. Goldin's paradigm if 
technological advances do not occur quickly enough? Does Faster, 
Better, Cheaper still work?
    Answer. Witness did not respond.
                                 ______
                                 
    Response to written questions submitted by Hon. John McCain to 
                          Arthur G. Stephenson
    Question 1. You stated in your written testimony that the processes 
in place on the Mars Climate Orbiter did not catch the root cause. Can 
you please describe these processes and why they were inadequate? Is 
NASA still employing them following your investigatory report 
recommendations?

    Answer. The process in place on MCO did not catch the unit 
conversion error or the inability of the teams at JPL and Lockheed 
Martin to get together and discover the navigation error. One process 
was the process of raising concerns and formally logging those concerns 
so that the concern was formally addressed. The Navigator did raise a 
concern to his supervisor but it was not formally documented. Another 
process that failed was the design review process. Although design 
reviews are standard practice, the navigation process was not reviewed.
    Following our MCO report and other Mars failure reports, NASA took 
steps to place more rigor into these processes, thereby greatly 
reducing the likelihood of this type of problem in the future. As we 
said in the MCO report, errors will occur, the process will breakdown 
at times, but there needs to be checks and balances in the system to 
catch these errors. I think NASA has put processes in place now to 
catch errors.

    Question 2. According to your testimony, you believe that if 
neither additional resources nor a reduction in project scope is 
achievable, then project management should recommend cancellation 
rather than proceed with a project that carries too much risk. Can you 
apply this dilemma to any current projects at NASA? Do you believe that 
other project managers would agree and carry out your management 
principle?

    Answer. I believe cancellation is better than proceeding with a 
project that is too risky. Usually a high-risk program can be brought 
to a reasonable risk but only with the infusion of additional funds. If 
the cost/benefit does not warrant the additional funds needed, then the 
project should be cancelled rather than carry excessive risk. This past 
week, I announced cancellation of the X-34 project for this very 
reason. I believe other NASA managers are willing to do the same (i.e. 
Pluto Kuiper cancellation).

    Question 3. What are the major technological breakthroughs that 
would enable NASA to cut costs and effectively integrate Faster, 
Better, Cheaper agency-wide?

    Answer. The major technical breakthroughs that would enable NASA to 
cut costs and effectively integrate Faster, Better, Cheaper (FBC) 
Agency-wide are program or project specific. What would make one 
program FBC is not the same as another. One technology breakthrough 
area that applies to all NASA space programs is lower cost, higher 
reliability space transportation. Every project NASA undertakes that 
involves going into space requires launch and often in-space 
transportation systems. If we can dramatically lower the cost of access 
to space and space travel, we can dramatically change the commercial, 
military and scientific impact on earth that derives from space assets.
    The Space Launch Initiative is designed to lower the cost of access 
to space by developing more reliable, lower cost-to-operate second 
generation reusable launch systems. This will be done by funding risk 
reduction activities, like space launch architecture option studies and 
funding risk reduction technology development, like lower cost, higher 
reliable reusable propulsion systems.
    NASA's Advanced Space Transportation Program addresses third 
generation reusable launch systems that will approach airline-like 
operations into space.

    Question 4. Do you believe that Mr. Goldin's ``no prescription for 
success'' strategy is the right approach to resolving these management 
problems given the prescriptive nature of some of your recommendations?

    Answer. Mr. Goldin agrees with the findings and recommendations of 
the NASA Integrated Action Team (NIAT) report. This report reviewed and 
integrated the recommendations of four reports--two related to Mars 
failures, one that addressed FBC philosophy and one that addressed the 
Shuttle. The NIAT report has specific recommendations, some coming from 
the MCO Committee I chaired. At the end of the day, the best practices 
(``prescriptions'') are dependent on the people who do the work. That 
is what I think Mr. Goldin meant by there are ``no prescriptions for 
success.'' NASA and NASA's contractors employ excellent people. NASA 
and industry senior management must instill a culture that does not 
allow risks to be excessive while encouraging projects to stretch to 
new levels. Only experienced, well-trained leaders will get it right. 
Mentoring, training, and hands-on experience along with well grounded 
procedures and processes are key to the success we are counting on.
                                 ______
                                 
    Response to written questions submitted by Hon. John McCain to 
                            Daniel S. Goldin
    Question 1. Given yesterday's press article on the Mars Polar 
Lander and the Young report, have you personally reviewed the report? 
If so, do you feel that Dr. Stone's statement on ``difficult times 
ahead'' applies across NASA as well?
    Answer. Mr. Young and his team did a fine job and provided NASA 
with a very thorough review. This report has caused us to step back for 
a moment and rethink our approach with regard to some of our missions. 
I still believe that faster-better-cheaper is the right direction for 
NASA, but it has become clear that perhaps we pushed a little too hard, 
too fast. We are looking at all of our programs to ensure that we have 
the right mission scope and the appropriate resources identified to 
ensure mission success. This review has identified some programs that 
need to be realigned--Outer Planets is a prime example--and we are 
doing that now. We've also found programs that are exactly on the right 
track. I think this kind of review is a valuable tool. We will continue 
to undertake efforts to drive down mission costs but will seek to more 
carefully assess and manage risk as appropriate to different types of 
missions in the future. We made some mistakes; now we are learning from 
them and moving ahead so that we can continue to deliver the science 
results that the American public both expects and deserves.

    Question 2. Should the Shuttle orbiters be re-examined given the 
use of unqualified personnel during last year's test?
    Answer. Our research into this question failed to show that 
``unqualified'' personnel were used. In addition, we reviewed again the 
Space Shuttle Independent Assessment Team report (released on March 7, 
2000) and found no mention there to use of ``unqualified'' personnel. 
Space Shuttle program policy has been and will be to use only qualified 
personnel for every aspect of system processing and launch and landing 
operations. Lessons learned from each flight (In-Flight Anomalies and 
problem reports) will be addressed in a timely manner and so as to 
assure that process changes include workforce training.

    Question 3. If ``acquiring, motivating, and keeping good people,'' 
is one of the top priorities of NASA to ensure the future of Faster, 
Better, Cheaper, why have you continued to cut or stagnate the agency's 
funding for academic programs over the last few years? Doesn't NASA 
actions contradict what you're saying?
    Answer. In recent years, NASA has been increasing its budget and 
expenditures for training and development of the Agency workforce. Our 
expenditures in these areas have increased from $30 million in 1997 to 
over $47 million in 2000--from 2.5 percent of salary in FY 1997 to 3.6 
percent of salary in FY 2000. In concert with discontinuing downsizing 
and beginning to hire and revitalize the workforce, the Agency has 
encouraged an environment of continual learning so that employees can 
possess leading edge skills and competencies to fulfill NASA missions. 
In order to foster such an environment, we plan to expand delivery 
methods being utilized to develop the workforce and to develop e-
learning alternatives that can be accessed at all locations and levels, 
increasing the ability to expand participation across the Agency. New 
capabilities are also being developed to facilitate learning within 
intact teams, delivering learning experiences tailored to a project 
team at the point in time it is needed. In addition, some Centers are 
also increasing their resources for Center-specific needs. Other 
learning alternatives which require very little funding are also being 
emphasized, such as providing hands-on developmental experiences, 
mentoring of lesser experienced employees by more senior members of the 
workforce, and other career development initiatives. We continue to 
emphasize training and development in the areas of systems engineering, 
high quality technical training, project management, and leadership 
skills. We have also taken steps to encourage additional advanced 
academic study and attendance at technical conferences and symposia by 
providing additional funding to NASA Centers specifically designed for 
these purposes.
    With respect to Academic Programs, designed to serve the needs of 
the education community and inspire an interest in math and science in 
students at all grade levels, NASA's FY 2001 request of $144 million 
for Academic Programs represented an increase of 12 percent over the FY 
2000 enacted level (minus Congressionally directed programs). This 
request maintained a core program of $100 million with an additional 
$44 million embedded in the Enterprises, as shown below.

                   NASA Funding for Academic Programs
                        (in Millions of Dollars)

                                                NASA FY01
                                 Actual FY00     Request     Actual FY01

Baseline Program                        100           100           100
Enterprise Contributions                 29            44            44
Total Baseline Program                  129           144           144
Congressional Add-ons *                  39             0            33
Total Funding                           168           144           177


* Congress added funds for specific programs designated for a particular
  fiscal year that were not included in NASA's request.

    Even in times of declining budgets NASA has made a commitment to 
maintain the stability of the Academic Programs budget. We believe this 
represents a strong commitment to invest in the future science and 
technology workforce and in greater scientific and technological 
literacy in general, which is the Nation's foundation for future 
discoveries and economic prosperity. This is truly an investment to 
embark on a bright new future.

    Question 4. You mentioned in your written statement that you will 
not issue a ``prescription for success'' to the NASA workforce. Can you 
elaborate on this assertion? Does this mean you plan to let them solve 
their own problems?
    Answer. As an agency responsible to the American taxpayers, NASA 
can be justifiably proud of its scientific and technological success 
during the past decade, particularly in light of accomplishments 
achieved while faced with budgetary and workforce reductions. 
Nonetheless, we strive to continually understand our present state and 
analyze what needs to be done to plan a path of continual improvement. 
We do not want to issue a ``prescription for success'' to the NASA 
workforce if it is a one-size-fits-all prescriptive checklist that must 
be rigidly adhered to. This would stifle the very innovation that we 
strive to enhance within our talented workforce. Instead, we are 
providing general principles and guidelines that can be tailored and 
allow for innovation. Based upon the Mars program failures and other 
activities, the Agency recognized the need to assess and respond to 
various findings and recommendations that could be more broadly applied 
to a wide range of NASA programs and projects. This resulted in an 
assessment chaired by the NASA Chief Engineer and an analysis and 
report of the NASA Integrated Action Team. This report found that to be 
successful in our project planning and execution, there remain several 
elements that must be considered which are indicators of future 
success.
    The people of NASA and its partners are the linchpins of our 
present and future success. Challenging work, executed in a safe and 
productive work environment by people who are well prepared for and 
supported in their work is an essential element to successful project 
planning and execution. Well-defined and executed formulation and 
implementation is also required. These processes must be driven by 
thorough understanding and controlling of risks, where open 
communication will allow for problems to be found early, and when the 
right people can be involved and resources needed to solve them are 
less substantial. Innovation needs to be encouraged while integrating 
sound management and engineering fundamentals.
    State-of-the-art tools and methodologies are also essential. The 
cutting edge of research and technology will only be achieved through 
advancing the way we do work. Technology must be cutting edge and 
advance and address both the needs of today and also those of tomorrow. 
A sustained investment in America's future through advancing technology 
development will be essential to our Nation's global competitiveness 
and leadership.
    The recommendations of the NIAT report provide a framework and 
important guidelines for us to take NASA into the future. Through this 
vision for the future, we will further strengthen our capability to be 
effective stewards of the public trust.

    Question 5. Your written statement indicates that NASA's steps over 
the past two years demonstrate its commitment to a world class system 
engineering program. How do you explain the findings of several 
external review reports calling for better systems engineering efforts? 
Also, would you outline how you are incorporating systems engineering 
in the Space Station program given the review two years ago by the Cost 
Assessment and Validation Task Force?
    Answer. NASA takes great pride in possessing a knowledgeable and 
skilled engineering workforce capable of world-class performance in the 
development, integration, and operation of complex space systems and 
aerospace technologies. Over the last several years, changes in 
practice, skills, and knowledge of the workforce, coupled with the 
demand for innovation in aerospace science and technology, particularly 
the revolution in information technologies, presented a tremendous 
challenge to NASA.
    NASA is committed to the revitalization and sustainability of its 
engineering capability. With the support of the Administration and 
Congress, NASA has started to fill critical engineering and other 
skills essential to health and safety of the Shuttle and ISS programs. 
In February 2000, the NASA Administrator created the position of Deputy 
Chief Engineer for Systems Engineering. This position was established 
to develop the vision, objectives, and strategies for the development 
and maintenance of the Agency's world-class engineering capability in 
the Agency.
    In March 2000, NASA released a series of reports that were the 
product of activities chartered by the Agency in response to failures 
in the Mars Program, Shuttle wiring problems, and a generic assessment 
of NASA's approach to executing ``Faster, Better, Cheaper'' projects. 
Some of the specific recommendations on systems engineering contained 
those reports were:

Mars Climate Orbiter (MCO) report

  <bullet> Establish and fully staff a comprehensive systems 
        engineering team at the start of each project.

  <bullet> A core group of system developers and systems engineering 
        personnel should assist the operations team in developing 
        nominal and contingency procedures, mission rules and 
        operational.

Mars Program Independent Assessment (MPIA)

  <bullet> Appropriate levels of systems engineering need to be in 
        place throughout the formulation and implementation phases of 
        all projects.

    Also in March 2000, the Office of the Chief Engineer chartered a 
NASA-wide senior team, the NASA Integrated Action Team (NIAT), to 
develop an integrated Agency strategy to respond to the recommendations 
of these reports. The NIAT report, released in December 2000, made 
several observations regarding systems engineering. It said that ``The 
reports expressed concern as to the consistency of competency across 
teams in light of the need to establish teams that are multiskilled, 
including systems engineering, operations, and scientific expertise.'' 
It went on to say that ``The increased number of projects amplified the 
challenges on the systems engineering pool by placing equal demands for 
project managers from the same talent pool.'' In the section of the 
report addressing the need to revitalize engineering capability, the 
NIAT report discusses ``the need for a comprehensive plan to ensure a 
world-class engineering capability that includes the development and 
application of advanced engineering tools and capabilities. Much of 
this effort will focus on strengthening capabilities in systems 
engineering.''
    The report concludes that an ``ingredient in the assessment of 
NASA's engineering capability is consistency in process, and execution. 
Over time, each of the NASA Centers has developed internal processes 
for systems engineering that have made them largely successful in their 
mission. However, as we strive for greater integration, consistency, 
and sharing of expertise among NASA Centers, industry, and academia in 
collaborative environments, it appears that the Agency could benefit 
from appropriate Agencywide standards in the systems engineering 
process.'' Furthermore, it concludes that ``Specific considerations are 
needed for systems engineering skills at the ``mission'' level, and 
below, to ensure the ``systems'' perspective is maintained at all 
levels throughout the life cycle.''
    Some of the NIAT recommendations specific to systems engineering 
capabilities are:

  <bullet> Enhance education and training for engineering capability 
        including real-world hardware experience and partnering with 
        academia to develop curriculum such as systems engineering, 
        advanced engineering environment, risk assessment, and cause-
        and-effect analysis tools and methods.

  <bullet> Develop Agency-wide process standards, requirements and 
        guidelines for the effective implementation of systems 
        engineering in programs and projects.

    The proactive steps taken by NASA over the last two years 
demonstrate the Agency's commitment to the sustenance of a world class 
program/project management, and systems engineering capability. The 
concerns raised by the reports are a reminder that the NASA business is 
inherently high risk, and that as steps are taken to further improve 
the program/project management and systems engineering capability, we 
must remain ever vigilant to minimize the probability of failures that 
are preventable.
    NASA has taken a very broad view of the systems engineering for the 
Space Station and integrated that function across NASA and the 
contractor activities. Development, systems integration and sustaining 
engineering activities are all managed, including contractor technical 
oversight, in a single NASA organization (see chart below). As the 
development phase is incrementally completed critical skills are 
transitioning to sustaining engineering to support the assembly stages.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Recently, the Space Station program began a major activity to 
assure continuity of skills and a seamless handoff from development to 
operations was the initiation. In late 1999, a statement of work for 
Integration and Operations (I&O) was initiated within the prime 
contract. The transition planning and skills retention is now taking 
place through this portion of the contract. The same engineers who are 
currently, and have been, designing, building and integrating the 
Station are working on the I&O contract to assure its safe and 
effective operation.
    NASA has clearly delineated and documented the systems integration 
responsibilities for which each party is accountable and currently 
performing.

    Question 6. What is NASA's response to the Comptroller General's 
checklist for human capital management? Is it being used at NASA? Where 
and to what extent?
    Answer. NASA has applied the checklist's framework to its human 
resources policy and oversight functions in several ways. In developing 
the Office of Human Resources and Education Functional Leadership Plan 
last year, we reviewed and incorporated into our thinking the basic 
principles from the Comptroller General's checklist for human capital 
management. The final plan is based on the strategic concept that ``Our 
greatest strength is our workforce'' and mirrors basic principles 
reflected in Part 1 and 2 of GAO's checklist. Secondly, since the mid-
eighties, NASA has been recognized for its strong human resources' 
self-assessment program. The core component of our program is local 
accountability, with Agency guidance in the form of a reviewer's 
complete checklist on merit principles and other national goals in law 
and regulations. This approach relates to the GAO checklist's cross-
cutting considerations. Moreover, in January 2000, we incorporated the 
GAO checklist as a companion piece to our self-assessment protocol. 
Finally, we have used, and plan to continue to use, basic premises of 
the checklist as guidance when reviewing the effectiveness of our human 
resources programs to identify additional needs and enhancements. One 
recent example was the development of our Agency's improvement plan in 
response to National Performance Review survey results.

    Question 7. What is NASA doing to address recruitment of new 
employees, especially software engineers, to meet both current and 
future program needs? How can NASA remain competitive with the alluring 
packages of the high tech industry?
    Answer. We must be innovative and energetic in our efforts to 
attract the best and the brightest to NASA. The most effective 
recruiting tool we have is the NASA mission. People generally come to 
work for NASA not for the money or benefits, but because they enjoy the 
work and want to be a part of the mission. We need to take full 
advantage of the attractiveness of our mission, but that alone is not 
enough. While NASA will never be able to match some of the compensation 
packages offered by the private sector, we must do our best to narrow 
the gap so that we are at least competitive. This will require using 
the financial incentives at our disposal, emphasizing the non-financial 
incentives, streamlining the hiring process, participating in programs 
that provide sources of future talent for the Agency, and being active 
in a wide array of recruitment initiatives.
    Our Centers use various financial incentives in order to make 
competitive job offers. Special salary rates are in place for some 
hard-to-fill occupations, covering many of NASA's scientist, 
engineering and engineering software positions. To make offers more 
attractive, our Centers are able to offer starting salaries above the 
minimum rate of a grade through the superior qualifications appointment 
authority. They offer recruitment bonuses to attract exceptional 
candidates to NASA. Very soon they will have a new financial incentive 
available for their use: the authority to repay federally insured 
student loans. In offering jobs, we emphasize the entire Federal 
package--not just the starting salary level--since our retirement, 
health, leave, and life insurance programs are competitive with those 
offered by many private sector companies. We also emphasize the other 
benefits we can offer such as flexible work schedules, family friendly 
programs, an array of professional development opportunities, and 
tuition support.
    Unfortunately, despite these incentives, many of our new employees 
must still make a personal or family sacrifice in order to work for 
NASA. The alluring packages (salary and benefits) offered by high tech 
industry cannot be matched by NASA. The impact is national in scope but 
is particularly acute for NASA Centers located in higher cost of living 
areas. The fierce competition for information technology workers, 
including software engineers, puts NASA at a competitive disadvantage.
    We are committed to marketing NASA as the ``employer of choice.'' 
One of our greatest advantages in competing for the best and the 
brightest is our ability to excite individuals about NASA's mission, 
commitment to excellence, and professional challenges and 
opportunities.
    In order to compete with employers who have streamlined hiring 
procedures, we are automating our processes with software that will 
enable individuals to apply for our jobs easily and receive timely 
responses.
    We recognize that we must have a continuing presence on college and 
university campuses to maintain an effective influx of college 
graduates into NASA. The more than 140 on-campus recruitment trips 
scheduled over the next year are typical of this presence. We plan to 
continue to use the Presidential Management Intern Program and student 
employment programs as sources for entry-level hires as well. In order 
to recruit more effectively with the cooperative education program, we 
are developing new qualification requirements for these students. A new 
hiring authority recently established, the Federal Career Intern 
Program, soon will be available as another tool for hiring quality 
candidates under streamlined procedures.
    Another means of developing a future pipeline of talent from which 
NASA can draw is the NASA Undergraduate Student Research Program, 
piloted in FY 2001. One of its purposes is to provide undergraduates 
with challenging research experiences that stimulate continued interest 
in the disciplines aligned with NASA's mission. Another is to build a 
national program bridge--from existing NASA K-12 Education Program 
activities to NASA Higher Education Program options--to encourage 
interest in future professional opportunities with NASA.
    Our marketing techniques and efforts have become more expansive in 
order to compete in today's environment. We established a unified NASA 
jobs web site to provide easy access to information on jobs, with 
direct links to information on NASA's mission and Centers as well as 
links to the application procedures. We will continue to promote the 
Internet as a recruiting tool. A new National Recruitment Team, based 
at Headquarters, is being established to develop new Agency-wide 
recruitment strategies and tools to meet NASA's current and future 
hiring challenges in attracting and retaining a world-class, highly 
technical and diverse workforce. This team will facilitate and 
complement the Centers' recruitment efforts; collaborate with the 
Institutional Program offices and Functional Offices, enhance 
relationships with universities, and facilitate targeted diversity and 
disability recruitment.

    Question 8. You mentioned that Station runout costs have decreased 
by $1.2 billion, of which $.8 billion is due to a shift of tiding for 
the Crew Return Vehicle to another budget account. What is the 
rationale for this transfer?
    Answer. The statement was made in the context of the Station 
funding line. During the formulation of the FY 2001-2005 budget, the 
Agency reallocated the FY 2002-2005 funding estimates for the Phase 2 
(production phase) of the CRV to the Science, Aeronautics and 
Technology (SAT) account as part of the funding for the Space Launch 
Initiative. The funding is in SAT pending a decision on whether to 
proceed with an X-38-based CRV design (which could only be used for 
emergency crew return from the Space Station) or a design that could 
also provide a crew transfer function to bring crew to and from orbit 
as part of a new space transportation architecture. This decision is 
within the context of broader decisions that NASA and the 
Administration will make regarding future space transportation 
architectures. A design decision on whether to follow the X-38 path or 
to incorporate alternative design concepts is expected to be made 
within two years.

    Question 9. Who pays for the efforts to correct problems on the X-
33 program?
    Answer. NASA and Lockheed Martin have negotiated an extension to 
the cooperative agreement that extends the Period of Performance from 
December 31, 2000 to March 31, 2001. The agreement allows Lockheed 
Martin to re-plan the flight schedule based on recovery from the 
composite tank failure. No additional funding has been added to the 
cooperative agreement. NASA's investment of $912 million remains fixed.

    Question 10. What will NASA do if the industry partner decides to 
discontinue the X-33 project?
    Answer. If Lockheed Martin chooses to discontinue the X-33 project, 
the project will be terminated. As a result of the negotiations to 
extend the cooperative agreement, the government has the right to 
request the transfer of the title of ownership for all X-33 hardware 
and data.

    Question 11. How can you state that ``NASA has saved approximately 
$40 billion from planned budgets for the American taxpayer and is doing 
more for less,'' when the International Space Station has experienced 
cost overruns and increases over $9 billion and we just lost two Mars 
missions worth $360 million? Where is the savings to the American 
taxpayer? How can I explain this to my constituents in Tennessee who 
want to know what their investment is funding?
    Answer. Failures and cost overruns are expected when the 
implementation of technology is pushing the state-of-the art; and 
projects with the highest risk are often the ones that reap the biggest 
benefits with the highest payoffs in the future. While some of the 
projects at NASA have experienced problems, most have not. Between 1992 
and 2000, NASA launched 146 payloads valued at a total of $18 billion. 
Of this number, 136 payloads were successful. We believe our success is 
a testimony to NASA's strong systems engineering capability. Our total 
losses amounted to 10 payloads, measured at about $500 million, or less 
than 3 percent. The Mars 1998 failures alone accounted for 60 percent 
of this loss. Planetary spacecraft, which used to be launched twice a 
decade at a cost measured in the billions, are now routinely launched 
each year at a small fraction of that cost.

    Question 12. Given the problems on the X-33 program, is it time for 
NASA to pursue an incremental approach to technology development rather 
than the evolutionary one used on the X-33 program?
    Answer. NASA has undertaken a Space Launch Initiative and developed 
an Integrated Space Transportation Plan to pursue new approaches to 
reducing NASA's space transportation costs. A brief description of ISTP 
and SLI follows but more information can be found on the web at http://
std.msfc.nasa.gov/spacelaunch.html.
    The goal of the Space Launch Initiative (SLI) is for NASA, by 2010, 
to meet its human space flight needs on commercial launch vehicles that 
will reduce costs and improve safety. If successful, SLI will 
dramatically alter the economics of space launch. SLI is based on 
lessons learned by NASA and industry from working together on the X-33, 
X-34, and X-37, and on inputs from Space Transportation Architecture 
Studies commissioned by NASA and led by industry over the past two 
years. The initiative is designed around four principles:

  <bullet> Commercial Convergence--flying on privately owned and 
        operated launch vehicles

  <bullet> Competition--bringing innovation and new ideas to bear

  <bullet> Assured Access--ensuring alternate means of getting to space 
        despite launch mishaps

  <bullet> The Ability to Evolve--adding new capabilities affordably as 
        new mission needs emerge.

    SLI is funded at $4.5 billion over five years ($290 million in FY 
2001 ramping up to $1.3 billion per year). NASA is undertaking three 
major activities through SLI:

  <bullet> One, invest in technical risk reduction activities to enable 
        competitive, full-scale development of privately owned and 
        operated launch vehicles by 2005 (Risk Reduction and 
        Competition, $2.4 billion);

  <bullet> Two, develop hardware that can be flown on these commercial 
        launch vehicles to meet NASA's unique needs, such as crew 
        transport (NASA-Unique Systems, $1.6 billion); and

  <bullet> Three, pursue procurements of existing and emergent vehicles 
        for select Space Station needs as a means of providing near-
        term, assured access and demonstrating new, innovative 
        approaches (Alternative Access, $300 million).

    In addition to these three major activities, the Space Launch 
Initiative also funds ongoing x-vehicle programs like X-34 and X-37 and 
critical systems engineering and requirements definition activities 
that will tie these elements together ($200 million).
    The Integrated Space Transportation Plan (ISTP) is the framework 
NASA uses to coordinate its space transportation investments. 
Specifically, ISTP coordinates ongoing investments (Space Shuttle 
safety improvements, the Crew Return Vehicle for the International 
Space Station, base technology investments in space transportation) 
with investments in new vehicles to reduce NASA's space transportation 
costs (SLI as described above). For example, Space Shuttle safety 
investments are now focused on improvements that will be fully in place 
by 2005 so that Shuttle can benefit from these safety investments 
before a potential replacement would be available through SLI in 2010. 
In another example, prior to a full-scale development go-ahead decision 
on a Space Station Crew Return Vehicle, NASA will fully examine a range 
of designs to for other, cost-effective options that meet both the crew 
return need and other NASA-unique needs, such as crew and cargo 
transport, on future launch vehicles developed under the Space Launch 
Initiative.
    SLI and ISTP differ from previous approaches by providing multiple, 
competing paths to future systems with back-up alternatives. For 
example, the Space Launch Initiative seeks to reduce technical risk for 
at least two, competing Earth-to-orbit launch vehicle designs to enable 
full-scale development decisions in 2005 with operational vehicles by 
2010. By pursuing at least two competing designs, NASA intends to spur 
industry innovation and have more than one development path if 
technical issues pose roadblocks to a particular design. If technical 
issues or market conditions delay development decisions in 2005 or 
operability by 2010, ISTP is making concurrent investments in Space 
Shuttle safety to ensure continued U.S. human access to space. In the 
near-term, the Space Launch Initiative also seeks alternate means of 
access to Space Station for cargo on existing or emergent commercial 
launch vehicles to back-up the Space Shuttle in the near-term.
    With respect to X-33 and other existing x-vehicle programs, 
decisions on continuing investments in those vehicles (e.g., a re-
planned flight schedule for X-33) will be tied to industry proposals 
under the larger Space Launch Initiative to reduce technical risk and 
prepare viable, competing designs for the 2005 competition. In this 
way, ISTP coordination and Space Launch Initiative goals provide an 
important context for decisions on specific space transportation 
investments.
                                 ______
                                 
      Response to written questions submitted by Hon. John McCain 
                         to Dr. Harry McDonald
    Question 1. Your statement mentioned a ``success engendered safety 
optimism.'' Can you elaborate on what that term implies?
    Answer. The Shuttle is a complex, well-defended, yet aging system 
that operates in an unforgiving flight environment and requires 
extensive, often intrusive maintenance. In its review, the SIAT 
observed an ``erosion'' of some Shuttle safety-critical defenses. 
Although the perceived erosion is attributable to a number of different 
factors, one factor of concern to the assessment team is ``success 
engendered safety optimism.'' Success engendered safety optimism refers 
to the tendency to accept risk solely because of prior success. The 
manifestations of this tendency may include: the assumption that risk 
decreases over time with each successful launch; the perception that 
the Shuttle is now an ``operational'' vehicle requiring only routine 
attention; the discounting of precursor incidences; and the reliance on 
redundancy for risk management. Because past success does not preclude 
the existence of problems in processes and procedures that could be 
significantly improved, the SIAT believes it is imperative that the SSP 
rigorously guard against success engendered safety optimism.

    Question 2. You mentioned that risk management erosion was created 
by the desire to reduce costs. Who led this cost reduction effort--NASA 
or the operations contractor?
    Answer. The cost reduction effort, part of the overall effort to 
privatize and streamline Shuttle operations in the mid-90s, was led by 
NASA in response to the past Administration's directives.

    Question 3. You also mentioned the need for more frequent turnover 
on the Aerospace Safety Advisory Panel. Can you elaborate on the 
current membership format and tenure and the type of expertise that 
needs to be added?
    Answer. The Aerospace Safety Advisory Panel is an independent group 
of experts consisting of nine members who are appointed by the NASA 
Administrator. As stated in its charter, appointments are for 6 years 
and reaffirmed annually. To provide continuity of service and preserve 
integrity, not more than one-third of the Panel members may be 
appointed every 2 years. Consultants are appointed as needed by the 
Panel Chair, with the concurrence of the Administrator, and reaffirmed 
annually.
    The tenure of individual Panel members currently averages almost 11 
years, with one member serving since 1977, and a former member, now a 
consultant, serving continuously since 1982. An ISO 9000 Headquarters 
OfficeWork instruction, dated April 14, 2000, addresses the appointment 
of new ASAP members. Central to this process is the determination of 
additional expertise needed by ASAP to perform its function. 
Additionally, issues of tenure and renewal are being vigorously 
addressed in the revised ASAP charter which will be signed in April 
2001.
    The SIAT believes, and NASA concurs, that a balance must be 
maintained between familiarity and independence to ensure appropriate 
review. Further, with the rapid advance of technologies that may 
enhance Shuttle safety, members and consultants with expertise in 
emerging disciplines will be needed with increasing frequency. Whereas 
the current expertise on the panel leans heavily toward established 
aerospace technologies, new members with knowledge of intelligent 
systems, human-machine interfaces, and vehicle health management, and 
advanced risk assessment tools may become important.

    Question 4. You have commented that despite the findings and 
recommendations of your review team and the Aerospace Safety Advisory 
Panel, workforce stress issues remain. Do you feel that NASA's 
management will resolve these problems?
    Answer. In performing its review, the SIAT was continually 
impressed with the skill, dedication, and concern for public and 
astronaut safety of the entire Shuttle workforce. The high level 
workforce performance required by the Shuttle program has always 
created some level of workforce stress; however, the workforce 
perception is that this has increased significantly in the last few 
years. It became apparent to the SIAT that the significant number of 
changes experienced by the Shuttle Program in recent years has affected 
workforce morale or diverted workforce attention.
    Observations of workforce issues have been reported consistently by 
the ASAP since 1996. The SIAT was concerned that some of these issues 
and their potential impact on safety were still evident in workforce 
assessments (e.g., Occupational Stress Inventory) and in climate 
indicators (e.g., overtime hours worked) obtained during its review.
    The SIAT was gratified by an immediate response to its findings by 
NASA management whereby they increased NASA Quality Assurance personnel 
resources for Shuttle processing at KSC. The response of the SSP to the 
SIAT recommendations also indicates renewed commitment toward 
addressing workforce morale and attention. As reported to the SIAT, 
communication processes have been examined and improved; access of 
``floor'' personnel to higher management has been increased; and 
workforce analysis studies have been, and will continue to be, used to 
monitor employee stress. Further, teams have been formed to address 
human factors issues in processing, work instructions and environments, 
and error resolution. Finally, NASA management continues to emphasize 
the development and delivery of state-of-art-technology to assist 
Shuttle personnel in performing their complex activities with greater 
fidelity and safety.

    Question 5. Do you know of any efforts by NASA to address any of 
your team's recommendations as part of the Shuttle upgrade program?
    Answer. The SIAT did not directly or extensively address Shuttle 
upgrades in its assessment. However, several of the planned upgrades 
were discussed in the Shuttle Program's response to several of the SIAT 
recommendations. Specifically, planned improvements to the Auxiliary 
Power Units (APU), the Reaction Control System (RCS), and the Orbital 
Maneuvering System (OMS) were described as addressing SIAT 
recommendations (parts of, or in their entirety) for these subsystems.

    Question 6. You address the erosion of flight-safety critical 
processes due to a reduction in allocated resources and appropriate 
staff in your SIAT report. Do you believe that Administrator Goldin and 
other NASA top officials anticipated this erosion prior to last year 
when several internal reports confirmed this fact? If so, did anyone 
acknowledge it?
    Answer. The Shuttle program has recently undergone a massive change 
in structure with the transition to a slimmed down, contractor-run 
operation, the Shuttle Flight Operations Contract (SFOC). This has been 
accomplished with significant cost savings and without a major 
incident. The Administrator and his staff were aware that the changes 
would stress the system and that careful scrutiny would be necessary to 
identify and assess potential erosion in flight-safety critical 
processes. When two in-flight anomalies on STS-93 occurred, they were 
viewed as potential indications of problems related to processing and 
aging of the Shuttle system and the present assessment was initiated. 
The report's findings and recommendations are being considered 
seriously and actions taken appropriately.

    Question 7. Your review team suggested in its final report that 
prior to the next Shuttle flight, the Space Shuttle Program should make 
a quantitative assessment of the success of the visual wiring 
inspection process. Did this occur? What was the response to this 
suggestion from the KSC leadership?
    Answer. The SIAT did recommend that, prior to STS-103 (first flight 
after STS-93), the reliability of the wire visual inspection process be 
quantified. This recommendation was dispositioned at the Pre-Flight 
Readiness Review held at JSC on November 2, 1999. The Shuttle program 
fulfilled the requirement by performing two independent inspections of 
the wiring in OV103 at KSC and two independent inspections on OV1O2 at 
the Palmdale facility. Reports from the SSP indicate that on OV103, the 
first inspection identified 70-80 percent of wire defects; the 
subsequent 20-30 percent were found during the second inspection. For 
the reliability assessment on OV102, slightly better results were 
obtained, with 86 percent of the total number of defects found during 
the first inspection.

    Question 8. Do you believe that Mr. Goldin's ``no prescription for 
success'' strategy is the right approach to resolving these management 
problems given the prescriptive nature of some of your recommendations?
    Answer. As with any independent assessment, benefit comes from a 
fresh perspective, a very refined focus, and being unrestrained by 
typical constraints. Programs, on the other hand, require in-depth 
familiarity and constant balancing of constraints and goals. The SIAT 
realizes that its recommendations must be pursued within the context of 
the Shuttle program: while the recommendations are prescriptive in the 
sense that they require specific issues to be addressed, there is room 
for expert, creative implementation by the Shuttle program.

    Question 9. Mr. Li's testimony stated that during a recent Shuttle 
wiring investigation personnel inexperienced in wiring issues were used 
to perform critical inspections. How serious is this finding in terms 
of risk to the overall safety program?
    Answer. The SIAT has a concern similar to Mr. Li's. The specific 
finding in the SIAT report states: ``The technicians that are working 
on the wiring are certified, yet some lack detailed specific experience 
with wiring. Some of these technicians have extensive experience 
working on many Shuttle operations yet limited time inspecting and 
repairing wiring. In some cases the technicians were given training 
just prior to the start of the recent wiring inspection and repair 
effort.'' The SIAT gave a recommendation to the Shuttle program to 
assure that certification of inspectors and technicians be conducted by 
experienced domain experts. The Shuttle program has responded that 
instructors represent the most knowledgeable individuals in their field 
of expertise and that periodic audits and evaluations of certification 
training are performed to ensure training adequacy.
    Currently, visual inspection remains the best defense against 
wiring faults. However, visual inspection is fallible and can actually 
cause wiring defects because of its intrusive nature. As long as visual 
inspection of wiring is used to discover wiring defects, residual risks 
will remain. Substantial reduction of these risks can be made only with 
the development and deployment of reliable, remote, nondestructive 
wiring inspection techniques.


</pre></body></html>
